<html>
<title> - HEARING ON PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 115-399]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-399

               NOMINATIONS OF THE 115TH CONGRESS, PART 1

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      JULY 19 AND OCTOBER 4, 2017

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-986 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>        
       
       
                   
                    
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman

Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Richard Blumenthal, Connecticut
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia

                  Thomas G. Bowman, Staff Director \1\
                  Robert J. Henke, Staff Director \2\
                Tony McClain, Democratic Staff Director

                      Majority Professional Staff
                            Amanda Meredith
                             Gretchan Blum
                            Leslie Campbell
                            Maureen O'Neill
                               Adam Reece
                             David Shearman
                            Jillian Workman

                      Minority Professional Staff
                            Dahlia Melendrez
                            Cassandra Byerly
                                Jon Coen
                              Steve Colley
                               Simon Coon
                           Michelle Dominguez
                             Eric Gardener
                               Carla Lott
                              Jorge Rueda


\1\ Thomas G. Bowman served as Committee majority Staff Director 
through September 5, 2017, after being confirmed as Deputy Secretary of 
Veterans Affairs on August 3, 2017.
\2\ Robert J. Henke became the Committee majority Staff Director on 
September 6, 2017.
                            
                            C O N T E N T S

                              ----------                              

                             July 19, 2017
Nominations of Thomas G. Bowman to be Deputy Secretary, U.S. Department 
   of Veterans Affairs; Brooks D. Tucker to be Assistant Secretary, 
   Congressional and Legislative Affairs; James Byrne to be General 
Counsel; Michael P. Allen, Amanda L. Meredith, and Joseph L. Toth to be 
        Judges of the U.S. Court of Appeals for Veterans Claims
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......     2
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    74
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........   254

                               WITNESSES

Bowman, Tom G., Nominee for Deputy Secretary, U.S. Department of 
  Veterans Affairs...............................................     4
    Prepared statement...........................................     6
    Questionnaire for Presidential nominees......................     8
    Letter from the Office of Government Ethics..................    19
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    20
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................    21
      Hon. Jon Tester............................................    22
Tucker, Brooks D., Nominee for Assistant Secretary, Congressional 
  and Legislative Affairs, U.S. Department of Veterans Affairs...    27
    Prepared statement...........................................    28
    Questionnaire for Presidential nominees......................    30
    Letter from the Office of Government Ethics..................    39
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    40
    Response to prehearing questions submitted by Hon. Jon Tester    42
Byrne, James, Nominee for General Counsel, U.S. Department of 
  Veterans Affairs...............................................    48
    Prepared statement...........................................    49
    Questionnaire for Presidential nominees......................    51
    Letter from the Office of Government Ethics..................    62
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    63
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................    64
      Hon. Jon Tester............................................    65
Allen, Michael P., Nominee for Judge, U.S. Court of Appeals for 
  Veterans Claims................................................    80
    Prepared statement...........................................    81
    Questionnaire for Presidential nominees......................    83
    Non-confidential Supplemental Questionnaire..................   175
    Letter from the Judicial Conference of the United States 
      Committee on Financial Disclosure..........................   197
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   197
      Hon. Jon Tester............................................   201
Meredith, Amanda, Nominee for Judge, U.S. Court of Appeals for 
  Veterans Claims................................................   206
    Prepared statement...........................................   207
    Questionnaire for Presidential nominees......................   208
    Non-confidential Supplemental Questionnaire..................   216
    Letter from the Judicial Conference of the United States 
      Committee on Financial Disclosure..........................   225
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   225
      Hon. Jon Tester............................................   226
Toth, Joseph L., Nominee for Judge, U.S. Court of Appeals for 
  Veterans Claims................................................   227
    Prepared statement...........................................   228
    Questionnaire for Presidential nominees......................   230
    Non-confidential Supplemental Questionnaire..................   238
    Letter from the Judicial Conference of the United States 
      Committee on Financial Disclosure..........................   248
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   248
      Hon. Jon Tester............................................   249

                                APPENDIX

Tillis, Hon. Thom, U.S. Senator from North Carolina; prepared 
  statement......................................................   257
Burr, Hon. Richard, U.S. Senator from North Carolina; prepared 
  statement......................................................   258
Law professors, instructors, and clinicians for Michael P. Allen; 
  letter.........................................................   259
                              ----------                              

                            October 4, 2017
  Nominations to Office of Public and Intergovernmental Affairs, U.S. 
   Department of Veterans Affairs: Melissa Sue Glynn to be Assistant 
    Secretary for Enterprise Integration; Randy Reeves to be Under 
Secretary for Memorial Affairs; and Cheryl Mason to be Chairman of the 
                       Board of Veterans' Appeals
                                SENATORS

Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........   263
Tester, Hon. Jon, Ranking Member, U.S. Senator from Montana......   332
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................   332
Rounds, Hon. Mike, U.S. Senator from South Dakota................   334
Brown, Hon. Sherrod, U.S. Senator from Ohio......................   335
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................   337
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................   338

                               WITNESSES

Glynn, Melissa Sue, Nominee to be Assistant Secretary for 
  Enterprise Integration, Office of Public and Intergovernmental 
  Affairs, U.S. Department of Veterans Affairs...................   264
    Prepared statement...........................................   265
    Questionnaire for Presidential nominees......................   267
    Letter from the Office of Government Ethics..................   276
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   277
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   278
      Hon. Jon Tester............................................   279
    Response to posthearing questions submitted by Hon. Jon 
      Tester.....................................................   284
Reeves, Randy, Nominee to be Under Secretary for Memorial 
  Affairs, Office of Public and Intergovernmental Affairs, U.S. 
  Department of Veterans Affairs.................................   284
    Prepared statement...........................................   286
    Questionnaire for Presidential nominees......................   287
    Letter from the Office of Government Ethics..................   298
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   299
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   300
      Hon. Jon Tester............................................   301
    Response to posthearing questions submitted by:
      Hon. Jon Tester............................................   304
      Hon. Richard Blumenthal....................................   304
Mason, Cheryl L., Nominee to be Chairman of the Board of 
  Veterans' Appeals, Office of Public and Intergovernmental 
  Affairs, U.S. Department of Veterans Affairs...................   306
    Prepared statement...........................................   307
    Questionnaire for Presidential nominees......................   309
    Letter from the Office of Government Ethics..................   319
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   320
    Response to prehearing questions submitted by:
      Hon. Johnny Isakson........................................   321
      Hon. Jon Tester............................................   324
    Response to posthearing questions submitted by:
      Hon. Jon Tester............................................   328
      Hon. Richard Blumenthal....................................   329

                                APPENDIX

Beavers, Leslie E., Brigadier General (USA Ret.), Executive 
  Director, The National Association of State Directors of 
  Veterans Affairs, Inc. (NASDVA); letter in support of Randy 
  Reeves.........................................................   345


                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:30 p.m. in room 
418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Tester, Brown, Blumenthal, and 
Hirono.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. Welcome to the Senate Committee on 
Veterans' Affairs, for our afternoon hearing, which is a very 
important hearing for the Committee but it is also very 
important for our veterans and for the Veterans Administration 
and for David Shulkin. We have six appointees that we are going 
to hear from today that we will vote on later. They all have 
completely important positions for the Veterans Administration, 
for the benefit of our veterans and their claims, their 
benefits, and the operation of the VA.
    For everybody's benefit, particularly Members of the 
Committee--none of them are here except the Ranking Member and 
I, and the record should reflect that, by the way--but for the 
staff representing those members that are here--that are not 
here, we will have a vote. On the first vote tomorrow on the 
floor we will have a vote to pass these out. It is very 
important we get this done before we leave here in August. We 
do not know exactly what the end of this session is going to be 
like so I want to get it done tomorrow and get it done now so 
we can get the deck clean so they can go to work. Every day 
they are not working, our veterans are not being served and 
that is not good for our country. It is not good for us.
    The Ranking Member is aware of my plan, in support of the 
plan. So, if you would cooperate in making sure your member is 
on the floor looking for us to have an off-the-floor vote, I 
would greatly appreciate it.
    We are here today to hear from six nominees and appointees. 
I am going to defer any comments I might make about them until 
they individually testify. But our first panel is Tom G. 
Bowman, of Florida, to be Deputy Secretary of Veterans Affairs; 
Brooks D. Tucker, of Maryland, to be an Assistant Secretary of 
Veterans Affairs, Congressional and Legislative Affairs; and 
James Byrne, of Virginia, to be the General Counsel, Department 
of Veterans Affairs. All three are very important jobs, so 
important I am going to ask you to stand, raise your right 
hand, and repeat after me.
    Do you solemnly swear and affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Bowman. I do.
    Mr. Tucker. I do.
    Mr. Byrne. I do.
    Chairman Isakson. Thank you, and please be seated.
    Senator Tester, do you have any opening remarks you would 
like to make?

  OPENING STATEMENT OF HON. JON TESTER, RANKING MEMBER, U.S. 
                      SENATOR FROM MONTANA

    Senator Tester. I would like to. Thank you, Mr. Chairman.
    I want to thank both panels of nominees for their 
willingness to serve today. I appreciate all of you accepting 
the responsibility that comes with the duties for which you 
have been nominated. It is my hope and the hope of this 
Committee that you are all up to the task. Though I have 
personally met with all of you, I think your answers to the 
questions today will help many make their final determination.
    Tom, I want to talk to you for just a moment. Given your 
work in Congress, the expectation will be that you will help 
give the Department much-needed perspective on congressional 
and veterans' community reactions to changes in department 
policies and legislative proposals. For example, the White 
House recently put forth a legislative proposal on individual 
unemployability (IU), that was met with a backlash from 
veterans groups and Members of Congress. If you were Deputy 
Secretary at that time the Administration was preparing this 
budget request, and I would imagine that you would have been 
able to avoid putting the VA in this awkward position.
    Given the IU proposal is not going anywhere, VA is now 
faced with a hole in our budget that we are going to have to 
scramble to figure out how to plug. There needs to be some 
common sense coming out of the Department and I am hoping that 
you are the guy to provide that.
    Mr. Byrne, as General Counsel you would ensure that the VA 
is doing everything it needs to follow the law, while meetings 
its mission. VA is in somewhat of a mess with the Staab 
decision because the Department failed to appropriately 
interpret that law. Now, there are veterans who have been 
waiting for years to be reimbursed for emergency room care.
    I would hope that you would lead the Department in sound 
legal decisionmaking that allows the VA to continue providing 
the benefits that veterans need, deserve, and have earned.
    Mr. Tucker, I really do not like being surprised about 
things that happen in my home State, or on VA issues generally. 
I have got to tell you that I was not pleased at all how 
information on the Choice fund shortfall came out. I expect 
that, if confirmed, you will do what you can do to make sure 
the Department does a better job of getting out in front of 
this kind of stuff.
    For judicial nominees, I want to emphasize how important it 
is to me that veterans get expedient and fair reviews of their 
cases. The Court of Appeals and Veterans Claims provides an 
avenue for that, but it, along with the VA and the Board of 
Veterans Appeals face challenges with issuing timely decisions. 
So, the question of the day is whether you can build upon the 
VA and the court's successes and continue delivering timely 
justice for veterans and their families.
    What I want to really learn from all of you nominees today 
is, are you up for the job? We need to know that you folks are 
the right folks for this job at this time, and I look forward 
to our discussion today. I want to thank you again for your 
willingness to serve on behalf of our nations veterans and 
their families.
    With that, Mr. Chairman, thank you for holding this very 
important committee meeting. I look forward to the questions 
and our witnesses' testimony.
    Chairman Isakson. I want to associate myself with all the 
remarks made by Senator Tester. He is a great Ranking Member. 
We are good partners in this venture. We have discussed this 
hearing and this markup a lot, and we are in sync, and I 
associate myself with every comment that he made.
    As I introduce the first panel, I will have a few editorial 
comments to make about each of them, particularly Mr. Bowman, 
which may take a little while, but we are going to do that 
anyway.
    Tom Bowman, please stand. U.S. Marine Corps. I am going to 
tell you a story about how I met Tom Bowman. When I became 
Chairman of the Committee, more or less 3 years ago, I got a 
call from the former Ranking Member, a Republican, to give me a 
little advice. He said, ``You have got a great staff up there, 
but,'' he said, ``I want to tell you something. Tom Bowman is 
the real deal. He is capable of being the Chief of Staff to the 
Committee if you see fit for that to happen.''
    Being one to be supremely confident on the outside, while 
paddling like hell underneath, like a duck, I wanted to have 
somebody who could get the job done for me. So, I talked to Tom 
a lot, and in talking to him felt like he was probably the 
right man at the right time. I can tell you this, in 3 years of 
working with him I have never worked with a more competent or 
supportive individual, in a very difficult operation, than Tom 
Bowman.
    One of reasons that we have done the things as a Committee, 
we have done with the staff of the Ranking Member and myself. 
Although I do not want to make it look like Tom's appointment 
is a slam-dunk, and we do have some issues we will talk to him 
about, the fact of the matter is it should be said publicly 
that this Committee was languishing for a few years, without 
having a strong leadership on the staff to make sure the 
Ranking Member and the Chairman did the right thing. Tom has 
done that for me and he has worked with Senator Tester as 
Ranking Member, our support staff, and they have all done a 
good job.
    So, Tom, we are glad to have you here.
    Second, I want to--you can sit down now because I am going 
to give you a second to think about what you want to say.
    Mr. Tucker, I am delighted that you are here today, for any 
number of reasons, but, in particular, because the Ranking 
Member and I want to make sure we are getting timely 
information from the Secretary of Veterans Affairs and 
Congressional liaison in terms of what is going on. We do not 
want to ever get caught surprised or caught short, and one of 
your jobs is going to be to make sure that we, as the elected 
officials who are on this Committee, have the information in a 
timely fashion, that may come to your attention or that you may 
dig up that will help us. So, it is going to be very important 
that we have good communication tools, and I know, from your 
reputation and your record, that you have that.
    Mr. Byrne and I talked about his big responsibility, and I 
want to underscore it. As the General Counsel to the Veterans 
Administration, you have, in my judgment, one big job ahead of 
you, and that is making sure that the Accountability Bill is 
implemented, and it is implemented fairly, it is executed 
appropriately, and it works. The Ranking Member has got a lot 
of political capital in that, and so do I, and our veterans 
deserve the very best service from the Veterans Administration 
as possible, as from the leadership of the Veterans 
Administration.
    The Accountability Bill was passed to give the VA rank and 
file the leadership they need and those who govern them the 
tools they need to elicit the support and leadership the 
veterans expect, so the Veterans Administration is delivering 
their job.
    You probably have the most challenging and toughest job of 
all, but I am confident, from having talked to you in my 
office, that you are ready for it, that you will do a great job 
with it, and we appreciate your willingness to consider doing 
it. Do not forget, job one is making sure the Accountability 
Bill we envisioned and passed works and works effectively for 
our veterans and for the Secretary.
    With that said, I will introduce Mr. Bowman first, for up 
to 5 minutes, and then followed by each one of you. Tom?

     STATEMENT OF THOMAS G. BOWMAN, NOMINATED TO BE DEPUTY 
         SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Bowman. Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee on Veterans' Affairs, I 
want to thank you for this opportunity and privilege to come 
before you and seek your endorsement to serve as the Deputy 
Secretary of the Department of Veterans Affairs. I have had the 
privilege to meet individually with many of the Members of the 
Committee before this hearing.
    I am deeply honored to have been nominated by the President 
to be the VA Deputy Secretary, and if confirmed, being able to 
return to VA where I previously served for approximately 10 
years at both VA Headquarters and at VA's health care 
facilities in Florida. I am equally honored by the confidence 
that Secretary Shulkin has expressed in support of my 
nomination and abilities to make a meaningful difference in the 
lives of veterans and their families as Deputy Secretary.
    Additionally, I would be remiss if I did not note how 
grateful I am that Senator Burr invited me to return to 
Washington in 2014, to serve on his committee staff when he was 
Ranking Member. My presence here today, in all probability, 
would not have been possible without that confidence and 
support at that time. However, most importantly, I am deeply 
grateful that Chairman Isakson offered me the honor and the 
privilege to continue to serve the Committee as Majority Staff 
Director upon his appointment as Chairman in January 2015.
    I have difficulty finding the right words that would 
adequately express my heartfelt gratitude to my wife of 41 
years, Joan Bowman, who I know is here in spirit, for her 
tireless support over those many years. Joan passed away in 
November 2013, after confronting the scourge of ovarian cancer 
for almost 7 years. I was the caregiver for all of her daily 
needs for the last 7 months of her life. That experience has 
provided me clear and present understanding of the physical and 
emotional sacrifice that caregivers for our veterans experience 
daily, caring for their loved ones.
    Joan and I have three wonderful children and seven 
grandchildren, all of whom I am sure are watching these 
proceedings right now.
    I was raised in a career Navy family with four brothers, 
two sisters. My father was at Pearl Harbor when it was attacked 
in December 1941, and his bombing squadron later participated 
in every major campaign of World War II in the Pacific. When he 
retired from the Navy in 1968, he turned to the VA for help, 
and they did. I retired from the Marine Corps in 1999, and the 
VA has provided most of my health care needs. I continue to use 
the VA health care system because I trust it.
    If confirmed as Deputy Secretary, Secretary Shulkin has 
indicated his expectation that I serve as the Chief Operating 
Officer of the VA. In that role, I will be responsible for 
executive oversight and management of the daily operations of 
the department, both at the headquarters level and implemented 
in VA fields operation. I believe my past service in the Marine 
Corps and assignments at the Pentagon, witnessing and assisting 
defense policy development, and prior VA appointments as the VA 
Chief of Staff and other senior positions within the VA 
Headquarters have provided me an excellent background and frame 
of reference regarding the appropriate manner, means, and 
methods of addressing departmental challenges.
    Additionally, my years as the Senior Advisor to the 
Director of VA Health Care in Florida provided me an 
exceptional opportunity to experience, firsthand, how decisions 
and policies developed at the VA Headquarters level are 
implemented and executed in the field, and at times not as 
intended, and others not at all.
    Recently, and most importantly, I believe my service with 
this Committee has provided me the opportunity to participate 
in the inordinately important process of congressional 
oversight and legislation affecting and intended to enhance 
care for our veterans and their families. If confirmed, I will 
ensure that the pursuit of my responsibilities as Deputy 
Secretary will always be assisted by assessing actions and 
decisions through the lens of my experience with this 
Committee.
    While there are significant challenges confronting the VA, 
I believe one of the most pervasive is regaining the trust of 
veterans, their families, and the American people. The Phoenix 
VA medical center scandal in 2014, and since then other 
scandals associated with an inability to appropriately hold VA 
senior executives and staff accountable for unsatisfactory 
performance or misconduct seriously undermined that trust and 
confidence in the VA. Modernizing the VA, as discussed by 
Secretary Shulkin in recent testimonies, and working with 
Congress, VSOs, and other stakeholders will go a long way to 
regaining that trust.
    In closing, I believe the VA mission at its core is 
embodied in President Lincoln's Second Inaugural Address, where 
he states ``to care for him who shall have borne the battle and 
for his widow and his orphan.'' Since then, what is meant by 
that word that President Lincoln used, ``care,'' has been an 
ongoing evolution as the American people and their government 
try to continuously update and address the needs of veterans 
and their families. It is clear the American people are 
committed to maintaining and enhancing the VA. They trust that 
the President, the Congress, and the Secretary of Veterans 
Affairs will do so.
    President Trump and Secretary Shulkin have indicated the 
evolution of care for today's veterans and their families will 
be through ensuring that VA continues its current 
transformation.
    I again want to thank the Committee for the opportunity to 
appear before you, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Bowman follows:]
 Prepared Statement of Thomas G. Bowman, Nominee for Deputy Secretary, 
                  U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Tester, and Distinguished Members 
of the Committee on Veterans Affairs, I want to thank you for this 
opportunity and privilege to come before you and seek your endorsement 
to serve as the Deputy Secretary of the Department of Veterans Affairs. 
I have had the privilege to meet individually with many of you after I 
was nominated by the President. I have also had the opportunity to work 
with your staffs over the last two and a half years as the Majority 
Staff Director for this very important Committee. I have benefited 
immensely from your insights and commitment to the health care, 
benefits and overall wellbeing of our Nation's veterans and their 
families.
    I am deeply honored to have been nominated by President Trump to be 
the Deputy Secretary of the VA and, if confirmed, being able to return 
to the VA where I previously served for approximately 10 years both 
here in Washington, DC, at the VA Headquarters, and with VA's health 
care facilities in Florida. I am equally honored for the confidence 
Secretary Shulkin has expressed in support of my nomination and 
abilities to make a meaningful difference in the lives of veterans and 
their families as his Deputy Secretary. Additionally, I would be remiss 
if I did not note how grateful I am that Senator Burr invited me to 
return to Washington, DC, in 2014 to serve on his Committee staff when 
he was Ranking Member. My presence here today, in all probability, 
would not have been possible without his confidence and support at that 
time. Most importantly, I am deeply grateful that Chairman Isakson 
offered me the honor and privilege to continue to serve this Committee 
as Majority Staff Director upon his appointment as Chairman in 
January 2015.
    I cannot find words to express my heartfelt gratitude to my wife of 
41 years, Joan Bowman, who I know is here in spirit. Joan passed away 
in November 2013 after confronting the scourge of ovarian cancer for 
almost 7 years. I was the caregiver for all of her daily needs for the 
last 7 months of her life. That experience has provided me a clear and 
present understanding of the physical and emotional sacrifice that 
caregivers for our veterans experience daily caring for their loved 
ones. Joan and I have 3 wonderful children and seven grandchildren all 
of whom I am sure are watching these proceedings now--daughter Heather 
Bowman and grandchildren Kirah, Evey, Izak, Phoenix and Bodhi who live 
in Brunswick, Maine; son and attorney Allen Bowman and his wife Allie, 
and grandchildren Connor and Kiley who live in Paso Robles, CA; and son 
Brian and his wife Ryan, both of them are Petty Officers in the Coast 
Guard stationed in San Diego, CA.
    I was raised in a Navy family with parents Leon and Ginny Bowman, 
along with 4 brothers and 2 sisters. As a family we had tours of duty 
overseas 3 times during my father's 31 year career. He retired as a 
Chief in 1968. My father was at Pearl Harbor when it was attacked on 
December 7, 1941, and his bombing squadron participated in every major 
campaign of World War II in the Pacific. When he retired in 1968, he 
turned to the VA for help, and they did. I retired from the Marine 
Corps in 1999 and the VA has provided most of my health care needs. I 
continue to use the VA healthcare system because I trust it. I share 
this bit of background because it helped shape and has continuously 
influenced the contours of my professional life in the military and 
later pursuing public service to benefit our veterans and their 
families.
    If confirmed as Deputy Secretary, Secretary Shulkin has indicated 
his expectation that I serve as the chief operating officer of the VA. 
In that role I would be responsible for Executive oversight and 
management of the daily operations of the Department, both at the 
Headquarters level and as implemented in the VA's field operations. I 
believe my past service in the Marine Corps and assignments at the 
Pentagon witnessing and assisting policy development, and prior VA 
appointments as VA Chief of Staff and other senior positions within the 
VA Headquarters have provided me an excellent background and frame of 
reference regarding the appropriate manner, means and methods of 
addressing Departmental challenges associated with policy development, 
program implementation, budgeting, personnel/HR oversight, 
Congressional relationships and legislative needs of the VA.
    Additionally, my years as the Senior Advisor to the Director of VA 
Healthcare in Florida and the Caribbean provided me an exceptional 
opportunity to experience, first hand, how decisions and policy 
developed at the VA Headquarters level are implemented and executed in 
the field, and at times, not as intended or not at all. Recently, and 
probably most importantly, I believe my service with this Committee has 
provided me the opportunity to participate in the inordinately 
important process of Congressional oversight and legislation affecting, 
and intended to enhance care and benefits for, our Veterans and their 
families. If confirmed, I will ensure that the pursuit of my 
responsibilities as Deputy Secretary will always be assisted by 
assessing actions and decisions through the lenses of my experience 
with this Committee.
    While there are significant challenges confronting the VA, I 
believe one of the most pervasive is regaining the trust of Veterans, 
their families and the American people. The Phoenix VA Medical Center 
Scandal in 2014 and since then, other scandals associated with an 
inability to appropriately hold VA employees, senior executives and 
staff alike, accountable for unsatisfactory performance or misconduct, 
seriously undermined the trust and confidence in the VA of Veterans and 
their families, Members of Congress, and the American people.
    Modernizing the VA as discussed by Secretary Shulkin in recent 
testimony, working with Congress, VSO's and other stake holders to 
boldly and aggressively address needs highlighted by each of them, will 
buildupon what President Trump, Secretary Shulkin and the Congress have 
already started to hopefully regain that trust.
    I believe the VA mission at its core is embodied in President 
Lincoln's Second Inaugural Address in 1865 ``. . . to care for him who 
shall have borne the battle and for his widow, and his orphan . . . .'' 
Since then, what is meant by ``care'' (both health care and other 
benefits) has been an ongoing evolution as the American people and 
their Government try to continuously update and address the needs of 
veterans and their families which arise out of their service and 
sacrifice in defense of our country. It is clear the American people 
are committed to maintaining and enhancing the VA. They trust that the 
President, the Congress, and the Secretary of Veterans Affairs will do 
so by confronting and resolving the challenges collaboratively with the 
Congress, Veteran Service Organizations, and the outstanding, 
dedicated, committed and loyal employees of the VA who come to work 
every day to serve Veterans and their families.
    President Trump and Secretary Shulkin have clearly indicated that 
the continuing evolution of ``care'' for today's veterans and their 
families will be through ensuring that the VA continues its 
transformation under Secretary Shulkin's leadership, and as outlined in 
recent testimony, especially within his 2018 Budget testimony. If 
confirmed, I will work daily to support that effort. The transformation 
will ensure that the bedrock goals of providing the highest quality 
healthcare; compensating and addressing service-connected disabilities; 
providing supportive services and programs that facilitate transition 
from military service and reintegration into the community; addressing 
the unique needs of homeless veterans; preventing veteran suicide; and, 
providing and maintaining a final resting place that honors and 
respects their service to our Country are maintained.

    I, again, want to thank the Committee for the opportunity to appear 
before you. I look forward to answering your questions.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
   Thomas Bowman, Nominee to be Deputy Secretary, U.S. Department of 
                            Veterans Affairs
    Question 1. Have you discussed with Secretary Shulkin the duties he 
would like you to perform, or the role he would like you to assume, as 
Deputy Secretary if you are confirmed?
    Response. Yes. Although the discussions have been very general in 
nature, we discussed the strategic goals and objectives for the 
Department as expressed by President Trump, as well as Secretary 
Shulkin's goals for transforming the VA into a more responsive, 
accountable and efficient Department for the delivery of healthcare and 
benefits to Veterans and their families. Secretary Shulkin indicated 
his expectation that, if confirmed, I serve as the chief operating 
officer of the Department working under his direction. In that role I 
would be responsible for Executive oversight and management of the 
daily operations of the Department, both at the Headquarters level and 
as implemented in the field operations of the Department.

    Question 2. Your career has included serving in leadership roles at 
the Department of Veterans Affairs (VA) and on the staff of the Senate 
Committee on Veterans' Affairs, which conducts oversight of VA.
    A. Based on your experiences, what do you see as the greatest 
challenges facing VA today?
    Response.
    1. Regaining the Trust of Veterans (within and outside of the VA), 
their families, and the American People--The Phoenix VA Medical Center 
Scandal in 2014 and since then, other scandals associated with an 
inability to appropriately hold VA employees, senior executives and 
staff alike, accountable for unsatisfactory performance or misconduct 
seriously undermined the trust and confidence in VA of Veterans and 
their families, Members of Congress and the American people. 
Modernizing the VA as discussed by the Secretary in his FY 2018 Budget 
request; working with Congress, VSO's and other stake holders to boldly 
and aggressively address needs highlighted by them, will buildupon what 
President Trump, Secretary Shulkin and Congress have already started to 
hopefully regain that trust.
    2. Veterans Choice Program/Care in the Community--Access to timely 
healthcare, whether within a VA medical center or within a community 
care network, is an earned benefit of all Veterans enrolled in VA 
healthcare. Both Secretary Shulkin and the Congress have indicated that 
the VA Healthcare system will not be privatized. If confirmed, I will 
work with the Secretary to find the appropriate pathway to a new 
Veterans Choice Program and Care in the Community process that 
addresses the healthcare needs of our Veterans.
    3. Information Technology and VA Acquisition--Federal contracting 
within VA has been an inordinately challenging process as VA attempts 
to meet the demands and requirements across the Department, whether it 
be Information Technology systems or medical equipment and supplies at 
VA medical centers. The agility of a purchasing system within VA is 
critical to meeting the transformative goals of the Secretary. VA needs 
to introduce IT and acquisition systems and capabilities that are 
streamlined and operate with agility and speed to address the 
programmatic needs of the Department.
    4. Vacancies in the Field Organizations--Veterans Health 
Administration (VHA), Veterans Benefits Administration (VBA), National 
Cemetery Administration (NCA). In any large organization there is 
personnel turnover that requires recruiting for replacements. However, 
in an organization like the VA where its mission is caring for our 
Nation's Veterans and their families, that replacement process takes on 
a sense of urgency. Responding to that urgency is a leadership 
responsibility at all levels. If confirmed, and under the direction of 
the Secretary, I believe it appropriate to review, streamline and 
implement an aggressive initiative to fill existing vacancies.
    5. Capital Asset Management and Infrastructure Improvement--Within 
VA there exist hundreds of vacant and underutilized building and 
structures on the campuses of almost all of the VA medical centers. 
Simply maintaining them requires millions of dollars. If confirmed, and 
under the direction of the Secretary, VA will initiate a process to 
review and evaluate this inventory of capital asset underutilization 
and develop recommendations for the highest and best use or disposition 
of these structures for enhancing delivery of veteran care and 
benefits.
    B. If confirmed, what priorities would you hope to accomplish 
during your tenure as Deputy Secretary?
    Response.
    1. Strategic Review and Recommendations for Reorganization and 
Improvement Regarding Operations and Efficiencies of the Current 
Department of Veterans Affairs Central Office (VACO) Organizational 
Structure; Office of the Secretary, Under Secretaries, Assistant 
Secretaries and Related Offices. Over the last 10 years the size of the 
VA Central Office organizational structure and the number of employees 
have been significantly increased. It may now be appropriate to assess 
whether that increase has resulted in intended efficiencies, improved 
services for Veterans and their families and facilitated needed 
oversight of programs and field operations. If confirmed, and under the 
direction of the Secretary, VA will seek to pursue answers to those 
questions.
    2. Enhance the Stature, Relevance and Timely Impact of the VA/DOD 
Joint Executive Committee (JEC) Efforts Upon VA/DOD Strategic Planning 
for Improved Business Practices, High Quality Cost-Effective Services 
for VA and DOD Beneficiaries, and Improved Resource Utilization. In its 
mission statement, the JEC describes its mission as: to work to remove 
barriers and challenges that impede collaborative efforts, assert and 
support mutually beneficial opportunities to improve business 
practices, and ensure high quality cost-effective services for VA and 
DOD beneficiaries. As the Secretary pursues the transformation of the 
VA, greater collaboration between VA and DOD should be inextricably 
intertwined wherever possible to leverage capabilities and assets of 
both. If confirmed, and under the direction of the Secretary, as the 
Co-chair of the JEC, VA will pursue a greater and more active use of 
the JEC to serve the needs of VA and DOD.
    C. Based on your experiences, do you believe any changes are needed 
to better facilitate open communication between Congress and VA?
    Response. Yes. I believe the most serious shortcoming in the 
existing VA scheme of communications with the Congress is that written, 
and in some cases telephone, responses to Congressional Inquiries have 
been untimely and not substantively responsive in whole or part for 
what was requested. When that occurs it significantly impedes and 
burdens effective Congressional oversight of VA. Equally important is 
that it erodes the confidence of Members of Congress and their staff, 
that their requests are perceived as important to VA. Although a number 
of Congressional offices and Committee staff have noted improvement in 
the last 9-12 months, much more improvement is needed and must be 
provided by reviewing and reforming current VA practices and 
procedures. If confirmed, improving the manner, means, methods and 
timeliness of open communication between Congress and the VA will be a 
high priority of mine.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Thomas 
  Bowman, Nominee to be Deputy Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1. Have you discussed with Secretary Shulkin the duties he 
would like you to perform, or the role he would like you to assume, as 
Deputy Secretary if you are confirmed?
    Response. Yes. Although the discussions have been very general in 
nature, we discussed the strategic goals and objectives for the 
Department as expressed by President Trump, as well as Secretary 
Shulkin's goals for transforming the VA into a more responsive, 
accountable and efficient Department for the delivery of healthcare and 
benefits to Veterans and their families. Secretary Shulkin indicated 
his expectation that, if confirmed, I serve as the chief operating 
officer of the Department working under his direction. In that role I 
would be responsible for Executive oversight and management of the 
daily operations of the Department, both at the Headquarters level and 
as implemented in the field operations of the Department.

    Question 2. Will you have a policymaking role at VA independent 
from the Secretary?
    Response. I do not believe that such an independent role will be 
part of my portfolio of responsibility as the Deputy Secretary, if 
confirmed. However, if the Secretary requests that I engage in a policy 
issue, I will do so. It is my understanding and belief the Secretary 
sets policy for the Department after both internal and external 
consultation. The Deputy Secretary ensures that a policy once decided, 
is understood by subordinate VA leadership, communicated both within 
and outside of the Department, and is implemented and executed as 
quickly and efficiently as possible.

    Question 3. Will you be VA's Chief Operating Officer? If so, please 
describe in detail what you understand the position of COO to be, both 
generally and with specificity as to VA.
    Response. Secretary Shulkin indicated his expectation that, if 
confirmed, I serve as the chief operating officer of the Department 
working under his direction. In that role, I would be responsible for 
Executive oversight and management of the daily operations of the 
Department, both at the Headquarters level and as implemented in the 
field operations of the Department. More detailed aspects of the COO 
portfolio of responsibility will need to await further discussions with 
the Secretary if confirmed.

    Question 4. Apart from what you and the Secretary have discussed 
with respect to your duties, have you formulated any thoughts on what 
your specific responsibilities will be as Deputy and how you will 
approach them?
    Response. My discussions with the Secretary have been general in 
nature and focused on the goals and objectives for the Department 
announced by President Trump and Secretary Shulkin. If confirmed, I 
will have a more detailed discussion with the Secretary to obtain his 
thoughts, impressions and opinions regarding what specific aspects of 
duty he believes should be within my portfolio of responsibilities as 
Deputy Secretary. Once that discussion occurs, I will determine how 
best to approach those duties and responsibilities.

    Question 5. Please describe what you believe the mission of VA 
should be.
    Response. I believe the VA mission at its core is embodied in 
President Lincoln's Second Inaugural Address in 1865 ``. . .To care for 
him who shall have borne the battle and for his widow, and his orphan. 
. . .'' What is meant by ``care'' has been an ongoing evolution up to 
the present time as the American people and their Government try to 
continuously update and address the needs of Veterans and their 
families which arise out of their service and sacrifice in defense of 
our country. Providing the highest quality healthcare; compensating and 
addressing service-connected disabilities; providing supportive service 
and programs that facilitate transition from military service and 
reintegration into the community; and, providing and maintaining a 
final resting place that honors and respects their service to our 
Country.

    Question 6. What do you see as the biggest challenges facing VA at 
this time--as to the Department as a whole, and specifically in VBA, 
VHA, NCA, and OIT?
    Response. As to the Department as a Whole: Regaining the Trust of 
Veterans (within and outside of the VA), their families, and the 
American People--The Phoenix VA Medical Center Scandal in 2014 and 
since then, other scandals associated with an inability to 
appropriately hold VA employees, senior executives and staff alike, 
accountable for unsatisfactory performance or misconduct seriously 
undermined the trust and confidence in VA of Veterans and their 
families, Members of Congress and the American people. Modernizing the 
VA as discussed by the Secretary in his FY 2018 Budget request; working 
with Congress, VSO's and other stake holders to boldly and aggressively 
address needs highlighted by them, will buildupon what President Trump, 
Secretary Shulkin and Congress have already started to hopefully regain 
that trust.
    Each of the below challenges have cross VA impact on VHA, VBA, NCA, 
OIT:

    Vacancies in the Field Organizations--Veterans Health 
Administration (VHA), Veterans Benefits Administration (VBA), National 
Cemetery Administration (NCA). In any large organization, there is 
personnel turnover that requires recruiting for replacements. However, 
in an organization like the VA where its mission is caring for our 
Nation's Veterans and their families, that replacement process takes 
upon a sense of urgency. Responding to that urgency is a leadership 
responsibility at all levels. If confirmed, and under the direction of 
the Secretary, I believe it appropriate to review, streamline and 
implement an aggressive initiative fill existing vacancies.
    Capital Asset Management and Infrastructure Improvement--Within VA 
there exist hundreds of vacant and underutilized buildings and 
structures on the campus of almost all of the VA medical centers. 
Simply maintaining them requires millions of dollars. If confirmed, and 
under the direction of the Secretary, VA will initiate a process to 
review and evaluate this inventory of capital asset underutilization 
and develop recommendations for the highest and best use or disposition 
of these structures for enhancing delivery of Veteran care and 
benefits.
    Veterans Choice Program/Care in the Community--Access to timely 
healthcare, whether within a VA medical center or within a community 
care network, is an earned benefit of all Veterans enrolled in VA 
healthcare. If confirmed, I will work with the Secretary to find the 
appropriate pathway to a new Veterans Choice Program and Care in the 
Community process that addresses the healthcare needs of our Veterans.
    Information Technology and VA Acquisition--Federal contracting 
within VA has been an inordinately challenging process as VA attempts 
to meet the demands and requirements across the Department, whether it 
be Information Technology systems or medical equipment and supplies at 
VA medical centers. The agility of a purchasing system within VA is 
critical to meeting the transformative goals of the Secretary. VA needs 
to introduce IT and acquisition systems and capabilities that are 
streamlined and operate with agility and speed to address the 
programmatic needs of the Department.

    Question 7. What will be your top three priorities after assuming 
the role of Deputy Secretary?
    Response. If confirmed, my top three priorities with the 
Secretary's approval, and among others that will be identified by the 
Secretary are 1) Veterans Choice Program/Care in the Community; 2) 
Information Technology and VA Acquisition; and 3) Vacancies in VA Field 
Organizations. Each are discussed above under Question 6.

    Question 8. What specific experiences from your prior professional 
positions do you believe have prepared you to manage VA? Please also 
particularly address how you can help implement the Secretary's 
decision to procure and deploy Cerner Corporation's electronic health 
record.
    Response. If confirmed, I believe my past appointment as VA Chief 
of Staff and other senior positions within the VA Headquarters have 
provided me an excellent background and frame of reference regarding 
the appropriate manner, means and methods of addressing departmental 
challenges associated with policy development, program implementation, 
budget, personnel/HR oversight, congressional relationships and 
legislative needs of VA. Additionally, my subsequent years as the 
Senior Advisor to the Director of VISN 8 in Florida provided me an 
exceptional opportunity to experience how decisions and policy 
developed at the VA Headquarters level is implemented and executed in 
the field.
    While I support the decision of the Secretary to procure the same 
Cerner Corporation`s electronic health record platform as DOD, my depth 
of understanding of the intended VA process and way forward at the 
present time regarding implementing the decision to achieve an 
effective, efficient, and integrated health system is minimal. However, 
if confirmed, involving myself in this inordinately important 
initiative will be a significant priority for me.

    Question 9. What were the major decisions you made as Senior 
Advisor or Chief of Staff that did not turn out to have the impact you 
anticipated, and what problems did you try to address that are still 
challenges today? How do you anticipate handling them differently if 
confirmed?
    Response. As the Senior Advisor or Chief of Staff I do not recall 
making any major decisions regarding policy for the Department. My 
recollection is that my responsibilities were to develop manner and 
means to facilitate or oversee implementation of those policy decisions 
once made.

    Question 10. What do you believe the major differences will be in 
your former position as Chief of Staff of VA and the position for which 
you have been nominated?
    Response. In my former role as Chief of Staff, I was responsible to 
ensure that the daily schedule of the Secretary, and to some degree the 
Deputy Secretary, was managed, coordinated and prioritized to 
facilitate participation in required or desired meetings or activity, 
and able to make decisions if required or appropriate. Time management 
was an ongoing responsibility. Additionally, I reviewed all 
administrative matters that were to come to his attention to ensure 
that they substantively addressed questions or issues to be considered. 
If confirmed as the Deputy Secretary, I would be responsible for 
leadership oversight and management of the daily operations of the 
Department, and implementation of policy decided by the Secretary, and 
now supported in my new position by the current Chief of Staff.

    Question 11. If confirmed, what efforts will you undertake to make 
certain that VA is aware of, and responsive to, the needs of the 
Veterans' community? Do you plan to meet regularly with Veterans' 
organizations?
    Response. It should be noted that I receive health care at the VA. 
If confirmed, it would be my intention to meet regularly with the 
Washington, DC executive leadership of the national VSO organizations. 
Additionally, when traveling as part of my responsibilities I would 
make it an integral part of my schedule to meet with local Veterans and 
VSO organizations and at the various VA facilities visited. At each 
event or opportunity, I would seek their input on behalf of their 
Veterans regarding issues, problems, and recommendations for 
improvement of the VA's delivery of healthcare and benefits. 
Additionally, I would try to arrange for separate opportunities to meet 
with Veteran family members and seek their candid opinions and 
recommendations as to how to better serve their loved ones.

    Question 12. How would you, as Deputy Secretary, work with the 
Office of Inspector General? The Office of the General Counsel?
    Response. In my prior role as Chief of Staff, I met frequently with 
the General Counsel or his staff, at their request or mine, to discuss 
policy, programs, initiatives, legislation, personnel actions and other 
matters deemed appropriate. When in doubt, I sought the review and 
advice of the General Counsel. If confirmed, I would continue that 
approach with the General Counsel and his staff. If confirmed, I would 
seek to meet periodically with the Inspector General to allow for a 
dialog where he may discuss, if appropriate, program or operational 
concerns regarding criminal wrongdoing, fraud, waste or abuse within 
the Department.

    Question 13. Are you more of a hands-on manager or do you tend to 
rely on significant delegation? Do you seek to achieve consensus with 
those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. As a general rule I am inclined to delegate to staff who 
have demonstrated subject matter competence and reliability. When 
considering an issue, it is always beneficial to seek input from staff 
and relevant stakeholders, if appropriate. If that results in a 
consensus on the way forward regarding an issue, that enhances the 
team. However, I do not see consensus as a necessary determinant for an 
executive decision.

    Question 14. Do you anticipate having a role in selecting other 
political appointees to VA? What are your views on the key 
qualifications for such individuals?
    Response. If invited by the Secretary, I would welcome the 
opportunity to be part of the selection process for other VA political 
appointees, if confirmed. I believe a candidate for a particular office 
should have demonstrated leadership experience; clear competence in the 
portfolio for which they will be responsible; and, an abiding desire to 
support and serve Veterans and their families.

    Question 15. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Deputy Secretary?
    Response. If confirmed, I commit to providing such information.

    Question 16. As Deputy, you would be held accountable for ensuring 
the Department hires, retains and engages a talented workforce. The 
Department, however, is struggling to recruit and engage its people. 
According to the U.S. Office of Personnel Management's 2016 Federal 
Employment Viewpoint Survey, less than fifty percent of VA employees 
agree that their work unit can recruit people with the right skills and 
only about fifty-two percent of employees believe that the skill level 
in their unit has improved over the past year. In addition, according 
to the 2016 Best Places to Work in the Federal Government ranking by 
the Partnership for Public Service--a comprehensive and authoritative 
rating of employee engagement in the Federal Government--VA was ranked 
17th out of 18 large agencies in three categories related to effective 
leadership, while ranking 16th out of 18 on the training and 
development category. If confirmed, what would you do to improve hiring 
and engagement at the Department?
    Response. In any large organization there is personnel turnover 
that requires recruiting for replacements. However, in an organization 
like the VA where its mission is caring for our Nation's Veterans and 
their families, that replacement process takes on a sense of urgency. 
Responding to that urgency is a leadership responsibility at all 
levels. If confirmed, and under the direction of the Secretary, I 
believe it appropriate to review, streamline and implement an 
aggressive initiative to fill existing vacancies. Lengthy 
administrative processes and delayed decisions by hiring officials 
significantly erode morale at all levels within the VA, but most 
significantly at the ``frontline'' positions in the field organizations 
where care and benefits are actually delivered to the Veteran. When 
that occurs, Veterans ultimately suffer. Addressing unfilled positions 
within VA needs to take upon a sense of urgency.

    Question 17. VA has always struggled to tell its success stories. 
What would you do to help the Agency tout its accomplishments?
    Response. I believe that VA's communications strategy and efforts 
have been commendable and increasingly effective under Secretary 
Shulkin's leadership. I believe this to be the case in large part 
because he has made himself frequently and personally available to 
effectively communicate the successes and accomplishments at the VA. 
That personal presence in the public eye as an advocate and messenger 
for the VA instills confidence in Veterans and their families as well 
as the American public at large. I believe a similar approach by 
directors and senior leaders in the field at the VISN, VA medical 
centers and Regional Office levels would go a long way to inform 
Veterans, their families and the American public of VA's successes and 
accomplishments. While media training may be appropriate on behalf of 
some senior leaders, it would be an inordinately important investment 
of time and resources.

    Question 18. As Co-Chair of the Joint Executive Council, what would 
be your priorities?
    Response. The JEC's mission statement is to work to remove barriers 
and challenges that impede collaborative efforts, assert and support 
mutually beneficial opportunities to improve business practices, and 
ensure high quality cost-effective services for VA and DOD 
beneficiaries. As the Secretary pursues the transformation of the VA, 
greater collaboration between VA and DOD should be inextricably 
intertwined wherever possible to leverage capabilities and assets of 
both. If confirmed, and under the direction of the Secretary, as the 
Co-chair of the JEC, VA will pursue a greater and more active use of 
the JEC to serve the needs of VA and DOD. However, until I am able to 
engage with the Secretary on his range of priorities, it would be 
premature on my part to list any priorities except for the VA/DOD 
collaboration on electronic health records, which is ongoing.

    Question 19. In your 2012 Opinion piece for the Washington Post, 
you, along with former Secretary Nicholson, advocated granting interim 
decision on disability claims and leave open the door for auditing 
those claims later. Do you support this approach to claims processing 
today? If yes, would you advocate the Department adopt this proposal?
    Response. The article was written nearly five years ago and was 
framed against the statistics and status of VA's efforts to address the 
claims backlog at that point in time. If confirmed, I would seek a 
detailed briefing from appropriate VBA claims subject matter experts to 
update my understanding. Until that would occur, I believe it would be 
premature to offer a current opinion.

    Question 20. Given your work in Congress, the expectation will be 
that you will give the Department much-needed perspective on 
Congressional and Veterans' community reaction to changes in Department 
policies and legislative proposals. For example, the Administration 
recently put forth a legislative proposal on Individual Un-
employability that was met with backlash from Veterans groups and 
Members of Congress. If you were Deputy Secretary at the time the 
Administration was preparing its budget request, and specifically 
legislative proposals, would you have advised the Administration 
differently?
    Response. I was not present or involved in any facet of the 
development of the Administration's budget request and thus do not know 
what was discussed around using the IU proposal.

    Question 21. What would you do to ensure that Members of Congress 
are advised in advance of problems, issues and emerging matters--
particularly when those matters are specific to the area a member 
represents?
    Response. As a matter of good policy, Members of Congress should be 
made appropriately aware of any significant problems, issues and 
emerging matters, particularly when those matters are specific to the 
area the Member represents as soon as possible after VA becomes aware 
of an issue or event of note. Many times an initial ``heads up'' to the 
Member with follow up information afterward goes a long way to develop 
trust and respect for VA officials by Members and their staff. In my 
current role as Staff Director of the Senate Veterans' Affairs 
Committee I am keenly aware of the impact on Members when timely or 
reasonable notification does not occur. At the same time, I believe it 
also reasonable for the VA be allowed to collect facts and an 
understanding of events under the circumstances before reaching out to 
Members, if time permits. Additionally, if the Department is going to 
announce a policy, award, or other ``good news'' story or event, it is 
inordinately important and appropriate, if at all possible, to provide 
timely notice to the Member in advance of VA releasing the ``news'' to 
the public in a release or other social media venue. If confirmed, and 
under the direction of the Secretary, VA should review its current 
practices and procedures to determine a more timely manner of response 
for Members as discussed above.

    Question 22. Given your understanding of how working in a 
bipartisan manner helps the legislative process and improves Congress' 
ability to provide meaningful oversight over the Department, will you 
commit to responding to Democratic requests for information in a timely 
manner?
    Response. Yes. I commit to responding to Democratic requests for 
information in a timely manner.
    Chairman Isakson. Mr. Tucker.

  STATEMENT OF BROOKS D. TUCKER, NOMINATED TO BE AN ASSISTANT 
    SECRETARY, CONGRESSIONAL AND LEGISLATIVE AFFAIRS, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Tucker. Chairman Isakson, Ranking Member Tester, 
distinguished Members of the Committee on Veterans' Affairs, 
thank you for the opportunity to testify before you today and 
for your consideration of my nomination to be the Assistant 
Secretary of Congressional and Legislative Affairs for the 
Department of Veterans Affairs. I am humbled by President 
Trump's nomination and by the confidence he and Secretary 
Shulkin have shown in me.
    I would like to recognize my family members who are here 
today: my wife, Anita, who has been by my side for over 20 
years; my son, Forrest, who will soon be a freshman at the 
University of South Carolina; and my daughter, Kate, who is a 
rising high school sophomore. Their love and support have been 
invaluable to me.
    Second row. Thank you.
    Chairman Isakson. Would you all please stand for a minute. 
Do not be shy.
    Mr. Tucker. I was privileged to serve in the U.S. Marine 
Corps for 20 years of active and reserve time. From my early 
days at Officer Candidate School through the Infantry Officer 
Course, and on various training and combat deployments 
overseas, the dual role of a Marine leader was ever-present in 
my mind: accomplish the mission and take care of your Marines.
    I came to the Senate for the first time as a Marine Corps 
Congressional Fellow in 2009, and I learned firsthand that 
leadership traits and principles I lived by as a Marine officer 
were applicable to solve complex problems on behalf of 
constituents, especially veterans. I enjoyed the work here 
immensely and eventually decided to return, first as a Deputy 
Staff Director of the Republican staff on this Committee, and 
later as Senator Burr's Senior Policy Advisor for National 
Security and Veterans Affairs.
    Those six and a half years in the Senate convinced me, the 
only way you get really big things done here is to build 
relationships with sincere and like-minded people in both 
political parties who are committed to accomplishing the 
mission together. Some of my most rewarding and memorable 
accomplishments here were negotiating significant bipartisan 
compromises and solutions for the VA and for veterans. If 
confirmed, I will bring that same sense of duty, diligence, and 
bipartisan service in representing the VA before this Congress.
    One key observation I had as a Senate staffer was that the 
VA sometimes lacks a unified voice on Capitol Hill. Secretary 
Shulkin has recognized the growing need for cohesive and 
coordinated communication with Congress and a more responsive 
level of engagement with members and their staffs. To address 
that need, he directed the Office of Congressional Legislative 
Affairs to consolidate, effective July 1, what were previously 
separate but related functions and staffs, in the Veterans 
Health Administration and Veterans Benefit Administration, and 
to fully assimilate them into a unified staff by October 1. If 
I am confirmed, I pledge that this integrated and proactive 
staff structure will ultimately better serve the Congress and 
allow the VA to respond to your inquiries with more efficiency 
and in a timely manner.
    The months ahead will provide a number of opportunities for 
the VA and this Committee to work together, along with other 
committees and members, to debate and advance the 
administration's legislative priorities. My objective, if 
confirmed, will be to ensure that we have open lines of 
communication. I am firmly committed to ensuring the 
administration's priorities for the VA are communicated to this 
Committee and to other committees with oversight 
responsibilities, as well as to any member of the House or the 
Senate who requests information or support from the Department. 
I want to build on the constructive and positive relationship 
the Department has been promoting with Congress to meet the 
needs of our Nation's veterans.
    Thank you for the opportunity to testify before you today, 
and I look forward to your questions.
    [The prepared statement of Mr. Tucker follows:]
    Prepared Statement of Brooks D. Tucker, Nominee to be Assistant 
 Secretary, Congressional and Legislative Affairs, U.S. Department of 
                            Veterans Affairs
    Chairman Isakson, Ranking Member Tester, Distinguished Members of 
the Committee on Veterans' Affairs, Thank you for the opportunity to 
testify before you today and for your consideration of my nomination to 
serve as the Department of Veterans Affairs Assistant Secretary for 
Congressional and Legislative Affairs. I am humbled by President 
Trump's nomination and the confidence that he and Secretary Shulkin 
have shown in me.
    I would like to recognize my family members who are here with me 
today. My wife Anita, who has been by my side for over twenty years; my 
son Forrest, who will soon be a freshman at the University of South 
Carolina; and my daughter Kate, who is a rising high school sophomore. 
Their love and support have been invaluable to me.
    I was privileged to serve in the United States Marine Corps for 
twenty years of active and reserve time. From my early days at Officer 
Candidate School through the Infantry Officer Course, and on various 
training and combat deployments overseas, the dual role of a Marine 
leader was always present in my mind: Accomplish the Mission and Take 
Care of Your Marines. I came to the Senate for the first time as a 
Marine Corps Congressional Fellow in 2009 and learned first-hand that 
the leadership traits and principles I lived by as a Marine Officer, 
were applicable to solve complex problems on behalf of constituents, 
especially veterans. I enjoyed the work here and eventually decided to 
return; first as the Deputy Staff Director on the Republican Staff for 
this Committee, and later as Senator Burr's Senior Policy Adviser for 
National Security and Veterans Affairs. Those six and a half years as a 
Senate staffer convinced me the only way you get the really big things 
done is to build relationships with sincere and like-minded people in 
both political parties who are committed to accomplishing the mission 
together. Some of my most rewarding accomplishments of those six years 
were negotiating significant bi-partisan compromises and solutions for 
the VA and for veterans. If confirmed, I will bring that same sense of 
duty, diligence and bi-partisan service in representing the VA before 
the Congress.
    I am firmly committed to ensuring the Administration's priorities 
for the VA are communicated to this Committee and to the other 
committees with oversight responsibilities, as well as to any Member of 
the House or the Senate who requests information or support from the 
Department. One key observation I had as a Senate staffer was that the 
VA sometimes lacked a unified voice on Capitol Hill. Secretary Shulkin 
has recognized the growing need for cohesive and coordinated 
communication with Congress and a more responsive level of engagement 
with Members and their staffs. To address that need, he directed the 
Office of Congressional and Legislative Affairs to consolidate, 
effective on July 1, what were previously separate, but related 
functions and staffs, in Veterans Health Administration and Veterans 
Benefit Administration and to fully assimilate them into a unified 
staff by October 1. If I am confirmed, I pledge that this integrated 
and proactive staff structure will ultimately better serve the Congress 
and allow the VA to respond to your inquiries with more efficiency and 
in a timely manner.
    The months ahead will provide a number of opportunities for the VA 
and this Committee to work together, along with other Committees and 
Members, to debate and advance the Administration's legislative 
priorities. My objective, if confirmed, will be to ensure that we have 
open lines of communication. I want to build on the constructive and 
positive relationship the Department has been promoting with Congress 
to meet the needs of our Nation's veterans. Thank you for the 
opportunity to testify before you today and I look forward to your 
questions.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

Response to Prehearing Questions Submitted by Hon. Jon Tester to Brooks 
    Tucker, Nominee to be Assistant Secretary for Congressional and 
        Legislative Affairs, U.S. Department of Veterans Affairs

    Question 1. Why are you seeking the position of Assistant Secretary 
of Congressional and Legislative Affairs?
    Response. I have been firmly committed to improving the lives of 
Veterans and their families for over twenty years, in private life 
through volunteerism and in public service. This position will give me 
an opportunity to bring that experience to bear at a strategic level 
during a critical period for the Department of Veterans Affairs.

    Question 2. Have you and Secretary Shulkin discussed the duties and 
the role you would assume as Assistant Secretary for Congressional and 
Legislative Affairs if you are confirmed? If so, what specific areas of 
the job were discussed? How would approach those responsibilities if 
confirmed?
    Response. The Secretary has discussed what he expects of me if I am 
confirmed. His focus is on improving the internal departmental 
coordination for Congressional concerns and being more proactive with 
Congress. If confirmed, I intend to reduce and eliminate administrative 
processes that hinder prompt and informed exchanges with Congress and 
increase day to day staff level outreach and communications with 
Congress.

    Question 3. Do you anticipate having a policymaking role if you are 
confirmed? If yes, what would your role in creating policy include?
    Response. If confirmed, my role would be to advise the Secretary on 
the ramifications and implications of policy decisions as they pertain 
to Congress. The Assistant Secretary is a critical member of the 
Secretary's policy team--managing the policy agenda of the legislative 
branch and more important, helping the Secretary develop policy to 
carry out the President's agenda and execute the policy through 
legislation.

    Question 4. What was your impression of OCLA while you were 
employed in the Senate? How has that informed how you would manage 
OCLA?
    Response. During my time as a Congressional Staffer, OCLA's 
reputation was somewhat inconsistent and its responsiveness often in 
question. OCLA had problems delivering a consistent and complete 
message on a given issue and oftentimes had to correct prior 
information provided to Congress, which harmed OCLA's credibility and 
that of VA. More must be done with VA senior leadership to emphasize 
OCLA's unique role and authority within VACO in order to develop 
greater effort to support OCLA's mission and ultimately support 
Congress.

    Question 5. Please describe what you believe the mission of VA 
should be.
    Response. VA's mission is to care for Veterans and their families. 
This is a national security imperative.

    Question 6. As a veteran, how do your personal experiences of using 
VA services impact your thoughts on how to perform the duties of this 
position?
    Response. I am a combat veteran and have been very fortunate to 
have served in a number of foreign operations without incurring an 
injury requiring VA health care or disability benefits. However, I know 
many fellow veterans, relatives and friends, who are not as fortunate 
and their stories and the stories of their families inspire me to work 
for better care and outcomes for veterans who use or rely upon the VA. 
If I am confirmed, I will strive to do so.

    Question 7. It is my understanding that you have been working at 
the Agency for the past several months. What has been your impression 
of the Department? What have been your duties while employed with the 
Agency? Please describe any particular issues that you have worked on 
while employed by VA.
    Response. I have a mixed impression of the Department. If I am 
confirmed, and based on my experience as a Veteran and a senior 
Congressional staffer, I intend to suggest any changes that are needed 
to improve the Department's capabilities and that will enhance its 
reputation, with both the Congress and the public.

    Question 8. What do you see as the biggest challenges facing VA at 
this time? What steps would you take to immediately begin addressing 
these issues if confirmed?
    Response. Leadership and accountability are the foremost 
challenges, along with cultural change, improved performance and 
ultimately higher credibility; all are closely related. The VA is a 
large and complex organization and often under intense public scrutiny. 
No organization can succeed in that difficult and unpredictable 
environment without high quality leaders spurring change at all levels 
and clear accountability for results. If VA can demonstrate, with 
targeted help from legislative authorities and appropriations, that it 
can execute its mission well, while recruiting and retaining capable 
leaders, then performance and credibility will improve over time.

    Question 9. How would you describe your management style and how is 
it suited to this particular position?
    Response. I learned as a Marine Officer that an effective leader 
needs to accomplish the mission and take care of his people, be 
decisive, and build a bright and capable team that will be brutally 
candid and execute smoothly. A smart leader will delegate 
responsibility to conduct tasks, but never delegate overall authority 
as the senior person. My leadership style is generally collaborative, 
which is essential in a position such as this, where working with 
Members of Congress and for the Secretary and his Under Secretaries is 
vitally important.

    Question 10. What in your experience do you believe contributes to 
your qualifications for this position?
    Response. I know firsthand that military service can cause 
hardships, physical and emotional, and that service in peacetime and 
wartime can have lasting positive and negative effects on people who 
served. I also know from experience that Congress has a valuable and 
indispensable role in conducting oversight and VA must support that 
effort with accurate and timely information, and be accountable for 
results.

    Question 11. What skills would you bring to this position that 
would help you contribute to meeting the needs of veterans?
    Response. The credibility, reputation and relationships I 
cultivated during over six years serving on Congressional Staff, first 
as a Marine Corps Congressional Fellow and later as a policy adviser 
who worked extensively with bi-cameral committees and staff focused on 
military and veterans' affairs. I have a strong desire to see needed 
changes and reforms in VA that will lead to better care for veterans.

    Question 12. Please provide an organizational structure and roles 
and responsibilities for the staff currently employed by OCLA. Are 
there any modifications to the current structure you are contemplating 
and would carry out if confirmed?
    Response. The information below describes how OCLA is organized 
presently. Discussions are underway to develop a more consolidated 
operational model for Congressional Affairs in VACO, with the functions 
and personnel that exist outside of OCLA, in VHA, VBA, and NCA, 
becoming more closely aligned with OCLA teams and leadership. If I am 
confirmed, I will support these discussions and the objective because 
better alignment will improve coordination inside VA and with Congress.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    OCLA currently has 45 Full Time Employees (FTE) and provides links 
to contact lists for the oversight teams (Legislative, Benefits, 
Corporate Enterprise, and Health), and for the outreach team on the 
OCLA landing page, https://www.va.gov/oca/.
    OCLA is led by an Assistant Secretary, who reports directly to the 
Secretary of the Department of Veterans Affairs and serves as the 
Department's primary point of contact with the Congress. The Assistant 
Secretary also serves as the principal point of contact between OCLA 
and the White House Office of Legislative Affairs.
    One Principal Deputy Assistant Secretary (PDAS) and one Deputy 
Assistant Secretary (DAS) for Congressional Affairs comprise the senior 
OCLA leadership team and report directly to the Assistant Secretary, 
who is their supervisor. In addition, there are two Schedule C Special 
Assistants assigned to the Office of the Assistant Secretary.
    An Executive Assistant/Director of Operations (EA) provides for 
overall administrative management of the organization to include budget 
formulation and execution; and directs the personnel management program 
for the organization by providing oversight to employees and performing 
or overseeing the full range of human resources requirements.
    Each Director leads a team of Congressional Relations Officers, 
Congressional Liaison Officers/Representatives, and Program Analysts 
within OCLA. Specific director duties and responsibilities are:

    Director, Veterans Benefits Legislative Affairs Service. The 
Director, Veterans Benefits Legislative Affairs Service is responsible 
for maintaining liaison activities between VA and its Congressional 
oversight committees in regards to all Veterans Benefits Administration 
issues, in person and through assigned Congressional Relations Officers 
(CRO) and Program Analysts (PA). This includes the tracking, 
monitoring, and delivery of all Requests for Information (RFI) and 
briefings. In addition, the Director is responsible for all hearing 
coordination and witness preparation. Where issues cross service 
boundaries, directors must coordinate who will take the lead on the 
issue.
    Director, Veterans Health Legislative Affairs Service. The 
Director, Veterans Health Legislative Affairs Service is responsible 
for maintaining liaison activities between VA and its Congressional 
oversight committees in regards to all Veterans Health Administration 
issues, in person and through assigned Congressional Relations Officers 
(CRO) and Program Analysts (PA). This includes the tracking, 
monitoring, and delivery of all Requests for Information (RFI) and 
briefings. In addition, the Director is responsible for all hearing 
coordination and witness preparation. Where issues cross service 
boundaries, directors must coordinate who will take the lead on the 
issue.
    Director, Corporate Enterprise Legislative Affairs Service. The 
Director, Corporate Enterprise Legislative Affairs Service is 
responsible for maintaining liaison activities between VA and its 
Congressional oversight committees in regards to all Human Resource, 
Information and Technology, and VA Construction and Leasing issues, and 
serves as the Department's liaison with the Government Accountability 
Office (GAO) monitoring GAO activities affecting VA and veterans. This 
is performed in person and through assigned Congressional Relations 
Officers (CRO) and Program Analysts (PA). This includes the tracking, 
monitoring, and delivery of all Requests for Information (RFI) and 
briefings. In addition, the Director is responsible for all hearing 
coordination and witness preparation. Where issues cross service 
boundaries, directors must coordinate who will take the lead on the 
issue.
    Director, Legislative Affairs Service. The Director, Legislative 
Affairs Service is responsible for coordinating the development and 
continued monitoring of the Departments legislative priorities. Also, 
provides views and technical assistance on the Departments legislative 
priorities and pending legislation before Congress. This is performed 
in person and through assigned Congressional Relations Officers (CRO) 
and Program Analysts (PA). This includes the tracking, monitoring, and 
delivery of all Requests for Information (RFI) and briefings. In 
addition, the Director is responsible for all hearing coordination and 
witness preparation. Where issues cross service boundaries, directors 
must coordinate who will take the lead on the issue
    Director, Congressional Outreach and Congressional Liaison Service 
and Correspondence. The Director, Congressional Reports and 
Correspondence Service is responsible for maintaining liaison 
activities between the Department of Veterans Affairs (VA) and the U.S. 
Congress. The Director guides the development, documentation, 
establishment and implementation of policies, guidelines and procedures 
followed by Liaison Representatives in conducting liaison activities 
and constituent service support. The Director ensures Members of 
Congress and their staff are provided with accurate and a timely 
response to constituent inquires. The Director monitors the flow of 
executive correspondence, Questions for the Record and Congressionally 
Mandated Reports as they traverse through the drafting and concurrence 
process.
    Congressional Relations Officers are assigned a primary area of 
responsibility and serve as the back-up officer for another 
Congressional Relations Officer assigned to their team. Congressional 
Relations Officers are responsible for most actions related to 
Congressional Hearings, to include coordinating and synchronizing 
witness preparation, orchestrating hearing preparation sessions, 
staffing the congressional testimony, accompanying the witness to the 
hearing and taking action to ensure that hearing due-outs are submitted 
on time to Congress. The Congressional Relations Officer reviews 
letters, questions for the record, and transcripts associated with the 
hearing and his/her other assigned areas of responsibility. He/she 
provides advice and counsel to the Assistant Secretary, DAS and ADAS on 
the topics within his/her portfolio and communicates and coordinates 
with other stakeholders as appropriate.
    Program Analysts work closely with and provide support to the 
Congressional Relations Officers assigned to his/her team. The program 
analyst is responsible for a wide range of support activities to 
support the congressional relations officers, to include: coordinating 
rooms for congressional hearing preparation sessions, transportation to 
congressional briefings and meetings, building hearing and briefing 
books, managing the processes for Questions for the Record (QFR), 
hearing transcripts, and supporting the congressional relations 
officers in other areas as needed.

    Question 13. Please walk us through the OCLA approval process for 
Requests for Information once information is received from the 
appropriate subject matter expert. What percent of answers do you 
anticipate that you will personally see prior to responses being sent?
    Response. The Congressional Relations Officer, or Congressional 
Liaison Officer, with oversight of a given topic area or region is 
responsible for answering the relevant request in a timely and accurate 
manner. The Congressional Relations Officer confirms the information 
being sought, along with any necessary background information, and then 
tasks the request to the appropriate VA Administration or program 
office for a comprehensive draft response.
    OCLA must ensure that all answers to Congressional inquiries 
accurately reflect the Department's position. As such, except for basic 
inquiries of publicly available information, the Congressional 
Relations Officer is responsible for the internal coordination 
necessary to vet every answer through proper channels. As soon as the 
response has been cleared through the appropriate offices, the 
Congressional Relations Officer transmits that response to the 
originating Member office.
    In FY 2016 OCLA responded to 2,812 Requests for Information and in 
FY 2017, as of May 31, 2017, OCLA has responded to 1,456 Requests for 
Information. If I am confirmed, I do not expect to review every 
response that is sent. Therefore, I will likely have to rely on my 
subordinate SES level colleagues to ensure reviews are being conducted 
and overseen at the appropriate level commensurate with the issue area 
or concern.

    Question 14. How do you view the relationship between OCLA and 
subject matter experts within VA? Do you believe there are 
circumstances when OCLA would not be involved in responding to 
questions from Congress?
    Response. OCLA should have general or specific visibility on any 
question from Congress. There are instances where a Congressional 
staffer has a close professional relationship with a VA subject matter 
expert (SME) and communicates directly with that SME. But, when this 
occurs, it is the responsibility of that SME to ensure OCLA is aware of 
the query and is included on any response provided. This ensures a 
consistently accurate and optimally staffed response to Congress.

    Question 15. What goals do you have for timely responses to 
Congress for requests for whitepapers, information or other background 
materials? How would you work within the Department to ensure that your 
goals are met?
    Response. VA can always strive to do better in the area of 
responsiveness. I understand VA's guidelines for requests for 
information (RFI) are to provide an answer within 48 hours for simple 
or routine questions and within 10 business days for requests 
determined to be complex. In situations where more time is needed, VA 
should engage the original requester to explain that more time is 
necessary and provide an estimated delivery date. Additionally, VA has 
already shown it can improve when proper management actions are taken. 
In calendar year (CY) 2015, it took an average of 33 business days for 
VA to provide a response to a Congressional letter written to the 
Secretary and in CY 2016 this average had grown to 36 business days. 
However, at this point in CY 2017, VA has successfully lowered the 
average time to provide a response to Congressional letters written to 
the Secretary to 17 business days. I also refer you to my response to 
your Question #12.

    Question 16. What would you do to ensure that Members of Congress 
are advised in advance of problems, issues and emerging matters--
particularly when those matters are specific to the area a member 
represents?
    Response. If confirmed, I will work to instill in OCLA staff the 
intention to always be cultivating and improving relationships with 
Member offices and staff to get early indications or warnings of a 
problem or emerging issue. This approach can go a long way to 
anticipating rather than reacting to a problem. Additionally, I 
understand VA is working to implement a new Strategic Management Tool 
to bridge data sharing gaps across multiple Offices and help senior 
leaders make data-driven decisions. OCLA must understand Congressional 
stakeholders' interests and concerns to improve outreach to them. By 
implementing an improved system to track the history of inquiries by 
specific Members and Committees, OCLA can begin to establish the 
institutional knowledge necessary to anticipate issues and items of 
interest and then proactively reach out to our Congressional partners 
as they arise.

    Question 17. Under your leadership, what would OCLA's role be in 
preparation of testimony for Congressional hearings?
    Response. The most visible and public interaction between VA and 
Congress are Congressional hearings. OCLA is responsible for 
coordinating all hearings that require a VA official to testify and is 
in charge of testimony development. Recurrent and open communications 
between OCLA and Congressional committee and Member staff are essential 
to a successful hearing. Through staff-to-staff conversations, OCLA 
Congressional Relations Officers are able to gauge the intent of the 
hearing and determine the topics that the Committee members desire to 
cover. OCLA's work with Committee staff, VA administrations or program 
offices, and the White House ensures the testimony is accurate and 
submitted on time.

    Question 18. Under your leadership, would OCLA have any role in 
clearing legislation that VA submits to Congress?
    Response. Certainly. VA proposes to the Congress each year 
``legislative proposals,'' which consist of VA's recommendations on 
statutory changes that are needed to improve program operations or 
modify program authority to better serve the Nation's interests. The 
legislative initiatives are determined by the Secretary, with input 
from appropriate VA officials, and are submitted to OMB for 
consideration and Administration approval. OCLA is responsible for 
coordinating among the necessary VA Administrations and program offices 
and OMB during the clearance process, and leads the effort in seeking 
passage by Congress.

    Question 19. VA has always struggled to tell its success stories. 
What could OCLA do to help the Agency tout its accomplishments?
    Response. VA is making progress solving problems nationally and 
locally but OCLA must communicate more consistently to our internal and 
external stakeholders such as Congress, VSOs, and the media to 
emphasize where and how progress is being made. Too often Congress and 
the media disregard what VA does well or is doing better than others. 
Part of that reflex is due to a lack of a consistent and persistent 
OCLA presence on Capitol Hill. OCLA must consistently engage and 
educate Congressional members and staff so they are inclined to relay 
VA accomplishments to constituents and the media. If confirmed, I will 
ensure OCLA leadership is on the Hill more frequently and telling those 
positive stories, as well as hearing from Staff and Members.

    Question 20. Under your leadership, would OCLA have any role in 
modifying technical assistance provided to members who have asked for 
assistance in drafting bills?
    Response. OCLA is responsible for coordinating the development and 
continued monitoring of the Department's legislative priorities and 
does not comment on legislation except to pass along the official view 
of the Department, as approved by OMB. OCLA also has the responsibility 
to coordinate the Department's response to all requests made by 
Congressional committees for technical assistance on legislation 
pending before Congress. In these instances, the Department only 
provides the technical assistance requested. Since no policy positions 
are provided, OCLA does not obtain OMB clearance.

    Question 21. Have you evaluated the Congressional Liaison offices 
located on Capitol Hill and how they fit into the work of the Office of 
Congressional and Legislative Affairs?
    Response. OCLA currently has a mix of caseworkers and Congressional 
Relations Officers at each location for easier access. These employees 
do not resolve casework, but are liaisons to the VA offices that 
conduct the casework. Additionally, their office space is often used 
for small meetings or briefings. These office spaces are available for 
more recurrent use by members of OCLA's teams based at VACO. If 
confirmed, I intend to detail additional staff to those offices 
periodically for closer proximity to Congressional offices and staff in 
order to facilitate better relationships and communication.

    Question 22. How would you identify and evaluate any trends in the 
concerns raised by Members of Congress and how would you present the 
issues raised for VA Senior Management so they might be addressed?
    Response. There are a variety of technical ways to detect and 
evaluate trends in concerns by using VA data analysis, but the best way 
to do this is to have constructive professional relationships with 
Members and their Staff and get to know where trends are emerging 
before they become problems or crises. It is the role of the senior 
leadership within OCLA to maintain an awareness of emergent issues and 
proactively inform VA Senior management on how to address those issues. 
If I am confirmed, OCLA's senior leadership will be more visible in 
Congress on a recurrent basis.

    Question 23. In the past, this Committee has had a difficult time 
receiving timely submissions of testimony and timely responses to post-
hearing questions, please comment on ways you would work to improve the 
timeliness of responses to this Committee.
    Response. 93% of all VA testimony was submitted to Congress on time 
in FY 2016. During that same time 58% of VA Questions for the Record 
(QFR) were submitted to Congress on time. OCLA can and should strive to 
markedly improve its responsiveness, and if I am confirmed, it will be 
my goal to do so.

    Question 24. Please explain in detail what you understand the 
function of the House and Senate Committees on Veterans' Affairs to be 
and how you believe OCLA should relate, respond and interact with 
Committee staff.
    Response. SVAC and HVAC are the primary authorizing committees in 
Congress on legislation affecting veterans. Committee members work to 
develop areas of expertise that meet the needs of their constituents 
and enable them to make significant contributions to public policy 
debates affecting veterans. Chairmen and Ranking Members work to set 
the agendas for their respective Majority and Minority members. OCLA 
staff should excel in regular outreach to all Committee staff, and 
member staff in Washington, DC, as well as in State/District offices. 
If confirmed, I will work to empower OCLA staff so that they have the 
structure and resources to provide reliably consistent, timely and full 
responses to Congressional inquiries. I will support and join them in 
ensuring that Members of Congress and their staff are promptly notified 
of any potential problems as they arise. OCLA staff will develop 
strategic communications plans in concert with VA's Office of Public 
and Intergovernmental Affairs (OPIA) and the Office of the Secretary of 
Veterans Affairs (OSVA) to better inform members and Congressional 
staff about VA decisions that will affect veterans nationally or 
locally.

    Question 25. If confirmed, would you be able to work collegially 
with Republicans, Democrats and Independents? Please describe steps you 
would take to ensure fairness when working with Democrats and 
Independents, in particular.
    Response. I have always worked in a non-partisan manner and have 
friends and colleagues who span political party affiliations. Open and 
candid communication is my preferred means of ensuring a collegial and 
non-partisan approach.

    Question 26. There are reports that the Administration has ordered 
agencies to not provide responses to Democrats' information requests. 
If you were to receive such an order, what would you do? Have you 
participated in or been aware of any communications where this topic 
was discussed? Please provide details on the participants in this 
discussion, the substance of the discussion, and any outcomes.
    Response. VA's longstanding practice has been to respond to 
information requests from Congress. I am not aware of any such orders 
not to respond to minority party members and it is my intent to respond 
to all requests from Congress independent of the party of the 
requester.

    Question 27. Do you agree to meet with members and their staff on 
issues that might arise that demands your immediate attention?
    Response. If confirmed, I will make myself available on issues that 
demand my immediate attention.

    Question 28. Do you agree to appear before the Committee when 
invited?
    Response. Yes, to the maximum extent possible.

    Question 29. Is there anything in your background that you believe 
disqualifies you from being confirmed to this position?
    Response. No.

    Chairman Isakson. Thank you, Mr. Tucker.
    Mr. Byrne.

  STATEMENT OF JAMES BYRNE, NOMINATED TO BE GENERAL COUNSEL, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Byrne. Good afternoon, Chairman Isakson, Ranking Member 
Tester. Thank you for this opportunity to appear today. I am 
humbled and honored to have been nominated by President Trump 
to be the VA General Counsel. It is my highest professional 
honor and I am grateful to Secretary Shulkin for his 
confidence.
    I am fortunate to have with me here today my wife, Becky, 
and I am thankful for her unwavering support during more than 
30 years of marriage. Our union started 3 days after my 
commissioning into the U.S. Marine Corps and God has blessed us 
with six children and four grandchildren, some of whom are here 
today.
    My wife, in the gray, please stand, and daughters Hannah, 
Gabby, and Sarah.
    On induction day at the U.S. Naval Academy some 35 years 
ago, having been dispossessed of all my civilian possessions 
and most of my hair, I stood with 1,300 classmates to take the 
oath of office, an oath that I have taken many times since, to 
serve something greater than ourselves by supporting and 
defending the Constitution of the United States. I am honored 
and excited by this prospect of, if confirmed, taking that oath 
again.
    I spent the better part of my career in service to this 
great Nation. Indeed, service is in my family DNA. Both my 
father and father-in-law served in the U.S. military, my 
brother is an active duty Navy captain, and now our two sons 
and son-in-law proudly serve in the U.S. Armed Forces. Army son 
Dan is currently stationed in Maryland, while Navy son Mic just 
completed nuclear power school and serves aboard the USS 
Alaska, home-ported in Kings Bay, Georgia. In addition, our 
Navy son-in-law Aaron just returned from a 6-month deployment 
aboard the USS Helena and is based in Norfolk, Virginia.
    In January 2004, I was an activated Marine reservist 
assigned as Officer in Charge of the Marine Liaison Office at 
the then National Naval Medical Center, Bethesda, Maryland. It 
was there that I led a team of dedicated Marines responsible 
for attending to all of the non-medical needs of our wounded 
warriors being cared for at Bethesda, Walter Reed Army Medical 
Center, and Malcolm Grow Air Force Hospital.
    Even today it is difficult to describe this most hallowed 
and emotional period in my military career. Simply stated, it 
was the most gut-wrenching experience of my life. I am 
extremely proud of the work accomplished by my liaison team. 
Alongside the military families and servicemembers who are 
assigned as our charges, we shared in the joy of return and 
recovery, and we wept in the despair of loss and sacrifice. 
Nothing will ever match that experience. And if confirmed, I 
will endeavor to honor the sacrifices of our uniformed 
servicemembers through my service at the VA.
    We all acknowledge how busy our Nation's military forces 
are today and how our country remains committed and prepared to 
serving veterans as they department the military--some healthy, 
some scarred, several fighting for wholeness that combat 
erodes, all veterans, all deserving the best we can offer.
    If confirmed, one of my top priorities will be to help the 
VA Accountability and Whistleblower Protection Act, that it is 
carried out in an effective and consistent way. While enacted 
only a month ago, a know the VA is leaning forward in their 
planning. The law established a new office in the VA with 
numerous changes in personnel processes. I know working with 
the Secretary in partnership with other offices to make sure we 
get it right is absolutely critical.
    I thank the Committee Members for their support they have 
provided the VA and our veterans. Thank you again, Mr. 
Chairman, for your consideration of my nomination, and I am 
happy to answer any questions you may have.
    I respectfully ask that this statement be entered into the 
record.
    [The prepared statement of Mr. Byrne follows:]
   Prepared Statement of James Byrne, Nominee to be General Counsel, 
                  U.S. Department of Veterans Affairs
    Good afternoon, Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee. Thank you for this opportunity 
to appear today. I am humbled and honored to have been nominated by 
President Trump to be the VA General Counsel. It is my highest 
professional honor, and I am grateful to Secretary Shulkin for his 
confidence.
    I am fortunate to have with me here today my wife Becky, and I am 
thankful for her unwavering support during more than 30 years of 
marriage. Our union started three days after my commissioning into the 
United States Marine Corps, and God has blessed us with six children 
and four grandchildren, some of whom are here today.
    On Induction Day at the U.S. Naval Academy some 35 years ago, 
having been dispossessed of all my civilian possessions and most of my 
hair, I stood with 1,300 classmates to take the oath of office--an oath 
I have taken many times since--to serve something greater than 
ourselves by supporting and defending the Constitution of the United 
States. I am honored and excited by the prospect of, if confirmed, 
taking that oath again.
    I have spent the better part of my career in service to this great 
Nation. Indeed, service is in my family DNA. Both my father and father-
in-law served in the U.S. Military, and now our two sons and son-in-law 
proudly serve in the U.S. Armed Forces. Army son Dan is currently 
stationed in Maryland, while Navy son Mic just completed nuclear power 
school and serves aboard the USS Alaska home-ported in Kings Bay, 
Georgia. In addition, our Navy son-in-law Aaron just returned from a 
six-month deployment aboard the USS Helena and is based in Norfolk, 
Virginia.
    In January 2004, I was an activated Marine reservist assigned as 
Officer in Charge of the Marine Liaison Office at the then National 
Naval Medical Center, Bethesda, Maryland. It was there that I led a 
team of dedicated Marines responsible for attending to all of the non-
medical needs of our wounded warriors being cared for at Bethesda, 
Walter Reed Army Medical Center, and Malcolm Grow Air Force hospital.
    It is well-known especially to this Committee that Servicemembers 
are supremely loyal to their units. The hearts and minds of men and 
women who returned home for medical care were of course always with 
their team members engaged in combat operations in Iraq, Afghanistan, 
and elsewhere. This loyalty, service, and undying dedication had a 
profound effect on me, and drove home the profound importance of the 
mission of supporting these wounded warriors under my command and their 
families.
    Even today it is difficult to describe this most hallowed and 
emotional period of my military career. Simply stated, it was the most 
gut-wrenching experience of my life. I am extremely proud of the work 
accomplished by my liaison team. Alongside the military families and 
Servicemembers who were assigned as our charges, we shared in the joy 
of return and recovery and we wept in the despair of loss and 
sacrifice.
    Nothing will ever match that experience. And, if confirmed, I will 
endeavor to honor the sacrifices of our uniformed Servicemembers 
through my service at the VA.
    This past May, Secretary Shulkin outlined his top priorities in 
terms of 13 areas of significant risk for VA. One priority in 
particular--elimination of Veterans' suicide--is for me neither 
academic nor impersonal. I share Dr. Shulkin's passion in this area, 
having lost a Marine under my command to suicide and knowing that many 
more still suffer from Post-Traumatic Stress. I have for the past ten 
years volunteered on the Board of Directors for the Give an Hour 
organization, which is dedicated to providing free mental health 
services to our Servicemembers and their families, and if confirmed I 
will do all in my power to help Secretary Shulkin end this scourge.
    We all acknowledge how busy our Nation's military forces are today 
and how our country remains committed and prepared to serving Veterans 
as they depart the military--some healthy, some scarred, several 
fighting for wholeness that combat erodes. All Veterans. All deserving 
the best we can offer.
    I thank the Committee members for the support they have provided to 
the VA and our Veterans in helping to fulfill President Lincoln's 
promise and our sacred mission ``to care for him who shall have borne 
the battle.'' There is no nobler mission or higher calling for me, and 
it would be my distinct honor and privilege to support this effort.
    Thank you again, Mr. Chairman and Members of the Committee, for 
your consideration of my nomination. I am happy to answer any questions 
you may have, and I respectfully ask that this statement be entered 
into the record.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

                                                      June 30, 2017
Ms. Tammy L. Kennedy
Chief Counsel and
Designated Agency Ethics Official
U.S. Department of Veterans Affairs
Washington, DC.

    Dear Ms. Kennedy, The purpose of this letter is to describe the 
steps that I will take to avoid any actual or apparent conflict of 
interest in the event that I am confirmed for the position of General 
Counsel of the U.S. Department of Veterans Affairs.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Upon confirmation, I will resign from my positions with the 
Lockheed Martin Corporation and Give an Hour. For a period of 1 year 
after my resignation from each of these entities, I will not 
participate personally and substantially in any particular matter 
involving specific parties in which I know that entity is a party or 
represents a party, unless I am first authorized to participate, 
pursuant to 5 C.F.R. Sec. 2635.502(d).
    Consistent with the customary practice for departing executives of 
Lockheed Martin Corporation, I will receive a pro rata bonus for 2017. 
Lockheed Martin will calculate this bonus using an objective formula 
and will reduce the bonus proportionally to compensate me only for the 
portion of 2017 during which I will have worked for Lockheed Martin. 
Lockheed Martin will pay me this bonus before I assume the duties of 
General Counsel.
    I own shares of Lockheed Martin Corporation common stock and the 
Company Stock Fund, which holds Lockheed Martin Corporation stock. I 
also own unvested restricted stock units in the Lockheed Martin 
Corporation. I do not own restricted stock or stock options. Upon 
resignation from Lockheed Martin, I will forfeit all unvested 
restricted stock units. Within 90 days of my confirmation, I will 
divest my interests in the following entities: Lockheed Martin 
Corporation common stock, and the Company Stock Fund. Until I have done 
so, I will not participate personally and substantially in any 
particular matter that to my knowledge has a direct and predictable 
effect on the financial interests of these entities, unless I first 
obtain a written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or 
qualify for a regulatory exemption, pursuant to 18 U.S.C. 
Sec. 208(b)(2).
    Within 90 days of confirmation, I will also divest my interests in 
the following Lockheed Martin-specific funds: Large Cap Stock Fund, 
Small/Mid-Cap Stock Fund, and Target Date Fund 2030. With regard to 
each of these funds, until I have divested the fund, I will not 
participate personally and substantially in any particular matter that 
to my knowledge has a direct and predictable effect on the financial 
interests of that fund or its underlying assets, unless I first obtain 
a written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for 
a regulatory exemption, pursuant to 18 U.S.C. Sec. 208(b)(2).
    I participate in the Lockheed Martin Corporation Deferred 
Management Incentive Compensation Plan, the Lockheed Martin Non-
Qualified Supplemental Savings Plan, and the Lockheed Martin Non-
Qualified Capital Accumulation Plan. Upon my departure from Lockheed 
Martin, I will receive lump sum payouts of these plans before I assume 
the duties of General Counsel.
    I understand that I may be eligible to request a Certificate of 
Divestiture for qualifying assets and that a Certificate of Divestiture 
is effective only if obtained prior to divestiture. Regardless of 
whether I receive a Certificate of Divestiture, I will ensure that all 
divestitures discussed in this agreement occur within the agreed upon 
timeframes and that all proceeds are invested in non-conflicting 
assets.
    My spouse is employed by the Arlington Diocese, St. Luke Catholic 
School in a position for which she receives a fixed annual salary. For 
as long as my spouse continues to work for the Arlington Diocese, St. 
Luke Catholic School, I will not participate personally and 
substantially in any particular matter involving specific parties in 
which I know the Arlington Diocese, St. Luke Catholic School is a party 
or represents a party, unless I am first authorized to participate, 
pursuant to 5 C.F.R. Sec. 2635.502(d).
    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
C.F.R. Sec. 2640.201(a), obligations of the United States, or municipal 
bonds.
    I will meet in person with you during the first week of my service 
in the position of General Counsel in order to complete the initial 
ethics briefing required under 5 C.F.R. Sec. 2638.305. Within 90 days 
of my confirmation, I will document my compliance with this ethics 
agreement by notifying you in writing when I have completed the steps 
described in this ethics agreement.
    I understand that as an appointee I will be required to sign the 
Ethics Pledge (Exec. Order No. 13770) and that I will be bound by the 
requirements and restrictions therein in addition to the commitments I 
have made in this ethics agreement.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C. Sec. 552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
            Sincerely,
                                       James Michael Byrne,
                                                           Nominee.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  James Byrne, Nominee to be the General Counsel, U.S. Department of 
                            Veterans Affairs
    Question 1. Have you and Secretary Shulkin discussed the role he 
would like you to assume as General Counsel if you are confirmed?
    Response. The Secretary in my interview for this position outlined 
his priorities and vision for the Department of Veterans Affairs, and 
placed special importance on the support of the Office of General 
Counsel in fulfilling those priorities. If confirmed, I expect to 
support his priorities along with those of the President.

    Question 2. If confirmed as General Counsel, you would be in charge 
of nearly 700 personnel nationwide.
    A. What experiences do you believe have best prepared you for this 
role?
    Response. My career has been one of increasing responsibilities in 
leadership roles in the military, the Federal Government, and the 
private sector. Those leadership roles have critically involved leading 
and managing employees. As Deputy Special Counsel for the Office of 
Special Counsel (OSC), I served in a career Senior Executive Service 
(SES) position and was responsible for the daily operations and 
management of over 120 attorneys, investigators and specialists 
assigned to four field and headquarters offices. OSC is an 
administratively independent investigative and prosecutorial law 
enforcement agency with jurisdiction over the entire executive branch.

    B. How would you describe your management style?
    Response. I demonstrate in my professional conduct the highest 
level of ethics and integrity. I expect the same from those who report 
to me. If I am confirmed, I will see it as my key responsibility as a 
leader and manager to energize and empower OGC employees to focus their 
efforts on their core mission. This will include developing their 
abilities and providing them the best tools available to perform their 
jobs.

    Question 3. Do you yet have a sense of what the most significant 
challenges are facing the Office of General Counsel at this time?
    Response. I have had the chance to review information related to 
Secretary Shulkin's priorities, OGC's budget, significant ongoing 
public litigation, and some recently enacted legislation that the 
Department is working to implement. In that overview, I came to 
appreciate the breadth, depth, and complexity of the work by the Office 
of General Counsel, as well as its importance to the success of VA's 
multiple missions. If I am confirmed, I view the following as the most 
prominent challenges: fulfilling Veterans' and the public's rightful 
expectations of personnel accountability actions; efficient high-dollar 
and complex procurements; cost effective and timely ongoing major as 
well as minor construction projects; managing the ever-growing 
appellate workload before the Court of Appeals for Veterans Claims; and 
supporting the special complexities presented by the Veterans Choice 
program. While performing at a high level at these functions, the OGC 
also must remain fully engaged with the Committee regarding legislative 
matters.

    Question 4. If confirmed, what priorities would you hope to 
accomplish during your tenure as General Counsel?
    Response. If I am confirmed, my priority as General Counsel will be 
to lead OGC in supporting the Secretary in fulfilling his priorities 
while continuing to identify and meet the legal needs of VA. If 
confirmed, I will focus my efforts on ensuring OGC provides the support 
Secretary Shulkin and VA business leaders need to accomplish providing 
Veterans' benefits and services--and to do so with focused efficiency.

    Question 5. If confirmed, do you plan on making any changes in the 
overall organizational structure of the Office of General Counsel?
    Response. If confirmed, I will examine in a thorough and systematic 
way all the components of the OGC organization to ensure compatibility 
with all business needs and its ability to support the Secretary's 
priorities. This includes the Secretary's modernization efforts, which 
are underway throughout the Department. Otherwise, I believe it would 
be premature to offer any specific assessments of the OGC 
organizational structure at this time.

    Question 6. When crafting legislation, Committee Members or their 
staffs frequently request ``technical assistance'' from the Department 
of Veterans Affairs (VA), in order to receive purely technical--not 
policy--feedback as to whether there are any drafting errors or 
oversights in proposed legislation, whether the language is clear and 
accomplishes the intended purpose, and whether any technical changes 
could strengthen the bill language.
    A. Do you view this as an appropriate function for the Office of 
General Counsel to perform?
    Response. Yes.

    B. If confirmed, will you take steps to ensure that the Committee 
is receiving thorough and purely technical feedback through this 
process?
    Response. Yes.

    Question 7. What is your view on the role the Office of General 
Counsel should play in ensuring that VA understands and complies with 
decisions of the U.S. Court of Appeals for Veterans Claims and other 
courts? If confirmed, do you plan on making any changes in the Office's 
role?
    Response. Just as with legislation, judicial decisions require 
adept legal analysis to assist in understanding what actions are 
required to ensure an agency becomes and remains fully compliant with 
applicable decisions. OGC should, in my opinion, play an active role in 
interpreting decisions of the Court of Appeals for Veterans Claims and 
other courts, and in educating VA leadership about the actions they 
must take to ensure compliance with those decisions. If confirmed, I 
will examine how the office is fulfilling this role. Otherwise, it 
would be premature at this time for me to offer any specific 
observations on potential changes.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to James 
 Byrne, Nominee to be the General Counsel, U.S. Department of Veterans 
                                Affairs
    Question 8. Have you and Secretary Shulkin discussed the role he 
would like you to assume as General Counsel if you are confirmed?
    Response. The Secretary in my interview for this position outlined 
his priorities and vision for the Department of Veterans Affairs, and 
placed special importance on the support of the Office of General 
Counsel in fulfilling those priorities. If confirmed, I expect to 
support his priorities along with those of the President.

    Question 9. What role do you believe the General Counsel plays in 
evaluating legislation, both introduced in Congress and proposed by VA, 
for legal sufficiency and impact?
    Response. VA's Office of General Counsel (OGC) provides conclusive 
interpretations of legal matters for the Department. I believe it 
follows that OGC is and would continue to be essential in any 
evaluation of legislation, in close consultation with subject matter 
experts from the appropriate office. I would expect offices other than 
OGC to be responsible for analysis of the budget impact of legislation.
    Under your leadership, what would OGC's role be in preparation of 
testimony for Congressional hearings?
    As a nominee, I have not been in a position to observe VA's current 
internal processes for preparation of testimony. If confirmed, I will 
undertake a close review of OGC's role in the preparation of testimony, 
which I would expect to vary depending on whether the hearing is for 
the consideration of specific bills, or is an oversight hearing 
focusing on a particular program or issue. I believe the ultimate goal 
for the Department is to provide Congress with timely testimony that is 
authoritative and useful as it conducts its legislative and oversight 
functions.

    Question 10. What do you see as the biggest challenges facing VA at 
this time?
    Response. I view OGC as providing key support for the Secretary in 
meeting the challenges and priorities he has identified. Therefore, I 
would reference the major challenges the Secretary articulated in May 
in his ``State of the VA,'' which include expanding access to care; 
streamlining the processes through which Veterans can seek care in the 
community; ensuring consistent quality of care both within VA and from 
community providers; addressing the disability claims and appeals 
backlog; improving VA's IT infrastructure; modernizing VA's capital 
assets; holding employees accountable for misconduct or poor 
performance; reducing bureaucracy and burdensome regulations; 
preventing fraud, waste and abuse; and doing everything within VA's 
power to end Veteran suicide.

    Question 11. What do you see as the biggest challenges facing the 
General Counsel's office at this time?
    Response. I have had the chance to review information related to 
Secretary Shulkin's priorities, OGC's budget, significant ongoing 
public litigation, and some recently enacted legislation that the 
Department is working to implement. In that overview, I came to further 
appreciate the breadth, depth, and complexity of the work by the Office 
of General Counsel, as well as its importance to the success of VA's 
multiple missions. If I am confirmed, I view the following as the most 
prominent challenges: fulfilling Veterans' and the public's rightful 
expectations of personnel accountability actions; efficient high-dollar 
and complex procurements; cost effective and timely ongoing major as 
well as minor construction projects; managing the ever-growing 
appellate workload before the Court of Appeals for Veterans Claims; and 
supporting the special complexities presented by the Veterans Choice 
program. While performing at a high level at these functions, the OGC 
also must remain fully engaged with the Committee regarding legislative 
matters.

    Question 12. Are you more of a ``hands-on'' manager or do you tend 
to rely on significant delegation? Do you seek to achieve consensus 
with those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. With 722 legal professionals in 94 locations, if I am 
confirmed, I will need to delegate much authority and enable OGC 
personnel by aligning resources to the Department's highest-priority 
legal needs, and acting as a true business partner to VA leaders. 
Accountability for OGC activities cannot be delegated and will always 
remain with me. Consensus after thoughtful review of diverse input is 
best, but as necessary, I am comfortable making timely decisions based 
upon the best available information.

    Question 13. Describe the degree to which you anticipate actively 
managing the work of Regional Counsels.
    Response. As I understand the current state of affairs in OGC, the 
leadership team--to include the District Chief Counsels, who were 
formerly known as Regional Counsels--works quite collaboratively 
together. If confirmed, I'd want to continue that approach, ensuring 
through leadership team communication and collaboration that all OGC 
personnel, both in the field and in headquarters, are advising and 
representing their organizational clients in a way that is consistent 
with the Secretary's vision and priorities.

    Question 14. If confirmed, how do you envision collaborating with 
the Board of Veterans' Appeals, and specifically, with its Chairman?
    Response. If confirmed, I will examine how this collaboration 
occurs now. It would be premature to offer any detailed observations at 
this time. I can state, if confirmed, that I will work collaboratively 
with all organizations whose work shapes and applies VA's legal 
framework and interpret the statutory and legal authorities relevant to 
the Department and to the Veterans it serves.

    Question 15. What role do you believe the Office of General Counsel 
should play in ensuring that VA understands and complies with decisions 
of the U.S. Court of Appeals for Veterans Claims and other courts?
    Response. Just as with legislation, judicial decisions require 
adept legal analysis to assist in understanding what actions are 
required to ensure an agency becomes and remains fully compliant with 
decisions that apply to it. OGC should, in my opinion, play an active 
role in interpreting decisions of the Court of Appeals for Veterans 
Claims and other courts, and in educating VA leadership about the 
actions they must take to ensure compliance with those decisions. If 
confirmed, I will examine how the office is fulfilling that role, but 
it would be premature at this time to offer any observations on 
potential changes.

    Question 16. What role should the Office of General Counsel play in 
determining whether a specific disease or illness should be presumed 
service-connected?
    Response. I know this is a complex and highly specialized topic 
that is heavily dependent on scientific studies. One of the first areas 
I will review should I be confirmed will be to examine the framework 
and process that determines presumptions. I believe as a nominee it 
would be premature to provide my observations at this time.

    Question 17. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of General Counsel?
    Response. Yes, consistent with applicable law.

    Question 18. The Secretary recently announced he would withdraw 
VA's appeal in the Staab case, which was decided last year by the Court 
of Appeals for Veterans Claims.
    a. What is your understanding of the Staab case?
    Response. As I understand it, that case involved a challenge to 
VA's regulation governing reimbursement for emergency treatment of a 
Veteran's non-service-connected condition furnished by a community 
provider. Prior to the ruling of the Court of Appeals for Veterans' 
Claims, VA's regulations barred reimbursement when the Veteran had 
other health insurance. The Court ruled that a 2010 amendment to the 
underlying statute allowed VA to reimburse Veterans for treatment in a 
non-VA facility if they have other health insurance that would pay for 
a portion of the emergency care.

    b. Do you believe the Department had a legal basis for continuing 
to defend its position?
    Response. As a nominee who was not involved in assessing VA's legal 
options during this litigation, I am not in a position to offer my 
personal assessment of how the litigation was conducted. In any event, 
I understand VA has requested the U.S. Department of Justice withdraw 
the appeal.

    c. What factors would you recommend that the Secretary consider 
when determining whether a high-profile case, such as Staab, should be 
pursued in court?
    Response. Such an analysis is highly dependent on the facts of the 
case. However, there are some principles that I believe would apply in 
almost all litigation, and would guide my advice to the Secretary 
should I be confirmed: whether a particular litigation strategy is in 
the best interest of Veterans as a whole; what impact pursuing or not 
pursuing a particular appeal might have on the Department's operations 
or financial position, especially in light of a financial impact on the 
delivery of services to Veterans; and, whether taking a particular 
legal position might have unintended consequences in other litigation 
to which VA is a party.

    Question 19. Currently VA submits the names of Veterans determined 
to be mentally incompetent to the FBI for inclusion in the National 
Instant Criminal Background Check System (NICS). What are your views of 
VA's responsibility, under current laws and regulations, to report 
names for inclusion in NICS?
    Response. As I understand it, the Brady Act requires the reporting 
of certain individuals, including those who have been adjudicated as 
``mentally defective'' (as defined by DOJ regulations that a person 
``lacks the mental capacity to manage his or her own affairs'') or 
committed to a mental institution, to the FBI for inclusion in the 
NICS. My understanding is that VA's responsibilities under the law are 
shaped by regulations and guidance from other agencies. Until I am in a 
better position to closely study these authorities and VA's 
interpretation of them, it would be premature to offer my observation.

    Question 20. Please describe your prior experience with the Office 
of Special Counsel and Office of Inspector General and your dealings 
with whistleblowers and those claiming whistleblower status. How do you 
envision the Office of General Counsel working with the Special Counsel 
or the Inspector General as well as the forthcoming Office of 
Accountability and Whistleblower Protection?
    Response. My last position in the Federal Government was service as 
a career Senior Executive Service (SES) in the position of Deputy 
Special Counsel with the Office of Special Counsel. I understand that 
VA in general, and OGC in particular, has established good, 
collaborative relationships with both OSC and the VA OIG to ensure 
appropriate whistleblower protections. If confirmed, I would continue 
those relationships, and would work closely with the new VA Office of 
Accountability and Whistleblower Protection to continue to protect 
whistleblowers' rights.

    Question 21. Do you agree that VA employees have an absolute right 
to petition or communicate with Members of Congress and congressional 
staff about matters related to VA and that right may not be interfered 
with or denied?
    Response. The Constitution and caselaw are clear that government 
employees, including VA employees, may petition the Congress, 
communicate with their elected representatives and make other protected 
communications. Of course, such communications can be restricted under 
statutes that address issues such as matters regarding pending 
procurements, regulations, and other categories of protected 
information.

    Question 22. Have you ever served as a mediator or arbitrator in 
alternative dispute resolution proceedings and, ?if so, a description 
of the most significant matters with which you were involved in that 
capacity.
    Response. I have not served as a mediator or arbitrator in any 
alternative dispute resolution proceedings.

    Question 23. Describe:

    a. the general character of your law practice and indicate by date 
when its character has changed over the years.
    Response. The character of my law practice has varied since 
graduating law school in 1995. I started as a Federal judicial law 
clerk to the Honorable Malcolm J. Howard, U.S. District Court, Eastern 
District of North Carolina. I then moved to criminal prosecutions with 
the DOJ Criminal Division and management of investigations/prosecutions 
(Prohibited Personnel Practices, Hatch Act and Uniformed Employment and 
Reemployment Act) with OSC. I have also served as in-house counsel.

    b. your typical clients and the areas at each period of your legal 
career, if any, in which you have specialized.
    Response. My clients over my career were the U.S. Government and a 
global corporation. My areas of specialization were: criminal 
prosecutions, corporate internal investigations, ethics, business 
conduct, privacy, data protection, cybersecurity, electronic discovery 
and counterintelligence.

    c. the percentage of your practice that has been in litigation and 
whether you appeared in court frequently, occasionally, or not at all. 
If the frequency of your appearances in court varied, describe such 
variance, providing dates.
    Response. As a Federal prosecutor, I appeared in several Federal 
districts across the U.S. representing the United States primarily 
against defendants accused of drug trafficking.

    d. your practice, if any, before the U.S Merit Systems Protection 
Board, Federal district courts, and the US Court of Appeals for the 
Federal Circuit.
    Response. I prosecuted criminal cases in several Federal district 
courts including SDFL, AK, RI, EDVA, and DC. I prepared a brief and 
successfully argued a criminal appeal before the U.S. Fourth Circuit 
Court of Appeals. I have not practiced before the MSPB or any other 
administrative body.

    Question 24. Litigation: Describe the most significant litigated 
matters which you personally handled, whether or not you were the 
attorney of record. Give citations, if the cases were reported, and the 
docket number and date if unreported. Give a capsule summary of the 
substance of each case. Identify the party or parties whom you 
represented; describe in detail the nature of your participation in the 
litigation and the final disposition of the case.
    Response. I have done my best to identify significant litigation 
matters which I personally handled. Despite my searches, there may be 
other items I have been unable to identify, find or recall. I have 
located the following:

    <bullet> Indicted Carlos Castano and 12 lieutenants of the 
Autodefensas Unidas de Colombia (Paramilitaries) in Colombia, then 
largest narco-terrorist organization in the world. United States v. 
Carlos Castano, et al, U.S. District Court, DC. Many arrests and 
convictions occurred after I departed DOJ.
    <bullet> Rendered defendants from Panama to DC, tried and convicted 
drug traffickers who controlled the Pan-American Highway in late 1990s. 
U.S. v. Rafael Mejia and Homes Valencia Rios, U.S. District Court, DC.
    <bullet> Operation Millennium which resulted in the arrest of 30 
drug traffickers and money launderers in Bogota, Medellin and Cali, as 
part of a coordinated U.S./Colombian investigation. The arrests were 
the culmination of a 1-year operation designed to dismantle a 
Colombian-based transportation consortium believed to be responsible 
for supplying between 20 and 30 tons of cocaine per month to the United 
States and Europe.
    <bullet> U.S. Attorney General's Heroin Initiative--12-month detail 
to Miami U.S. Attorney's Office, Narcotics Section; several complex 
multi-district and international investigations and trials.
    <bullet> Convicted Miami middle-school principal of selling multi-
kilogram quantities of cocaine on school property during school hours, 
U.S. v. Willie Young, U.S. District Court, SDFL.
    <bullet> Additional international, multi-district trials in SDFL, 
and Districts of DC, AK and RI.

    Question 25. Legal Activities: Describe the most significant legal 
activities you have pursued, including significant litigation which did 
not progress to trial or legal matters that did not involve litigation. 
Describe the full nature of your participation in these activities.
    Response. Many of my criminal trials at DOJ in various districts 
did not proceed to trial and were resolved pursuant to a plea agreement 
between the defendants and the U.S. Government.

    Question 26. What role do you anticipate playing in the Secretary's 
policy decisions?
    Response. I believe the role of an agency General Counsel is to 
provide advice as to the legal risks and ramifications of policy 
decisions that may be under consideration. I believe that would be the 
Secretary's expectation of my role if confirmed, as well as to 
facilitate and support the Secretary's priorities by the provision of 
sound legal advice.

    Question 27. As the Agency's Designated Ethics Officer, how do you 
anticipate dealing with conflicts of interest at VA or incidents in 
which the Department may fail to adhere to Federal ethics rules?
    Response. The U.S. Office of Government Ethics has defined in 
regulations the role of each executive branch agency's Designated 
Agency Ethics Officer (DAEO). These regulations hold that the DAEO is 
responsible for, among other things, providing advice and counseling to 
prospective and current employees regarding government ethics laws and 
regulations, including those dealing with conflicts of interest; 
carrying out an effective government ethics education program; taking 
appropriate action to resolve conflicts of interest and appearance of 
conflicts of interest, through recusals, directed divestitures, 
waivers, authorizations, reassignments, and other appropriate means; 
and assisting the agency in enforcement of ethics laws and regulations 
when agency officials make appropriate referrals to the Inspector 
General or the Department of Justice. If confirmed, I will actively 
fulfill these responsibilities.

    Question 28. There are reports that the Administration, through 
their Office of General Counsel, has ordered agencies to not provide 
responses to Democrats' information requests. If you were to receive 
such an order, what would you do? Have you participated in or been 
aware of any communications where this topic was discussed? Please 
provide details on the participants in this discussion, the substance 
of the discussion, and any outcomes.
    Response. My only discussion of this issue has been since I 
received these pre-hearing questions, in order to respond to them. My 
understanding is that such a prohibition has never been, and is not 
now, the practice of the VA.

    Chairman Isakson. Without objection, and the statement of 
all of you will be entered for the record. I have had the 
privilege of reading all those statements as well and I am 
going to quote from a couple of them in my opening remarks.
    Tom Bowman, I want to ask you a question. You and I have 
been together two and a half years. Correct?
    Mr. Bowman. Yes, sir.
    Chairman Isakson. In any time during our activities, in my 
role as Chairman of this Committee or yours, in terms of the 
leader of the staff, have you ever heard me utter, or, for that 
matter, any Member of the Committee utter, privatization of 
veterans benefits or services being a solution to any problem 
that we have?
    Mr. Bowman. I think that the discussions that I have heard, 
both in this room as well as in other briefings, the focus of 
you, as the Chairman, Ranking Member, and other members has 
been always focused on what is best for the veteran.
    Chairman Isakson. Is it not true that every time we have 
ever had anything like Choice, which was, of course, a huge 
challenge that we all met, that we used it as a force 
multiplier for benefits to the veterans, not a replacement for 
the VA services themselves?
    Mr. Bowman. Yes, sir.
    Chairman Isakson. And, is it not true that--did you go to 
Denver with me, to the Denver Hospital?
    Mr. Bowman. Yes, sir.
    Chairman Isakson. That was our first field trip, if you 
will. Actually, it was our first crisis, if I remember 
correctly. We had a hospital that was supposed to cost $600 
million and it was going to run $1.4 billion. It was about to 
be shut down. Dick Blumenthal went with me, he was Ranking 
Member at the time, and we went out there, took the bull by the 
horns, and tried to figure out a way to make it work, but also 
make sure it never happened again. Through that effort and 
through Dick's cooperation and his effort, and the Ranking 
Member, Jon Tester, that hospital is going to be finished, with 
no more cost overruns. At least that is what I am told and have 
been led to believe. We also got the VA out of building big 
projects that did not need to be built, and instead got the 
Corps of Engineers doing them. Is that not correct?
    Mr. Bowman. Yes, sir.
    Chairman Isakson. I think during the course of your service 
with us you have been a part of being a catalyst to solve 
problems, never lose the perspective of the VA being an 
organization of the U.S. Government whose responsibility it is 
to serve our veterans, but always looking for the best way to 
solve the problems, whatever that might be. Is that correct?
    Mr. Bowman. That is correct, sir.
    Chairman Isakson. Mr. Byrne, in reading your testimony--and 
I want to repeat one sentence, and it was just very meaningful 
to me. It said, ``On induction day at the U.S. Naval Academy 
some 35 years ago, having been dispossessed of my civilian 
possessions and most of my hair, I stood with 1,300 classmates 
to take the oath of office, an oath I have given many times 
before, to serve something greater than ourselves by supporting 
and defending the Constitution of the United States of 
America.''
    That is a great statement, and for everybody that is before 
us today for confirmation, this is about more than ourselves. 
This is about something bigger than ourselves. I want to have a 
VA that projects itself to our veterans exactly that way, that 
we know our job is to make sure that they know that we are a 
part of something much bigger than ourselves, and that they are 
the most important thing in our job, and that is to see that 
they get the services that they deserve.
    I also think we talked in my office a little bit, if I am 
not mistaken, Mr. Byrne, about the accountability legislation 
and its implementation. Can you give us any idea of how you 
plan to address the implementation of the Accountability Bill 
that was passed by the Senate and House, and is now law?
    Mr. Byrne. Yes, sir. I will make it a priority, as I said 
in my statement, to engage in supporting, across the VA, the 
implementation of that act. There is a new office that is being 
stood up, and as you would imagine, when you have a new office 
with a new reporting structure, the relationships are going to 
be very key, in particular, the relationship between the 
Inspector General, Office of General Counsel (OGC), Human 
Resources, and this new office. So, I am coming in with a fresh 
look at this, understanding that we all need to work very 
closely together in implementing this act.
    Chairman Isakson. Well, I do not want to put any pressure 
on you, but the success of the failure of the accountability 
program lies squarely on your shoulders.
    Mr. Byrne. Yes, sir.
    Chairman Isakson. Is that right, Jon?
    Senator Tester. That is a fact.
    Mr. Byrne. I embrace that.
    Chairman Isakson. Senator Tester and I are looking to you 
to tell us, not after the fact, but in advance of any problem 
you see coming down the road, and let us attack it early, let 
us attack it often, and let us do whatever we can, 
symbolically, to send the signal to the employees of the 
Veterans Administration that we are working together in 
unanimity, just like you suggested in the statement I read, 
that you wrote.
    If we can do that together, elected officials, senior 
appointed members of the VA, and rank and file employees, then 
we will change the culture of the Veterans Administration, in 
my judgment, all for the better.
    I want to read one of your statements, Mr. Tucker. You all 
did some good work, or somebody did some good work. If you all 
are like me, most of your good speeches come from somebody who 
wrote them for you, but I am sure you all wrote these 
yourselves.
    I love this statement, Mr. Tucker. It says, ``Those six and 
one-half years as a Senate staffer convinced me the only way to 
get the really big things done is to build relationships with 
sincere and like-minded people, of both political parties, who 
are committed to accomplishing the mission together.''
    I think that is music to my ears, and that is exactly the 
way Jon and I have tried to operate, and exactly the way Dick 
and I did when he was Ranking Member of the Committee. In your 
job as Assistant Secretary and Liaison on Congressional 
Affairs, your promoting that attitude is going to be a 
tremendous help to us. We are not Republican veterans. We are 
not Democratic veterans. We are veterans of the United States 
military and we have a job to do. We want to work together, and 
our mission is to work together to pull it off, not to count 
noses to see how many of us there are and how many of them 
there are.
    So, I appreciate very much your statement and that being 
your goal. Is there anything you would like to add to it, in 
terms of how you intend to approach your job to see to it that 
that statement is something that should manifest itself under 
your leadership?
    Mr. Tucker. Senator, the only thing I would say at this 
point, without getting into too much details, is I think that 
the VA Office of Congressional and Legislative Affairs has to 
have a more active and visible presence on Capitol Hill, and 
that goes from the senior leadership down to the rank and file 
in the office. I think there is some work to be done there. I 
think there is a consolidation that we referenced earlier, and 
I think that is going to help get more of us out and about, and 
developing the relationships that we need to have.
    Chairman Isakson. You know, I am going to get myself in 
trouble here because I am running over time, so I apologize. 
But, one idea I have for you--this may not be a good idea but I 
will admit to that myself--we are always calling people to come 
before us, and let us ask them questions and testify. It 
occurred to me when I was reading some of these last night, 
what if you called us to come over to the VA and let the VA 
employees ask us questions about why we did what we did on X, 
Y, or Z?
    We tried. Tom and I tried once, early on, 2 years ago, to 
go to the VA, and we had a town hall meeting in the VA 
building, but it was too large a crowd to really have the one-
on-one back and forth. I would just tell you that I stand 
ready, and I bet--I did not ask Jon about this but I bet you 
Jon does too. If you need us every once in a while to come over 
there and reinforce why we did what we did, or explain why we 
did what we did, good communication between us and the rank and 
file members of the VA, through your conduit of your job as 
professional liaison, can help us avoid some problems.
    So, I offer that to you as a suggestion, and I will be 
willing to keep my word and come if you call me to do so.
    Senator Tester?
    Senator Tester. Thank you, Chairman Isakson, and 
absolutely, communication is critical and we are here to help 
on that. I think that is really the bottom line.
    I am going to ask you a few very short questions that you 
could answer with yes or no, or a very short statement would be 
appreciated to, in this order--Mr. Bowman, Mr. Byrne, Mr. 
Tucker. There are reports that the administration has ordered 
agencies not to provide responses to Democrats' information 
requests. The question is, do you believe the VA has an 
obligation to be responsive to congressional oversight?
    Mr. Tucker. I can answer that initially. In the 5 months 
that I have been in working at the VA, the Secretary's guidance 
has been exactly to respond without any consideration of the 
party affiliation of the member communicating with us.
    Senator Tester. OK. Tom?
    Mr. Bowman. Sir, there is an obligation on the part of the 
Department to always answer what may be questions, whether oral 
or written, and the reason is it is the only way that I believe 
committees can conduct effective oversight is with accurate 
information.
    Senator Tester. Mr. Byrne?
    Mr. Byrne. Yes, sir.
    Senator Tester. Thank you all. If you are confirmed you 
would be respond to the inquiries, whether it is from a 
Democrat, independent, Republican, or other?
    Mr. Tucker. Yes.
    Senator Tester. Yes?
    Mr. Bowman. Yes, sir.
    Senator Tester. Yes.
    Mr. Byrne. Yes, sir.
    Senator Tester. Yes. Just one other thing I just want to 
add. I have been in this body for a little over 10 years now 
and about 10 years ago I got invited to be on a news show. I 
went on and I did not answer any of the questions, and I did it 
intentionally. I do not know why, but I talked in circles. The 
minute I got off that show one of my mentors called me up and 
said, ``What the hell are you doing? That will not raise your 
prominency one inch by doing that kind of stuff.'' He was 
right, and I have never been on that show since, by the way, 
never been asked back.
    The reason I bring this story up is because oftentimes we 
ask questions--and I am not pointing to you guys--but we do not 
get answers. We get folks talking in circles. So, when the 
questions are asked and you write the letter back, read the 
letter and say--ask yourself, does this actually answer the 
questions that these guys have asked? If you can do that you 
could be very effective. Thank you.
    Tom, first of all I just want to say this. Conventional 
marriage vows are until death do we part, and I think that you 
have lived up to those by your story. I did not know that 
transpired with your wife, but I think the fact that you were 
the caregiver, the primary caregiver her last 7 months speaks 
to your character. Plus, I think it speaks to you, as a person, 
which I think is important, regardless of political views. 
Moving forward, I think that speaks well of you and I am very--
you have my admiration. Let us put it that way.
    A couple of weeks ago you said that most requests for 
information should be done within 2 weeks. What specifically 
can each of you do in this role to remove the layers of red 
tape that come between the request for information and a VA 
response?
    Mr. Tucker. Senator, one of the things I think that we need 
to do internally, and if confirmed I want to try to foster this 
kind of dialog, would be the administration under secretaries 
find a way to look at where all the sticky gates are----
    Senator Tester. Yep.
    Mr. Tucker [continuing]. In the process, and figure out 
where they are and see if we can unstuck them or remove them if 
they are extraneous or just problematic. So, I think from that 
perspective, looking at how we function internally, getting 
information to the Congress, needs a wire brush to it and see 
what we can do.
    Senator Tester. OK.
    Mr. Bowman. Sir, I think the important thing is that when 
the Department receives the request, whether oral or in 
writing, getting it to the right level, the right people, the 
right office in the Department as quickly as possible. My 
experience, both within the VA and then over here, is that many 
times the answer is already there. It just needs to be pulled 
together very quickly.
    Senator Tester. OK.
    Mr. Byrne. Sir, if I am confirmed I will inquire about OGC, 
whether we are the problem or not----
    Senator Tester. OK.
    Mr. Byrne [continuing]. Because it is possible that there 
could be a particular organization that is holding things up, 
and if that is the case I will remedy that.
    Senator Tester. Good. This is a question for you, Tom. 
Based on your last experience at the VA as well as your 
knowledge of what expectations are here in Congress for senior 
leaders, what do you think is the right mix of Central Ops' 
oversight and VISN or local facility autonomy?
    Mr. Bowman. I believe that my experience, and from what I 
have picked up having worked over here, is that currently there 
is a disconnect between the field and the VA Headquarters. Not 
purposeful, but I think there is a disconnect. I mentioned it 
kind of briefly in my statement that many times the VISN 
director sets the policy for those medical centers that are 
within, you know, his VISN or her VISN, and then they only--the 
medical centers only pay attention to what the VISN director 
says, not necessarily what they are aware of as the policy. 
When you deal with that number of VISNs across the country you 
have inconsistent approaches to providing information back to 
the VA Headquarters for oversight.
    I really believe that that needs to be looked at and looked 
at seriously. I am not disparaging the performance, necessary, 
of VISN directors because I am not in a position to have looked 
at it--to look at it, but I know it because I have talked to 
people who work within the medical centers, and things that you 
would assume are understood down at that level, they are not 
even aware of it, because it has not gotten down. So, I think 
the disconnect needs to be addressed.
    Senator Tester. OK. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman. Mr. Byrne, the 
VA's Office of General Counsel provides conclusive 
interpretations of legal matters for the Department and assists 
in the drafting and implementation of relevant legislation. 
Last December, President Obama signed into law, as part of the 
Veterans Omnibus Bill, that included my bill, to improve staff 
recruitment and retention by allowing VA doctors to work 
flexible hours, like the private sector.
    I understand the VA has not yet implemented this provision 
and has created a workgroup which includes OGC to develop a 
policy needed to implement this new legislation, and if 
confirmed can I count on your commitment to ensure OGC 
prioritizes this issue to swiftly implement this law, given the 
tens of thousands of vacancies in Hawaii and across the VA 
system?
    Mr. Byrne. Yes, ma'am. Thank you for bringing it to my 
attention. I was not aware. Thank you. I will.
    Senator Hirono. So, now that you are aware, it is going to 
rise to the top of your list of priorities----
    Mr. Byrne. Yes, ma'am.
    Senator Hirono [continuing]. To pay attention to, because 
you will hear from my office. Thank you very much.
    I think it is important because I certainly--I visit our VA 
facilities all across our State, and retention--the need for 
more hospital personnel, et cetera, is really critical, and to 
keep them. If we can buy this kind of legislation, enable them 
to work within our system, I think that is what we ought to be 
doing.
    Homelessness, Mr. Bowman. As Deputy Secretary you will be 
involved with managing over $1 billion in funding to assist 
homeless veterans and their families, and the VA Director, 
former Director was going to eliminate homelessness in veterans 
100 percent, and, of course, was a noteworthy effort, but we 
are not there yet. What are your thoughts on ways we can 
continue the progress we have made in reducing veteran 
homelessness? We have had a 47 percent decline since 2010, and 
to improve the transition process to prevent homelessness to 
begin with. Any thoughts?
    Mr. Bowman. Senator, I think that the efforts that have 
gone on thus far have put into place an adequate, probably 
better than adequate structure within which to utilize the 
funds that are made available, interact with the community. I 
think that to bring veteran homelessness down further, first, 
there has to be a stronger coordination with the community, 
because when the veteran is homeless they are out in the 
community. When I was in Florida in VISN 8, there was a strong 
effort to make sure that you engaged heavily there.
    The other is to identify, as early as you can, based upon, 
let us say, hospital visits, outreach, those veterans and 
veterans with children that are experiencing problems, either 
keeping their house, paying the rent, confronting problems 
relative to kids being absent from school because they are 
moving around. I think that type of approach will go a long way 
in further reducing that number, because I believe the numbers 
of young veterans with families are on the increase, and we 
have to be more innovative in how we approach and identify and 
address that.
    Senator Hirono. So, in terms of identifying those veterans 
who may be on the brink of homelessness, do you have enough 
resources for that kind of outreach efforts on your part, or 
whatever way that you would go about identifying those folks 
who may be potentially homeless?
    Mr. Bowman. Not having been on the development side of the 
budget for the VA, I do believe that there probably is an 
existing outreach and social work structure within the VA that 
coordinates outside of VA. I think much can be picked up in the 
visits and the dialog that takes place when a veteran visits 
for a medical appointment, because they are going to talk about 
their problems. When, you know, an experienced counselor hears 
certain trigger words, they go, ``Well, wait a minute. Maybe 
there is something going on here.'' Then, if they can have an 
enhanced dialog I think that is a way of being able to identify 
somebody that is approaching the brink, may be on the brink, 
and VA maybe able to intervene and help address the problem.
    Senator Hirono. That kind of approach has to become 
institutionalized within the VA, so it is not catch as catch 
can that you may have a social worker or somebody who hears 
something and then they decide for themselves there should be a 
protocol, I would think. Do you know if there is such a 
protocol?
    Mr. Bowman. I believe there is. I believe there is.
    Senator Hirono. When you mentioned the issue of 
homelessness among veterans, that it involves the whole 
community, I think that is very good because I think some of 
the programs involve mayors, for example, to be part of the 
housing first for veterans, so please keep that going.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Tester.
    Senator Tester. Yes. I do not know that anyone was happy 
with the way the Choice fund shortfall came to light. I 
certainly think that the VA could have handled it much better 
in the weeks and days following the revelation.
    Tom, you have been at the VA and you have worked here. 
Could you try to explain to me where the disconnect is between 
monitoring the fund and alerting leadership to this issue? If 
you can tell me where that disconnect is, can you tell me how 
you might have handled it differently, if you had been there?
    Mr. Bowman. Well, Senator, I think the beginning point is 
you have in place individuals in the financial management area 
that are monitoring the expenditure of these funds. Now, I 
cannot tell you all of the manner, means, or methods that are 
in place, but all of them have a focus on if there is a certain 
amount of funds that are supposed to be being expended for a 
particular purpose then you have junctures and set points as 
you begin to monitor it.
    Now, either there was a miscalculation on the part of 
somebody who was responsible for monitoring, or it was being 
monitored but nobody considered the fact that the burn rate may 
have been increased and thus, when it is increased, it is going 
to impact the ultimate end date and then create that follow-on 
problem.
    Senator Tester. Right.
    Mr. Bowman. I think that there could have been a greater 
sense of attention to monitoring with the expectation of these 
funds are going to run out if the burn rate goes up, in support 
of veterans.
    Senator Tester. Right. Right.
    Mr. Bowman. Then, when you know that, you alert your 
seniors up the line, because this was a well-known, critical 
issue conveyed to Congress----
    Senator Tester. Yep.
    Mr. Bowman [continuing]. And I was on the staff, and one of 
the understandings was that we were going to have funds that 
were going to last at through December----
    Senator Tester. That is right.
    Mr. Bowman [continuing]. Possibly even into January. So, 
the Congress operated under an understanding that the funds 
were there----
    Senator Tester. Yep.
    Mr. Bowman [continuing]. Then, when it became known, there 
was an answer. If it became known then it became known in 
actuality earlier, that they had time to develop an answer.
    Senator Tester. Yeah.
    Mr. Bowman. When something like that becomes aware, I 
believe a heads-up should have been provided to the Congress 
for them to be able to consider, along with the Secretary's 
input, how you are going to address it.
    Senator Tester. Right. Right. OK.
    Mr. Byrne--that is good. Mr. Byrne--and I will give you 
some dates here--but by law Congress is required to be notified 
within 30 days after 75 percent of the Choice fund was 
exhausted--notified 30 days after 75 percent was exhausted. On 
June 7, we began hearing from the field that there was a 
problem with the money running out. Later the same day we heard 
from the VA that there was less than $1 billion left. On 
June 30, 3 weeks later, basically, I received a legal 
notification that 75 percent of the fund was exhausted, and 
that probably happened back in April, quite frankly. And 
throughout June, VA sent a series of contradictory instructions 
to the field, which further confused everybody, from veterans 
to doctors to VA to TPA staff.
    So, Mr. Byrne, do you anticipate being involved in making 
sure that the VA would be meeting the letter of the law, even 
when it is something as mundane as reporting to Congress?
    Mr. Byrne. Yes, sir. I can imagine being involved in that, 
not only in my role as the chief legal officer for the 
organization but also on the senior staff, being aware and 
asking those types of sort of common-sense leadership 
questions.
    Senator Tester. OK. As many, if not all of you know, I did 
not serve. Most folks on this Committee have heard me say we 
need to take our cues from our vets, and I solidly believe 
that, whether back home in Montana or whether it is out here in 
D.C., with those individuals who are back here in D.C., with 
those individuals who represent, really, the millions of 
veterans across this country. I really think it is important to 
listen to our veterans. I value what they have to say.
    Tom, starting with you, do you believe the VA should be 
taking its cues from the VSOs and the veterans that they 
represent?
    Mr. Bowman. Yes, I do.
    Senator Tester. That is good enough for me. Could you talk 
to me about how you will keep your ear to the ground on what 
veterans nationwide are saying, and specifically how you will 
work with the veterans service organizations (VSOs) to 
basically better understand those needs?
    Mr. Bowman. I think that there has been a pattern and 
practice not only during the period of time that I served in 
the VA earlier----
    Senator Tester. Yeah.
    Mr. Bowman [continuing]. But, since then, and that is to 
meet with the veteran service organizations here at the 
headquarters level frequently, and I think the Secretary does 
that, and it would be my intention to do it.
    Senator Tester. OK. Good.
    Mr. Bowman. But beyond that is during trips into the field, 
it is very important for whoever the VA official is, when they 
go to visit a site----
    Senator Tester. Yep.
    Mr. Bowman [continuing]. Is that they also visit the--or 
have the opportunity to interact with the veteran service 
organizations at that particular site----
    Senator Tester. Yes, sir.
    Mr. Bowman [continuing]. As well as the families of 
veterans there, which I think is something that does not happen 
that often. They do meet with veterans and veteran 
organizations representatives, but I think there needs to be an 
effort to gather in families so they can talk about, candidly, 
what they believe to be issues that their veteran loved one is 
not conveying.
    Senator Tester. Mr. Tucker, do you believe we should listen 
to the VSOs and the veterans they represent?
    Mr. Tucker. I think it is invaluable advice, Senator.
    Senator Tester. OK. Do you have any ideas on how we could--
over and above what Tom said--better bring them in for input?
    Mr. Tucker. I think we need to expand the aperture of who 
we are talking to also, because there are growing and different 
groups out there who represent different perspectives on the 
same problems. I think that you have got some--more of the 
post-9/11 veterans groups that are populated differently than 
the pre-9/11. So, I think that those folks need to be inclusive 
more, and I think the Secretary wants to do that.
    Senator Tester. OK. Mr. Byrne, do you feel that the 
veterans, we should be listening to them?
    Mr. Byrne. Yes, sir, I do, and I agree with everything that 
the gentlemen just stated.
    Senator Tester. OK. Very good. Thank you, Mr. Chairman.
    Chairman Isakson. Can I answer that question?
    Senator Tester. Yes, you can.
    Chairman Isakson. I definitely think we ought to listen to 
the VSOs. I hope they will listen closely to all of us, too. We 
are a team, just like your testimony, your statement, Mr. 
Byrne. We are in this thing together. It is bigger than all of 
us. It is very important that we take our leadership, as Jon 
said, from our veterans and those that did serve. I served. I 
know all of you are Marine Corps veterans. Correct? All 
Marines? Naval Academy but Marine Corps.
    Mr. Byrne. Yes, sir.
    Mr. Bowman. Yes.
    Mr. Tucker. Yes.
    Chairman Isakson. It is important that we listen to them 
but it is also important for them to listen to us, and that we 
develop this team spirit, whether we are in the Marines or Air 
Force or whatever it might have been. It is in the best 
interest of the Veterans Administration.
    I appreciate Senator Tester bringing up the Choice issue, 
and with that I will just make an editorial comment, if I can.
    Jon and I have been working very hard to get Choice 
finished in this session of Congress. We have gotten very close 
a couple of times to a bill to fully fund Choice for the 
remainder of the fiscal year, make some other changes within 
the system, and not have to worry about it again. But, Jon is 
correct--the fact that there are so many buckets in the VA. We 
have had manufactured crises of running out of money when, in 
fact, we really were not running out of money at all. We just 
run out of money in one bucket. That is not the way to run a 
railroad. I ran a pretty big company and that would have run us 
to the bank in a hurry.
    So, one of the things that Jon is going to look for, and I 
am going to look for, are good, solid communications in one 
bucket, and if we have a crisis it needs to be a real crisis, 
not one manufactured for the purpose of making us think we had 
to act quickly to do something we really did not have to do.
    Did I say that clearly?
    Senator Tester. You did.
    Chairman Isakson. So, that was not a question. That was a 
definitive statement, and I will let that rest.
    With that said, any other questions, Jon?
    Senator Tester. None.
    Chairman Isakson. Let me thank all of you. Congratulations 
on your nomination. I do not want you to think the ratification 
of your nomination is going to be a slam-dunk, but I will tell 
you, if Jon does his job and I do mine, and we have a majority 
of the Committee present for a quorum on the floor of the 
Senate tomorrow, on the first vote, then we will hold your 
markup tomorrow and you know your fate quickly, because we want 
you deployed quickly, in the field quickly, and we want to be 
there to support all of you.
    Thank you for your service to the country. Thank you for 
your willingness to serve the country. Thank you for coming and 
for your testimony today. We wish you the very best of luck.
    Now I call Panel II forward. [Pause.]
    We have Panel II present and I will introduce the panel at 
this time. These are all nominees to the U.S. Court of Appeals 
for Veterans Claims, which is a tremendous responsibility and a 
tremendous job.
    The three nominees testifying today are Michael Allen, of 
Florida, to be a Judge of the U.S. Court of Appeals for 
Veterans Claims; Amanda Meredith, who is no stranger to any of 
us on the Committee, to be a member of the Court of Appeals for 
Veterans Claims; and Joseph Toth, of Wisconsin, to be a Judge 
of the U.S. Court of Appeals for Veterans Claims.
    Would you all please rise. Would you raise your right hand 
and repeat after me. Do you solemnly swear or affirm that the 
testimony you are about to give before this Committee of 
Veterans' Affairs will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Allen. I do.
    Ms. Meredith. I do.
    Mr. Toth. I do.
    Chairman Isakson. Thank you. You may be seated.
    This is a really important--you are to be commended on your 
selection for this nomination. This is a tremendous honor for 
you to do it and of tremendous importance to our veterans. As 
Amanda knows, by being on the Committee staff, we have been 
working hard on appeals, to make sure that appeals are less in 
their volume, more quickly responded to in timing, and veterans 
get the service they need from the Court and from the VA in a 
timely fashion. I think all three of you--I have met with all 
three of you at the White House, and have met with you since 
then, independently. We thank you for accepting the 
responsibility of being nominated and we wish you the very best 
of luck and stand here to be supportive of everything that you 
are trying to do.
    With that said, we will start the testimony. Mr. Allen, I 
will call on you first, for up to five minutes.

 STATEMENT OF MICHAEL P. ALLEN, NOMINATED TO BE A JUDGE OF THE 
       UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS

    Mr. Allen. Thank you, Chairman Isakson, Ranking Member 
Tester, and Members of the Committee. I am honored to have been 
nominated by the President to be a Judge of the U.S. Court of 
Appeals for Veterans Claims.
    First I want to thank the Committee and its staff for the 
way in which you have treated this nomination, and I also want 
to thank the White House Counsel's Office, and, in particular, 
Associate Counsel Rob Luther for their help in this process.
    I also want to start out by thanking some people who have 
been instrumental in my life. My wife, Debbie, and my sons, Ben 
and Noah, mean everything to me. I love them more than they can 
imagine. They could not be here today because of a family 
obligation but they are here in spirit. I am also grateful for 
the support of my in-laws, Bob and Judy, my sister, Mary, and 
her family, my brother-in-law, Bob, and his family. Both my 
parents and my other sister, Michelle, have passed away, but I 
wanted to recognize them too.
    I have to acknowledge the thousands of students I have 
taught at Stetson University College of Law. I can assure you 
that they have given me far more than I ever taught them. And 
finally, I want to thank my best friend, Jason Stearns, who is 
a veteran of the U.S. Navy. He is here today. He has always 
been there for me, and through his example I have learned a 
great deal about living with integrity. So, thank you, Jason.
    Prior to 1988, veterans who believed that they were 
wrongfully denied benefits by the VA had no recourse. Those 
veterans had to rely solely on the VA to get it right with no 
judicial oversight, and the Supreme Court called this the era 
of the VA's splendid isolation. That era of splendid isolation 
came to an end when Congress passed, and President Reagan 
signed into law the Veterans Judicial Review Act of 1988, and 
that provided for judicial review of VA decisions for the first 
time before a new Federal Court, the Court of Appeals for 
Veterans Claims.
    The judges of that court faced an awesome task. They not 
only had to create law where none existed but they actually had 
to create an institution. As the court approaches its 30th 
anniversary, it is important to recognize what the men and 
women who served on that court did. I think we owe them a debt 
of gratitude.
    Now I firmly believe that the introduction of judicial 
review has been a success, but there is much work still to be 
done. As this Committee knows, all too well, there are serious 
challenges facing the VA veterans benefit system. The system is 
staggering under the weight of more than 1.5 million 
applications for benefits coming in the door every year, and 
there is a large backlog of appeals, as you suggested, Mr. 
Chairman, with veterans facing delays of years to have those 
appeals adjudicated at the agency. This Committee has recently 
considered that very issue and no doubt Congress and the 
Department will continue to do so.
    But, I believe the court will also play a pivotal role in 
addressing these systemic challenges. At the same time, of 
course, the court has to be cognizant of the need to resolve 
individual veterans' appeals fairly and expeditiously. As I 
said, there is a lot of work to be done and I am, quite 
frankly, excited to get to doing it.
    I believe I can make a meaningful contribution to the 
court. I graduated from Columbia Law School 25 years ago, I 
spent 9 years in private practice in Boston, Massachusetts, and 
since 2001, I have been a professor of law at Stetson in 
Florida. I came to veterans' law accidentally. I spoke at the 
2005 Judicial Conference of the Court and I was asked to speak 
precisely because I knew nothing about veterans' law and was an 
expert in the Federal court system. But I have to tell you, I 
got hooked at that first conference, and for the last 12 years 
I have spent my professional life focusing on veterans' law. I 
have spoken across the country and written widely in the field. 
I have testified before this Committee in the past, as well as 
its House counterpart, and the result of all of this is that I 
firmly believe that I am the right person at the right time to 
fill one of these vacancies.
    It will be the highlight of my career, should I be 
confirmed, and take a seat on the Court of Appeals for Veterans 
Claims. I can promise you that I will strive every day that I 
am a judge to deliver equal justice under the law to everyone 
who appears before me.
    In March 1865, only a few hundred yards from where we are 
sitting right at this moment, President Lincoln gave, as Mr. 
Bowman said, his famous Second Inaugural Address, and only a 
few weeks before he would be assassinated the President rallied 
the country to come together and bind its wounds, and 
specifically called on the Nation to care for him who borne the 
battle and his widow and his orphan.
    By becoming a judge on this court, I will be able to carry 
out President Lincoln's exhortation on a daily basis, and, 
quite frankly, I cannot think of a better way to spend one's 
career.
    So, thank you very much, Mr. Chairman, for considering the 
nomination.
    [The prepared statement of Mr. Allen follows:]
     Prepared Statement of Michael P. Allen, Nominee to be Judge, 
               U.S. Court of Appeals for Veterans Claims
    Thank you Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee. I am honored to have been 
nominated by the President of the United States to serve as a Judge on 
the United States Court of Appeals for Veterans Claims. I want to begin 
by thanking this Committee and its excellent staff for the work done in 
connection with my nomination. And I too want to thank the White House 
Counsel's Office, and in particular Associate Counsel Rob Luther, for 
the guidance provided in connection with this process. It most 
certainly has been an adventure.
    Before moving to substance, I must thank some people who have been 
instrumental in my life. My wife Debbie and my sons Ben and Noah mean 
everything to me. They have stood by me through good times and bad. I 
thank them for everything and love them a great deal. My life would not 
be the same without them in it. I'm also grateful for the support of my 
in-laws Bob and Judy Brown, my sister Mary and her family, and my 
brother-in-law Bob Brown and his family. Both my parents have passed 
away, but I thank them for bringing me up and hope--and believe--that 
they would be proud of me today. I also want to acknowledge the 
thousands of students I have interacted with at Stetson University 
College of Law over the past sixteen years. They have given me far more 
than I ever taught them. And finally, I thank my best friend Jason 
Stearns, a veteran of the United States Navy, who has always been there 
for me. Through his example, I've learned a great deal about living 
your life with integrity and what it really means to always stand 
shoulder to shoulder with a friend no matter what.
    Prior to 1988, veterans who believed they had been wrongfully 
denied benefits by the then-Veterans Administration had no recourse. 
Unlike almost any other class of people in our country, veterans had to 
rely solely on the VA to ``get it right'' with essentially no judicial 
oversight. The Supreme Court described this period as one of the VA's 
``splendid isolation.''
    The era of ``splendid isolation'' came to an end when Congress 
enacted the Veterans Judicial Review Act of 1988. That Act provided for 
judicial review of VA decisions--now decisions of the Department of 
Veterans Affairs--for the first time. That review would be conducted by 
a new Federal court, the Court of Appeals for Veterans Claims. The 
original judges of the court faced a truly awesome task. They not only 
had to create law where none had existed before, they also had to build 
an institution. As the court approaches its 30th anniversary, it is 
worth stopping for a moment to recognize what has been accomplished 
since the VJRA became law by the men and women who have served on the 
court. We truly owe them a debt of gratitude.
    I firmly believe that the creation of the court and the 
introduction of judicial review has been a success. Nevertheless, there 
is much work still to be done as the court enters its next phase. As 
the Members of this Committee know all too well, there are serious 
challenges facing the veterans' benefits system. The system is 
staggering under the weight of more than a million and a half 
applications for benefits coming in the door each year. There is also a 
large backlog of appeals in the Department and veterans are facing 
delays of years to have their appeals adjudicated at the agency. This 
Committee has recently considered this very issue and, no doubt, 
Congress and the Department will continue to do so. But I believe the 
court will also play a pivotal role in addressing these systemic 
challenges. At the same time, of course, the court will also need to be 
cognizant of the need to resolve individual veteran's appeals fairly 
and expeditiously. As I said, there is much work to be done. I confess 
that I'm very excited to get to be a part of addressing these issues.
    I believe that I have the experience to make a meaningful 
contribution to the court's efforts and am well-suited to hit the 
ground running. I graduated from Columbia Law School 25 years ago. 
After law school, I spent nine years in private practice at the 
international law firm Ropes & Gray based in Boston, Massachusetts. 
Since 2001, I have been a Professor of Law at Stetson University 
College of Law in Tampa Bay, Florida teaching Constitutional Law, 
Remedies, Complex Litigation, Civil Procedure, and Federal Courts.
    Like many things in life that turn out to shape us, I came to 
veterans law accidentally. I was asked to speak to the judicial 
conference of the United States Court of Appeals for Veterans Claims in 
2006. I knew nothing about this area of law and, in fact, was asked to 
speak precisely for that reason. The court wanted an expert in the 
Federal court system to look at veterans law without the baggage of 
being immersed in the existing system. Quite simply, I was hooked after 
that introduction to veterans law.
    After speaking at that judicial conference, I spent the next nearly 
12 years focusing on veterans law and, in particular, the Court of 
Appeals for Veterans Claims. In that time, I have spoken to groups 
across the country about veterans law, presented at more judicial 
conferences of the Court of Appeals for Veterans Claims and the United 
States Court of Appeals for the Federal Circuit, become the Director of 
the Veterans Law Institute at Stetson University, written numerous law 
review articles about veterans law, and testified before this Committee 
as well as its counterpart in the House of Representatives. It's 
embarrassing for me to say this because I don't particularly like 
talking about myself, but I ended up becoming a national expert on the 
law of veterans' benefits. The result of all of this is that I firmly 
believe that I am the right person at the right time to fill one of the 
vacancies on the court.
    I wish to end in many respects where I began. Thank you all for 
considering my nomination to this incredibly important court. It will 
be the highlight of my career should I be confirmed and take a seat on 
the Court of Appeals for Veterans Claims. I can promise you that I will 
strive every day that I am a judge to deliver justice under the law to 
everyone who comes before me.
    In March 1865, only a few hundred yards from where this hearing is 
being held, President Lincoln gave his famous Second Inaugural Address. 
Only a few weeks before he would be assassinated, President Lincoln 
called on the country to come together and bind its wounds. He then 
called on the Nation to ``care for him who has borne the battle and his 
widow and his orphan.'' By becoming a judge on this court, I will be 
able to carry out President Lincoln's exhortation on a daily basis. I 
can't think of a better way to devote my professional energies.

    Thank you again Mr. Chairman. I would be pleased to answer any 
questions that you or other Members have about my nomination.

                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                


             APPENDIX C--Michael P. Allen Media Appearances

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Committee non-confidential supplemental questionnaire 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Judicial Conference of the United States 
Committee on Financial Disclosure follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
Michael P. Allen, Nominee for Judge, U.S. Court of Appeals for Veterans 
                                 Claims
    Chairman Isakson, First thank you and your staff for the manner in 
which you have considered my pending nomination to serve as a Judge on 
the United States Court of Appeals for Veterans Claims. It is a 
singular honor for me to have received this nomination. If I am 
confirmed, I very much look forward to serving in this important role. 
I have provided below the answers to the questions you have asked. If 
you would like further information, please let me know.
            Respectfully,
                                          Michael P. Allen.

    Question 1. The United States Court of Appeals for Veterans Claims 
generally hears appeals from claimants seeking benefits from VA. How 
has your background equipped you to serve as an appellate judge?
    Response. I have been in the legal profession for over twenty-five 
years. During that time, I spent nine years as an advocate at a large 
law firm and sixteen years as a law professor. My combined experiences 
in these roles have allowed me to develop skills that equip me to serve 
as an appellate judge. I describe four important examples below.
    First, I have been able to hone my skills as a writer. An appellate 
judge has an important duty to be able to convey his or her decisions 
in ways that are both understandable to laypersons, particularly an 
individual claimant, and also other decisionmakers who must follow the 
law as articulated in a judicial opinion. While all judges must be 
strong writers, that skill is particularly important for an appellate 
judge because of the binding effect of appellate decisions in the 
relevant area of law. I have written hundreds of briefs and scores of 
articles and books in my time in the legal profession. That skill in 
written legal communication will be important in my service as an 
appellate judge should I be confirmed.
    Second, in my capacity as a law professor in particular, I have 
developed a deep understanding of the functioning of the Federal 
judiciary. As a general matter, for example, I am the author of a 
widely-adopted textbook on the Federal courts. This work caused me to 
study how courts--principally at the Federal appellate level--operate. 
More specifically, I have spent the last twelve years focusing my 
professional activities on the operation of the United States Court of 
Appeals for Veterans Claims. This work provides me with a unique 
perspective on the specific institution on which I have been nominated 
to serve.
    Third, in my entire career I have worked with other lawyers or 
lawyers in training to prepare them to appear before appellate courts. 
For example, I have coached moot court teams at Stetson University 
College of Law for the past sixteen years. In moot court, students 
prepare written briefs and argue before panels of lawyers and judges in 
mock appellate cases. Working on these educational experiences has 
allowed me to guide students though the process of understanding how 
one influences appellate tribunals. While this may seem trivial in some 
sense, moot court has been an intense educational experience that has 
the benefit of providing me with an understanding of the appellate 
process that will serve me well should I be confirmed to serve as an 
appellate judge on the Court of Appeals for Veterans Claims. Indeed, 
one of the competitions I have coached has been the one held by the 
Court of Appeals for Veterans Claims. That competition has been held 
for the past eight years. I am proud to say that the teams I have 
coached have won the competition four of those eight years.
    Finally, my time in the legal profession, in particular my time as 
a law professor, has given me a deep appreciation of the law. A judge--
and in particular an appellate judge--must love the law, both 
substantively and procedurally. He or she must be energized by trying 
to find the correct result within the confines of the law and facts of 
a given case. My deep and sustained study of the law (procedural, 
substantively, and remedial) makes me ideally suited to serve as an 
appellate judge.

    Question 2. Can you describe what you believe is the appropriate 
temperament and traits of a judge?
    Response. There are two core elements to what I believe a judge 
must do, elements that effectively describe the ``temperament and 
traits of a judge.'' First, a judge has to try to ``get it right.'' 
That means a judge must assess the facts of a given case, determine 
what the law is, and then apply that law to the facts. A judge will 
never get everything right because we are all human. But he or she 
needs to focus their efforts on diligently trying to do so.
    Second, a judge needs to consciously ensure that the litigants and 
advocates appearing before him or her feel that they had a fair day in 
court. Such a perception (and of course reality) of due process is 
critical to maintaining a respect in an independent judiciary. A 
significant component of this point is that a judge needs to listen 
(and read) what the litigants and advocates submit. And even more 
importantly, a judge needs to treat everyone before him or her with 
respect. In some measure, appellate decisionmaking is a zero sum game; 
there will be a winner or loser. The hallmark of a truly great judge is 
that the ``loser'' can say they had a fair shot from a respectful 
arbiter. In other words, the judge needs to be impartial but yet make 
clear that he or she cares about the integrity of the process.

    Question 3. What examples from your personal experiences can you 
provide demonstrate that you have both the temperament and traits of a 
judge?
    Response. As I described above, the two main pillars by which I 
assess judging are trying to obtain the correct result and making sure 
that the people appearing before the judge feel that they got a fair 
day in court. I provide two illustrations from my twenty-five year 
career in the law that exemplify these characteristics.
    First, one of the core goals of the academic enterprise is about 
getting the correct result when a professor produces scholarship or 
proposes policy changes. A law professor develops a thesis and writes 
an article or policy proposal setting forth that thesis. Then, he or 
she presents the idea to others in order to assess its validity. At 
times, an idea that looks great on paper in the first instance turns 
out to have flaws or gaps in reasoning. That has certainly happened to 
me. Having experienced preparing an idea, presenting it, hearing 
criticism, and revising it has prepared me well to be a judge. To sum 
it up, it's not so important to be right at the start of the process; 
what's critical is to try to be right at the end. My time in the legal 
academy has been critical in this regard.
    Second, my work in teaching and speaking to community groups has 
shown my ability to present a fair and impartial demeanor. A key 
component of fair process is that the adjudicator be impartial. In 
other words, he or she should not be seen to have a preference for one 
point of view or the other when the goal is to present a certain topic. 
One of the courses I teach is Constitutional Law. As you might imagine, 
the course raises a number of controversial issues. I am often told by 
students after the course that they have no idea what I think about a 
particular issue as a matter of personal preference because I am so 
neutral in the class. The same thing happens with community groups. No 
one knows what position I would take as, for example, a legislator. 
None of this means I don't care. I care deeply about the process. But I 
have been able to display a neutrality that allows me to reach many 
more people than if I had been an advocate for a particular position. I 
will bring this same impartiality to being a judge if I am confirmed.

    Question 4. For a number of years, you have been involved with 
training and mentoring law students and practitioners in the field of 
veterans' law and, if you are confirmed, you may come across cases 
handled by former students and practitioners.
    a. Do you foresee that you might need to recuse yourself if any of 
those former students and practitioners come before the Court?
    Response. As a general matter, I would not foresee recusing myself 
from an appeal or other matter solely because a lawyer appearing before 
me had been a former student or a practitioner with whom I had dealings 
before becoming a judge (should I be confirmed). Instead, I would make 
such decisions on a case-by-case basis based on the factors I describe 
in sub-part (b) to this question. As with all judges, I am sure that 
there would be some appeal or other matter that would require me to 
recuse myself, but such instances would be the exception not the rule. 
And this makes sense. Most people appointed to be a judge will have 
been involved in the relevant legal community. If one were to take the 
position that recusal would be required if there were general 
interactions with others in the relevant area, the result would be 
appointment to the judicial office of those with no connections to the 
area, whether that be geographic or substantive. For example, one of 
the reasons that I am qualified to serve as a judge on the Court of 
Appeals for Veterans Claims is that I have been deeply involved in 
veterans law for the past twelve years. During that time, I have had 
professional interactions with advocates representing veterans and 
other claimants, Veterans Law Judges at the Board of Veterans' Appeals, 
and lawyers representing the Secretary of Veterans Affairs. Those 
interactions are, in part, what qualify me to serve as a judge on the 
court. A blanket rule of disqualification would potentially foreclose 
experts from serving as judges. It is for this reason that I would make 
case-by-case recusal decision as I describe below.

    b. What factors would govern your decision?
    I would be guided in my recusal decisions by the principles set 
forth in 28 U.S.C. Sec. 455 governing the disqualification of Federal 
judges. More colloquially, I would recuse myself when the circumstances 
of a given case might cause others to reasonably question my 
impartiality. In a non-exclusive way, I will provide three examples of 
situations in which I would recuse myself:

    <bullet> When a law firm representing a party had some financial 
relationship with a member of my family. For example, my wife is a 
lawyer at Ropes & Gray, a large law firm. That firm handles some 
matters before the Court of Appeals for Veterans Claims on a pro bono 
basis.
    <bullet> When I had participated in some way in a matter before 
becoming a judge. For example, I submitted an amicus brief in a matter 
(Monk v. Shulkin) that could come before the Court of Appeals on remand 
from the United States Court of Appeals for the Federal Circuit.
    <bullet> When I have a more specific personal relationship with a 
lawyer in a case than merely knowing him or her through professional 
interactions. For example, if my relationship with a lawyer were more 
than one that was just a friend--more akin to being a best friend--
recusal might be warranted.

    Question 5. You have provided Congressional testimony and written a 
number of articles on veterans' law in which you suggest changes within 
the system for reviewing veterans' benefits appeals, including at the 
Court. If confirmed, would you advocate for making specific changes at 
the Court? If so, what would those changes be?
    Response. Yes, if I am confirmed I would advocate making certain 
changes in the way in which the court operates. The gravamen of the 
changes I would advocate focus on three issues that are related, but 
distinct: (1) the manner of decisionmaking (single judge versus panel 
decisions); (2) precedential versus non-precedential decisions; and (3) 
the use of oral argument. I will discuss these issues below. Before 
doing so, however, I suggest one more general change at the court that 
I would hope to implement. The court's opinions often appear to be 
formulaic and difficult to read. Judicial opinions will never be 
literature. That is perhaps even more so in a highly technical area 
such as the law of veterans' benefits. However, judges should strive to 
make their opinions as readable as possible. I hope to inject more 
``readability'' into opinions of the court.
    I now turn to the three more general points I mentioned above. 
Under the court's rules and internal operating procedures,\1\ (1) 
manner of decisionmaking, (2) the precedential nature of decisions, and 
(3) the use of oral argument are essentially linked. I will first 
explain how that is so and then turn to possible changes I would 
advocate should I be confirmed.
---------------------------------------------------------------------------
    \1\ The court's rules and internal operating procedures can be 
found at the court's website. www.uscourts.cavc.gov.
---------------------------------------------------------------------------
    Congress provided that the Court of Appeals for Veterans Claims 
could operate in panels or en banc (as the full court) as other 
appellate courts do. However, Congress also specifically provided that 
the court could operate by single judge action. See 38 U.S.C. 
Sec. 7254(b). Over its history, the court has been aggressive in it use 
of single judge adjudication to resolve appeals. For example, in Fiscal 
Year 2016 (October 1, 2015 through September 30, 2016), 1,561 appeals 
\2\ reached a judge for decision.\3\ Single judges decided 1,532 of 
these appeals. Stated differently, the court acted through single 
judges more than 98% of the time.
---------------------------------------------------------------------------
    \2\ I have limited this analysis to appeals. It does not include 
other matters such a petitions for extraordinary relief.
    \3\ A majority of appeals filed at the court do not reach a judge 
for decision. For example, in FY 2016 while judges resolved 1,561 
appeals, an additional 2,651 were resolved by the Clerk of Court. The 
overwhelming reason for these Clerk-driven resolutions was settlement 
by the parties after use of the court's mediation program.
---------------------------------------------------------------------------
    What is the effect of a single judge resolution of an appeal? To be 
sure, such action resolves the dispute between the claimant-appellant 
and the Secretary. However, through its rules and internal operating 
procedures, the court provides that the actions of single judges in 
what are called Memoranda Decisions are not precedential. This means 
that such decisions only apply to the case the single judge 
adjudicates. They do not provide rules that are binding more generally 
on the Department of Veterans Affairs in connection with its 
administration of veterans' benefits. Thus, in FY 2016 while the court 
disposed of 1,561 appeals through judicial action, it issued only 29 
precedential decisions, that is decisions by a panel of judges.
    Finally, in terms of current procedure, the court generally uses 
oral argument only in matters decided by panels (or the court sitting 
en banc). Oral argument is not prohibited in single-judge matters, but 
the court's rules provide that ``[o]ral argument normally is not 
granted on nondispositive matters or matters being decided by a single 
judge.'' See Rule 34(b) of the Rules of Practice and Procedure of the 
United States Court of Appeals for Veterans Claims.
    In sum, the court's current procedures link the three concepts I am 
discussing. A single judge disposition is one that is non-precedential 
and for which oral argument will generally not be held. If I am 
confirmed, I hope to be able to (a) disaggregate these three concepts 
and (b) assess each one individually. I briefly note below some of my 
ideas about these issues:

    <bullet> In my view, the court needs to issue more precedential 
opinions. Whether such precedent is established in single judge 
decisions or only by panels as now provided at the court is distinct 
from the question of precedent standing alone. One of core components 
of the establishment of judicial review of actions of the Department of 
Veterans Affairs on benefits matters in the Veterans Judicial Review 
Act of 1988 was to provide a legal framework by which the Department 
would carry out the laws Congress enacted. This process works most 
efficiently on the system as a whole if the court provides rules that 
govern all cases not just the particular one before it. If I am 
confirmed, one of my principal goals will be work to revise the court's 
rules to provide for the issuance of more precedential opinions.
    <bullet> As I have described, the court's current procedures link 
the precedential nature of a decision with whether the decision is made 
by a panel or a single judge. There is no reason that this is 
necessarily so. I hope the court will consider these matters 
independently. While reasonable minds can differ on this question, my 
tentative view is that there is a certain logic to the having 
precedential decisions be those of the court acting in panels. When the 
court is making a decision that will bind the Department's actions 
across the United States and with respect to the millions of claims 
filed each year, the considered deliberation of a panel of judges seems 
the best approach. Thus, when one combines my first point with this 
one, after independently assessing each variable, my current position 
is that the court should hear many more cases in panels in order to 
provide for an increased number of precedential decisions.

          - A comparative note may be helpful in terms of explaining 
        why the court's decisions on these matters are so difficult. In 
        the context of Social Security, a denied claimant also has the 
        right to judicial review. However, judicial review in the 
        Social Security context is quite different than in the context 
        of veterans' benefits. A Social Security claimant files his or 
        her appeal initially in a United States District Court. 
        Thereafter, the parties can appeal the District Court's 
        decision to the regional United States Circuit Court of 
        Appeals. The result of this approach is that one body--the 
        District Courts--act merely on one case at a time. They can be 
        error correctors. There is a separate body--the regional 
        Circuit Court of Appeals--that can act more broadly on appeals 
        that reach it in order to establish binding precedential rules 
        in its geographic region. In some senses, the structure of 
        judicial review in the veterans' benefits context combines the 
        functions of the District Courts and regional Circuit Courts of 
        Appeals in the Social Security arena. The Court of Appeals for 
        Veterans Claims essentially needs to find a balance between 
        being an error corrector (what it does now in the single judge 
        decisions) and the provider of binding, broader legal 
        precedent.\4\
---------------------------------------------------------------------------
    \4\ It is possible for a party to appeal a decision of the Court of 
Appeals for Veterans Claims to the United States Court of Appeals for 
the Federal Circuit. However, such an appeal is limited by statute to 
pure questions of law. Outside of an appeal presenting a constitutional 
question, the Federal Circuit's jurisdiction does not extend to appeals 
focused on factual matters or to the application of law to fact. See 38 
U.S.C. Sec. 7292(d)(2). The result of this jurisdictional limitation is 
that the Court of Appeals for Veterans Claims is the final 
decisionmaker in the great majority of situations. For example, in 
Fiscal Year 2016 there were 4,140 appeals filed at the Court of Appeals 
for Veterans Claims. In that same period, there were 104 appeals filed 
at the Federal Circuit from decisions rendered by the Court of Appeals 
for Veterans Claims. And even that relatively small number is deceptive 
because a large portion of these appeals to the Federal Circuit were 
dismissed for lack of jurisdiction under 38 U.S.C. Sec. 7292(d)(2).

    <bullet> Finally, there is the question of oral argument. As 
described above, the court currently generally holds oral argument only 
in panel (or en banc) matters and because the court hears so few cases 
in panels there are correspondingly few oral arguments. Regardless of 
how the other matters are addressed, I believe the court should hold 
more oral arguments. In my view, oral argument has two principal 
positive attributes. First, it is important as a means to reach better 
decisions. Briefs are incredibly important, but they are snapshots of 
the parties' positions. Oral argument allows a judge to explore and 
probe the matters at issue in real time in a way that merely relying on 
the briefs does not. Second, I believe oral argument has an important 
public purpose. The general public should have the opportunity to see 
how justice is being delivered. Oral argument provides that 
---------------------------------------------------------------------------
opportunity.

                                 ______
                                 
   Response to Prehearing Questions Submitted by Hon. Jon Tester to 
Michael P. Allen, Nominee for Judge, U.S. Court of Appeals for Veterans 
                                 Claims
    Ranking Member Tester, First thank you and your staff for the 
manner in which you have considered my pending nomination to serve as a 
Judge on the United States Court of Appeals for Veterans Claims. It is 
a singular honor for me to have received this nomination. If I am 
confirmed, I very much look forward to serving in this important role. 
I have provided below the answers to the questions you have asked. If 
you would like further information, please let me know.
            Respectfully,
                                           Michael P. Allen

    Question 1. In describing the many factors that affect the delays 
veterans experience in receiving the benefits for which they apply, you 
noted in a 2015 essay that ``it requires a great many people to review 
millions of claims for benefits submitted each year.'' However, you did 
not highlight a lack of resources as one of the fundamental causes of 
delay in the appeals process.
    a. From your perspective, do VBA and the Board have the resources 
they need to address the volume of claims and appeals handled during 
the administrative phase of the process? Why or why not?
    Response. There is no question that the provision of appropriate 
resources is a critical part of ensuring that any system for the review 
of veterans' claims can process claims expeditiously. The purpose of my 
2015 essay was to highlight reasons for administrative delay that went 
beyond the more traditional points concerning resources and general 
bureaucratic inefficiency. That explains in some sense why I did not 
address the resource question at the Board and the Veterans Benefits 
Administration. Another reason is that I did not--and do not--have the 
depth of knowledge to make a meaningful assessment of the level of 
resources provided to these components of the Department of Veterans 
Affairs. At the Board level, I am aware that Congress recently provided 
for an increase in the number of Veterans Law Judges on the Board. In 
addition, there was a corresponding increase in authorized staff 
attorneys to assist Board members in issuing decisions. While I do not 
know this for certain, I suspect that the Board is evaluating whether 
this increase in staffing is sufficient. I have very little information 
concerning resource issues at the VBA.
    My sense is that actions going beyond resource allocation, 
important as that issue is, are ultimately more significant in terms of 
addressing the delays in the administrative appeal process. For 
example, the Appeals Modernization Act recently voted on by this 
Committee are likely to have more significant implications for reducing 
delays in the long term than merely focusing on resources.

    b. What do you believe is a reasonable timeframe for the court to 
make a decision?
    Response. Let me begin by stating that I don't believe that there 
is single timeframe that one can say applies to all judicial decisions 
at the Court of Appeals for Veterans Claims. The time to disposition is 
affected by numerous factors ranging from the staffing of the court to 
the complexity of the issues presented by appeal to the actions of the 
advocates. That being said, it is possible to make generalities about 
the timeframe for judicial decisions.
    Some statistics for current resolution of appeals at the court may 
be instructive as a place to begin. In assessing the time for 
resolution, it is important to consider the baseline for measuring 
resolution. One method is to simply measure the time from the filing of 
an appeal up to the time the matter is resolved by a judge. However, 
that metric may not be the most useful one in terms of assessing the 
efficiency of judicial action. The reason is that an appeal \1\ is only 
assigned to a judge after it has been fully briefed. There are numerous 
steps that take place before assignment of an appeal to a judge. For 
example, most appeals proceed through a mediation process with court 
staff that resolves more than 50% of appeals filed with the court. 
Thus, the most useful measure for assessing the timeliness of decisions 
from a judge's perspective is by measuring the time to decision from 
assignment to a judge for resolution when all other activities 
(settlement, briefing, record disputes, etc.) have been concluded.
---------------------------------------------------------------------------
    \1\ I am focusing on appeals in this answer and have not addressed 
other matters such as petitions for extraordinary relief.
---------------------------------------------------------------------------
    In Fiscal Year 2016 (October 1, 2015-September 30, 2016) the median 
time for disposition by a single judge issuing a Memorandum Decision 
from assignment to chambers was 59 days, about two months. When the 
court acted as a panel (or when it was sitting en banc), the median 
time for disposition from assignment of a case to chambers was 155 
days, or slightly more than five months.
    I believe that the current time for resolution at the court I've 
described above for FY 2016, is generally appropriate in terms of 
median times for resolution. I should add that one needs to be careful 
in assessing this data not to focus too greatly on the longer time for 
multi-judge resolution when compared to single judge action. It is not 
surprising that a multi-judge decision will take longer. A single 
person acting alone can produce a product faster than three people 
deciding a case because the three people need to agree not just on an 
outcome but also a rationale. Moreover, concurring and dissenting 
opinions add time. But (and as I discuss below in response to Question 
#3) under current court rules single judge decisions are not 
precedential. Therefore, while a single judge decision is faster than 
the panel production process, only the panel decision will be 
precedential. If one believes the court should issue more precedential 
opinions (as I do), the effect will be that the appropriate median time 
for disposition will be longer.

    Question 2. You wrote in a 2009 essay that the Department of 
Veterans Affairs does not appropriately recognize and appreciate the 
independent adjudicative role of the Court of Appeals for Veterans 
Claims, even after 20 years of its existence. Can you please describe 
your view of the current relationship between the Department and the 
Court of Appeals for Veterans Claims? If similar tensions still exist, 
how would you propose to help relieve those tensions in your role on 
the court?
    Response. I believe that the relationship between the Department of 
Veterans Affairs and the Court of Appeals for Veterans Claims has 
improved significantly since I wrote my essay in 2009. That essay was 
written in connection with the court's 20th anniversary. That means 
that the Department had only been out of its ``splendid isolation'' 
(the term the Supreme Court has used to describe the period prior to 
the creation of the court) for a relatively short time. There were many 
growing pains as the Department and the court learned to work together. 
Quite frankly, it took the Department some time to fully appreciate 
that the court was not simply providing general guidance but rather 
issuing binding decisions that needed to be followed. For example, in 
certain situations the court had issued a decision that the Department 
disagreed with and that had broad implications for the resolution of 
benefits' claims. In those situations the Department appealed to the 
United States Court of Appeals for the Federal Circuit. That was 
entirely appropriate. However, in these situations the Department would 
also unilaterally suspend resolving benefits claims while the appeal 
was pending. That was not appropriate. As the Court of Appeals for 
Veterans Claims explained, the appropriate course would be for the 
Department to seek a stay from the court. See Ribaudo v. Nicholson, 21 
Vet. App. 16 (2007). It was actions such as this that led me to make 
the comments I did in 2009. But today, I have a very different sense of 
how the Department views the court and judicial review more generally. 
The relationship is becoming more and more like that between Federal 
courts and other government agencies.

    Question 3. In a 2009 essay, you weighed the merits and 
shortcomings of various proposed changes to the Court of Appeals for 
Veterans Claims, both within the existing structural system and by 
making substantial changes to the system itself. What changes since 
that time have improved the court's functioning for the best interests 
of veterans? What changes would you advocate for now, eight years 
later?
    Response. Many of the potential changes I canvassed in my 2009 
essay would require actions such as statutory changes that the court 
could not enact. However, the court has taken a number of steps that I 
believe have had a positive impact on the judicial appeals process. One 
of the most significant is the implementation and refinement of a 
formal mediation process for filed appeals. See Rule 33 of the Rules of 
Practice and Procedure of the United States Court of Appeals for 
Veterans Claims. This process is conducted by members of the court's 
Central Legal Staff. It has been incredibly successful at assisting the 
parties to reach negotiated resolutions of appeals without formal 
judicial intervention. In addition, the court has taken other positive 
steps:

    <bullet> The court has begun to more creatively use the services of 
its Senior Judges to process appeals and other matters. As the number 
of Senior Judges grows, the opportunities for even greater use of these 
judicial officers will be present.
    <bullet> The court has aggressively reached out to law schools 
across the United States to introduce law students (and faculty 
members) to veterans law. These actions are critically important for 
the future. Veterans and other claimants need the services of lawyers. 
By spreading the word, so to speak, the court is paving the way for the 
future.
    <bullet> Finally, the court has continued its efforts to work with 
practitioners and other constituencies to cooperatively develop 
strategies for addressing problems facing the court. For example, the 
court held its second Bench and Bar Conference recently that led to 
important recommendations for changes in proceedings.

    If I am confirmed I would advocate making certain additional 
changes in the way in which the court operates. The gravamen of the 
changes I would advocate focus on three issues that are related, but 
distinct: (1) the manner of decisionmaking (single judge versus panel 
decisions); (2) precedential versus non-precedential decisions; and (3) 
the use of oral argument. I will discuss these issues below. Before 
doing so, however, I suggest one more general change at the court that 
I would hope to implement. The court's opinions often appear to be 
formulaic and difficult to read. Judicial opinions will never be 
literature. That is perhaps even more so in a highly technical area 
such as the law of veterans' benefits. However, judges should strive to 
make their opinions as readable as possible. I hope to inject more 
``readability'' into opinions of the court.
    I now turn to the three more general points I mentioned above. 
Under the court's rules and internal operating procedures,\2\ (1) 
manner of decisionmaking, (2) the precedential nature of decisions, and 
(3) the use of oral argument are essentially linked. I will first 
explain how that is so and then turn to possible changes I would 
advocate should I be confirmed.
---------------------------------------------------------------------------
    \2\ The court's rules and internal operating procedures can be 
found at the court's website. www.uscourts.cavc.gov.
---------------------------------------------------------------------------
    Congress provided that the Court of Appeals for Veterans Claims 
could operate in panels or en banc (as the full court) as other 
appellate courts do. However, Congress also specifically provided that 
the court could operate by single judge action. See 38 U.S.C. 
Sec. 7254(b). Over its history, the court has been aggressive in it use 
of single judge adjudication to resolve appeals. For example, in Fiscal 
Year 2016, 1,561 appeals \3\ reached a judge for decision.\4\ Single 
judges decided 1,532 of these appeals. Stated differently, the court 
acted through single judges more than 98% of the time.
---------------------------------------------------------------------------
    \3\ I have limited this analysis to appeals. It does not include 
other matters such a petitions for extraordinary relief.
    \4\ A majority of appeals filed at the court do not reach a judge 
for decision. For example, in FY 2016 while judges resolved 1,561 
appeals, an additional 2,651 were resolved by the Clerk of Court. The 
overwhelming reason for these Clerk-driven resolutions was settlement 
by the parties after use of the court's mediation program.
---------------------------------------------------------------------------
    What is the effect of a single judge resolution of an appeal? To be 
sure, such action resolves the dispute between the claimant-appellant 
and the Secretary. However, through its rules and internal operating 
procedures, the court provides that the actions of single judges in 
Memoranda Decisions are not precedential. This means that such 
decisions only apply to the case the single judge adjudicates. They do 
not provide rules that are binding more generally on the Department of 
Veterans Affairs in connection with its administration of veterans' 
benefits. Thus, in FY 2016 while the court disposed of 1,561 appeals 
through judicial action, it issued only 29 precedential decisions, that 
is decisions by a panel of judges.
    Finally in terms of current procedure, the court generally uses 
oral argument only in matters decided by panels (or the court sitting 
en banc). Oral argument is not prohibited in single-judge matters, but 
the court's rules provide that ``[o]ral argument normally is not 
granted on nondispositive matters or matters being decided by a single 
judge.'' See Rule 34(b) of the Rules of Practice and Procedure of the 
United States Court of Appeals for Veterans Claims.
    In sum, the court's current procedures link the three concepts I am 
discussing. A single judge disposition is one that is non-precedential 
and for which oral argument will generally not be held. If I am 
confirmed, I hope to be able to (a) disaggregate these three concepts 
and (b) assess each one individually. I briefly note below some of my 
ideas about these issues:

    <bullet> In my view, the court needs to issue more precedential 
opinions. Whether such precedent is established in single judge 
decisions or only by panels as now provided at the court is distinct 
from the question of precedent standing alone. One of core components 
of the establishment of judicial review of actions of the Department of 
Veterans Affairs on benefits matters in the Veterans Judicial Review 
Act of 1988 was to provide a legal framework by which the Department 
would carry out the laws Congress enacted. This process works most 
efficiently on the system as a whole if the court provides rules that 
govern all cases not just the particular one before it. If I am 
confirmed, one of my principal goals will be work to revise the court's 
rules to provide for the issuance of more precedential opinions.
    <bullet> As I have described, the court's current procedures link 
the precedential nature of a decision with whether the decision is made 
by a panel or a single judge. There is no reason that this is 
necessarily so. I hope the court will consider these matters 
independently. While reasonable minds can differ on this question, my 
tentative view is that there is a certain logic to the having 
precedential decisions be those of the court acting in panels. When the 
court is making a decision that will bind the Department's actions 
across the United States and with respect to the millions of claims 
filed each year, the considered deliberation of a panel of judges seems 
the best approach. Thus, when one combines my first point with this 
one, after independently assessing each variable, my current position 
is that the court should hear many more cases in panels in order to 
provide for an increased number of precedential decisions.
          - A comparative note may be helpful in terms of explaining 
        why the court's decisions on these matters are so difficult. In 
        the context of Social Security, a denied claimant also has the 
        right to judicial review. However, judicial review in the 
        Social Security context is quite different than in the context 
        of veterans' benefits. A Social Security claimant files his or 
        her appeal initially in a United States District Court. 
        Thereafter, the parties can appeal the District Court's 
        decision to the regional United States Circuit Court of 
        Appeals. The result of this approach is that one body--the 
        District Courts--act merely on one case at a time. They can be 
        error correctors. There is a separate body--the regional 
        Circuit Court of Appeals--that can act more broadly on appeals 
        that reach it in order to establish binding precedential rules 
        in its geographic region. In some senses, the structure of 
        judicial review in the veterans' benefits context combines the 
        functions of the District Courts and regional Circuit Courts of 
        Appeals in the Social Security arena. The Court of Appeals for 
        Veterans Claims essentially needs to find a balance between 
        being an error corrector (what it does now in the single judge 
        decisions) and the provider of binding, broader legal 
        precedent.\5\

    \5\ It is possible for a party to appeal a decision of the Court of 
Appeals for Veterans Claims to the United States Court of Appeals for 
the Federal Circuit. However, such an appeal is limited by statute to 
pure questions of law. Outside of an appeal presenting a constitutional 
question, the Federal Circuit's jurisdiction does not extend to appeals 
focused on factual matters or to the application of law to fact. See 38 
U.S.C. Sec. 7292(d)(2). The result of this jurisdictional limitation is 
that the Court of Appeals for Veterans Claims is the final 
decisionmaker in the great majority of situations. For example, in 
Fiscal Year 2016 there were 4,140 appeals filed at the Court of Appeals 
for Veterans Claims. In that same period, there were 104 appeals filed 
at the Federal Circuit from decisions rendered by the Court of Appeals 
for Veterans Claims. And even that relatively small number is deceptive 
because a large portion of these appeals to the Federal Circuit were 
dismissed for lack of jurisdiction under 38 U.S.C. Sec. 7292(d)(2).
---------------------------------------------------------------------------
    <bullet> Finally, there is the question of oral argument. As 
described above, the court currently generally holds oral argument only 
in panel (or en banc) matters and because the court hears so few cases 
in panels there are correspondingly few oral arguments. Regardless of 
how the other matters are addressed, I believe the court should hold 
more oral arguments. In my view, oral argument has two principal 
positive attributes. First, it is important as a means to reach better 
decisions. Briefs are incredibly important, but they are snapshots of 
the parties' positions. Oral argument allows a judge to explore and 
probe the matters at issue in real time in a way that merely relying on 
the briefs does not. Second, I believe oral argument has an important 
public purpose. The general public should have the opportunity to see 
how justice is being delivered. Oral argument provides that 
opportunity.

    Question 4. How would you evaluate statute? How would you evaluate 
Congressional intent?
    Response. The starting point, and potentially the ending point, for 
statutory interpretation is the language of the statute at issue. As 
the Supreme Court of the United States has held, a court begins with 
the words in a statute and ``when the words of a statute are 
unambiguous, then this first canon [of statutory interpretation] is 
also the last: judicial inquiry is complete.'' Connecticut Nat'l Bank 
v. Germaine, 503 U.S. 249, 254 (1992). Thus, if the language used in a 
statute is not ambiguous, a judge's role is to apply that statute as 
written.
    If the language of a statute is ambiguous, that is the statute's 
words are susceptible of more than one plausible meaning, a judge must 
then utilize other tools of statutory interpretation to determine what 
the statute means. One such tool is legislative history used to attempt 
to determine the intent of the legislature that enacted the statute. 
Sources for such legislative history include committee reports, 
hearings before committees, and debates in the legislature.
    A related but distinct means of assessing legislative intent 
involves determining the general purpose behind a particular statutory 
provision. If the statutory language is ambiguous and there is no 
direct legislative history, a judge should determine the general goal 
of the legislature from the history that is available. At that point, 
the judge should interpret the statute in a way that is most consistent 
with that purpose.
    There are two other principles of statutory construction that have 
special importance in the context of the interpretation of veterans' 
benefits statutes contained in Title 38 of the United States Code. 
First, the Supreme Court has held that ambiguities in statutes 
providing benefits to veterans are to be construed in favor of the 
veteran. See Brown v. Gardner, 513 U.S. 115 (1994). This pro-veteran 
standard of construction does not mean that a veteran in a particular 
case will always win. Rather, Brown v. Gardner instructs judges to 
resolve statutory ambiguities in a way that over the course of all 
veterans' cases would be most favorable to the veteran. At its core, 
Brown v. Gardner operates on the presumption that Congress would intend 
to be the most favorable to a veteran when the language of a statute is 
not clear.
    The second principle is one that relates to administrative law more 
generally. Administrative agencies and other government departments 
have the ability to enact regulations that have the force of law. If a 
court determines that a statute is ambiguous and there are validly 
promulgated regulations that purport to interpret the statute, a court 
is required to defer to the agency's interpretation of the ambiguity so 
long as that interpretation is a ``permissible construction'' of the 
statute. See Chevron U.S.A., Inc. v. Natural Resources Defense Council, 
Inc., 467 U.S. 837 (1984). The Department of Veterans Affairs issues 
numerous regulations interpreting and implementing veterans' benefits 
statutes. These regulations are generally found in Title 38 of the Code 
of Federal Regulations. Accordingly, in many situations the Court of 
Appeals for Veterans Claims will defer to a regulation promulgated by 
the Department because it is a permissible reading of the statute at 
issue. This is so even if the court would reach a different result in 
resolving the ambiguity in the absence of the regulation.\6\
---------------------------------------------------------------------------
    \6\ Chevron deference is a controversial doctrine. The House of 
Representatives has passed the Separation of Powers Restoration Act 
that would, in part, direct courts not to apply doctrines of 
administrative deference. Adoption of this or a similar statute would 
have significant implications for the Court of Appeals for Veterans 
Claims.

    Question 5. Would you reverse a VA position that is consistent with 
long-standing VA practice but you believe is an incorrect 
interpretation of statute?
    Response. Yes. If relevant legal principles led me to the 
conclusion that a practice of the Department of Veterans Affairs was 
unlawful I would reverse such a practice regardless of the length of 
time it had been employed. An important caveat is that the Chevron 
doctrine of administrative deference I discussed in response to 
Question #4 above (as well as other doctrines of administrative 
deference) could affect the ability of a judge to engage in statutory 
interpretation as an independent matter.

    Question 6. Would the potential cost of overturning an established 
rule factor into your decision on how to adjudicate a case?
    Response. No, with a potential caveat I discuss in a moment. As a 
general matter, a judge should utilize the tools of statutory 
construction I've described above to determine what the law is. 
Questions related to the cost of complying with the law are questions 
of policy properly consigned to the legislative and executive branches 
of government. The caveat concerns the doctrines of administrative 
deference I have discussed. For example, if a statute were ambiguous 
and the Department had promulgated a regulation addressing the 
ambiguity, it is conceivable that the Department's reliance on the cost 
of various means of resolving the statutory ambiguity could play a role 
in the judiciary's determination of whether the Department's 
interpretation was ``permissible'' under the Chevron doctrine. Absent 
such a situation, however, cost would not play a role in judicial 
interpretation of the law.

    Question 7. Pro bono attorneys and non-attorney advocates play a 
significant role in providing representation to appellants who may 
otherwise have to represent themselves before the court. However, in 
2016, 28 percent of the appeals filed with the Court were pro se at the 
time of filing while 33 percent of petitions were pro se at the time of 
filing. What are your views of attorney or advocate representation 
versus pro se representation?
    Response. I believe that representation by attorneys and non-
attorney advocates is critical to providing the best outcome of 
petitions and, in particular, appeals before the Court of Appeals for 
Veterans Claims. Proceedings at the court are often complex both as a 
matter of substance and procedure. Lawyers and other advocates are 
better suited to recognize and navigate these complexities as well as 
to provide the best arguments for the court to rule in a case than are 
pro se appellants.
    The court has aggressively sought to provide avenues for claimants 
proceeding pro se to obtain representation in appeals. For example, 
while the percentage of claimants remaining unrepresented on petitions 
at the time of resolution is about the same as at the time of filing 
(32% versus 33%), the situation is dramatically different with respect 
to appeals. As you correctly noted, 28% of appeals began with 
appellants proceeding pro se in Fiscal Year 2016. By the time of 
resolution of those appeals, that number dropped to 12%. If I am 
confirmed, I intend to support and, if possible, further expand the 
court's efforts to reduce the pro se status of appellants (and 
petitioners).

    Chairman Isakson. Ms. Meredith.

STATEMENT OF AMANDA L. MEREDITH, NOMINATED TO BE A JUDGE OF THE 
      UNITED STATES COURT OF APPEALS FOR VETERANS AFFAIRS

    Ms. Meredith. Thank you, Mr. Chairman, and Ranking Member 
Tester. I also want to thank Ken Kramer, the former Chief Judge 
of the Veterans Court, for being here today.
    It is an honor to have been nominated by the President to 
serve as a judge on the U.S. Court of Appeals for Veterans 
Claims. I have spent my entire 20-year legal career working in 
the field of veterans' law, and it would be a great privilege 
to continue serving veterans in this meaningful new role.
    During my career, I have seen the impact on veterans and 
their families, when they face delays receiving decisions on 
their claims for benefits. So, it would be important to me 
personally to quickly begin helping the court provide justice 
to the veterans who are already waiting and to keep up with the 
incoming case load. I believe my experience, skills, and 
dedication to this area of law would allow me to do just that.
    After law school, I served on the staff of the Veterans 
Court for more than 7 years and, since then, I have spent more 
than 12 years working for this Committee. These experiences not 
only have increased my gratitude for veterans, their families, 
and their survivors, but have provided me with a strong 
foundation of knowledge and skills that I believe would 
translate well into serving on the court.
    If confirmed, I would continue to build on that foundation 
and work with the highest level of dedication and diligence to 
ensure that veterans will receive justice in a fair, timely 
manner with the respect they deserve.
    Thank you.
    [The prepared statement of Ms. Meredith follows:]
  Prepared Statement of Amanda L. Meredith, Nominee to be Judge, U.S. 
                  Court of Appeals for Veterans Claims
    Good afternoon, Chairman Isakson, Ranking Member Tester, and 
Members of the Committee. Thank you for the opportunity to testify 
before you today.
    It is an honor to have been nominated by the President to serve as 
a judge on the United States Court of Appeals for Veterans Claims. I 
have spent my entire 20-year legal career working in the field of 
veterans' law and it would be a great privilege to continue serving 
veterans in this meaningful new role.
    During my career, I have seen the impact on veterans and their 
families when they face delays receiving decisions on their claims for 
veterans' benefits. So, it would be important to me personally to 
quickly begin helping the court provide justice to the veterans who are 
already waiting for decisions and keep up with the challenging incoming 
caseload. I believe my experience, skills, and dedication to the area 
of veterans' law would allow me to do just that.
    After law school, I began my legal career by serving on the staff 
of the Court of Appeals for Veterans Claims for more than 7 years. As a 
law clerk, I learned the canons of veterans' law and gained valuable 
experience with researching, editing, and writing judicial decisions. 
Later, as the Executive Attorney to the Chief Judge, I supervised an 
entire chambers' staff; managed the chambers' caseload, including 
helping to ensure that cases were acted on in a timely manner; and 
assisted the chief judge with issues concerning administration of the 
court. I also supervised a task force of attorneys helping the judges 
provide answers to veterans and their families who had already waited 
too long for justice.
    Since then, I have spent more than 12 years working for the U.S. 
Senate Committee on Veterans' Affairs, where I currently serve as the 
General Counsel and Deputy Staff Director. This work has included 
conducting oversight and analyzing legislation regarding veterans' 
benefits, the claims and appeals process at the Department of Veterans 
Affairs, and the Court of Appeals for Veterans Claims. During this 
time, I have had an opportunity to work collaboratively with veterans' 
organizations and to assist Members of Congress in enacting a broad 
range of laws to help improve the benefits and services for our 
Nation's veterans.
    These collective experiences not only have increased my gratitude 
for veterans, their families, and their survivors but have provided me 
with a strong foundation of knowledge and skills that I believe would 
translate well into serving on the court. If confirmed, I would 
continue to build on that foundation and work with the highest level of 
dedication and diligence to ensure that veterans will receive justice 
in a fair, timely manner with the respect they deserve.

    Thank you again for the opportunity to appear before you today. I 
would be glad to answer any questions you may have.
                                ------                                

    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Committee non-confidential supplemental questionnaire 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Judicial Conference of the United States 
Committee on Financial Disclosure follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  Amanda L. Meredith, Nominee to be Judge, U.S. Court of Appeals for 
                            Veterans Claims
    Question 1. The United States Court of Appeals for Veterans Claims 
generally hears appeals from claimants seeking benefits from VA. How 
has your background equipped you to serve as an appellate judge?
    Response. I have spent my entire 20-year legal career working in 
the field of veterans' law, including more than 7 years serving on the 
staff of the United States Court of Appeals for Veterans Claims and 
more than 12 years on the staff of the Senate Committee on Veterans' 
Affairs. Through these experiences, I have learned the canons of 
veterans' law; gained valuable experience with researching, editing, 
and writing judicial decisions; supervised an entire chambers' staff at 
that court, including helping to ensure that veterans were receiving 
timely decisions; and assisted the court with addressing its backlog of 
cases. Also, I have conducted oversight of the disability claims and 
appeals process and have assisted Members of Congress in advancing 
legislation to improve the benefits and services for veterans and their 
families. Based on these experiences, I believe I would be well-
prepared to step into the role of a judge on the United States Court of 
Appeals for Veterans Claims.

    Question 2. Can you describe what you believe is the appropriate 
temperament and traits of a judge?
    Response. The American Bar Association and other organizations that 
have studied the desirable traits and temperament for judges have 
identified a list of appropriate qualities, including the individual's 
integrity, judgment, analytical skills, ability to be open-minded, 
competence, ability to be courteous and professional, and decisiveness. 
Based on my experience working with judges at the United States Court 
of Appeals for Veterans Claims and on the staff of the Senate Committee 
on Veterans' Affairs, I believe those all are important qualities for a 
judge.

    Question 3. What examples from your personal experiences can you 
provide to demonstrate that you have both the temperament and traits of 
a judge?
    Response. In my role on the staff of the Senate Committee on 
Veterans' Affairs, I have worked in a bipartisan manner with a broad 
range of colleagues and stakeholders to assist Members of Congress in 
enacting numerous laws affecting veterans and their families. This 
requires the ability to listen to and understand different points of 
view, to work professionally and diligently to find solutions, and to 
thoroughly review and analyze proposed legislative solutions.

                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Amanda 
 L. Meredith, Nominee to be Judge, U.S. Court of Appeals for Veterans 
                                 Claims
    Question 1. Your experience with Congressional intent might be 
different than that of your colleagues on the court. Please explain 
what your process would be for interpreting Congressional intent.
    Response. The first step in interpreting statutory language would 
be to look at the text of the law itself to determine if it is clear 
and unambiguous. If there is a need in a particular case to look to 
additional sources to determine Congressional intent, that could 
include a broad range of sources of legislative history, such as 
conference reports, joint explanatory statements, committee reports, 
floor statements, and hearing transcripts. The amount of weight 
afforded to each source could vary depending on the specific 
circumstances, such as whether the language being discussed in one of 
those sources was changed prior to enactment.

    Question 2. Would you reverse a VA position that is consistent with 
long-standing VA practice but you believe is an incorrect 
interpretation of statute?
    Response. Yes, if appropriate based on the facts and law in a 
particular case.

    Question 3. Would the potential cost of overturning an established 
rule factor into your decision on how to adjudicate a case?
    Response. No, I do not believe that would be a relevant 
consideration.

    Question 4. What do you believe is a reasonable timeframe for the 
court to make a decision?
    Response. According to the fiscal year 2016 annual report for the 
United States Court of Appeals for Veterans Claims, it took on average 
14 months for an appellant to receive a decision on an appeal from a 
single judge and nearly 22 months to receive a decision from a panel of 
judges. For veterans and their families who have already navigated the 
lengthy appeal process at the Department of Veterans Affairs before 
reaching the court, I believe the court must continue to examine 
options for decreasing these timelines. That should include examining 
both the procedural activities that occur before a case is assigned to 
a judge and the time a case awaits a judge's decision.

    Question 5. Given your role in helping to move legislation through 
the legislative process, do you believe there could be instances where 
you would recuse yourself from consideration of certain matters? What 
would be your guide in determining whether to abstain from 
participation in matters before the court?
    Response. According to the Code of Conduct for United States 
Judges, ``[a] judge shall disqualify himself or herself in a proceeding 
in which the judge's impartiality might reasonably be questioned.'' My 
understanding is that a determination of this type would be dependent 
on the specific circumstances of a particular case. In making such a 
determination, I would be very mindful that the role of a judge on the 
court is to provide justice to the litigants, which includes not only 
acting fairly and impartially but also avoiding the appearance of not 
being impartial.

    Question 6. Pro bono attorneys and non-attorney advocates play a 
significant role in providing representation to appellants who may 
otherwise have to represent themselves before the court. However, in 
2016, 28 percent of the appeals filed with the Court were pro se at the 
time of filing while 33 percent of petitions were pro se at the time of 
filing. What are your views of attorney or advocate representation 
versus pro se representation?
    Response. A particular case before the court may involve an 
assessment of statutes, regulations, policies of the Department of 
Veterans Affairs, judicial opinions, medical evidence, military 
records, and other sources of information. Given the potentially 
complicated nature of this work, I believe having the assistance of a 
representative, particularly someone familiar with the area of 
veterans' law, can be very valuable to an appellant and the court in 
preparing pleadings in connection with proceedings before the court.

    Chairman Isakson. Mr. Toth.

  STATEMENT OF JOSEPH L. TOTH, NOMINATED TO BE A JUDGE OF THE 
       UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS

    Mr. Toth. [Off microphone.]
    Chairman Isakson. Use your microphone please.
    Mr. Toth. Oh. It is an honor to have been nominated by the 
President to serve as a judge for the U.S. Court of Appeals for 
Veterans Claims.
    I would not be here today without the support of so many 
people, and I would be remiss not to mention them briefly. I 
think of my grandparents, each of whom set off as a teenager 
from a different country in search of a better life in the 
United States. They worked in sheet metal factories and 
restaurants, as housecleaners and secretaries so that their 
children might have a better life. I am here today because of 
them.
    My late father urged me into the better part of my 
formative years to become a lawyer. As always, I waited far too 
long to heed his wisdom. I took my oath of office as a naval 
officer a week after his passing and I know he was there with 
me in spirit. I am only now beginning to appreciate the 
sacrifices that he and my mom made in raising me and my 
siblings.
    Likewise, I extend a begrudging gratitude to my older 
sisters who taught me, at an early age, the value of zealous 
advocacy; to my brothers, two of whom served as Marine offices 
and they have been models of self-sacrifice and service to 
others. Most importantly, I thank my fiance for her love and 
constant good cheer. Again, I am here today because of them.
    Finally, I have had the good fortune to learn my craft from 
some of the finest judges and lawyers in the United States. In 
Daniel Manion and Robert Conrad I came to know two judges whose 
wisdom, humility, and respect for the law made a lasting 
impression on me. They are outstanding judges because they are 
outstanding human beings. Likewise, I will never forget the 
courage demonstrated by General Mark Martins, my boss in 
Afghanistan, who modeled the ideal of servant leadership in the 
most challenging of environments. Finally, Tom Campion, the 
first partner I worked for out of law school, showed me that 
one can get to the top of the legal profession while always 
treating people the right way. These are but a few of the many 
people to whom I am indebted.
    Like most veterans, my experience serving our country was 
among the most formative of my life. I learned the rules of 
evidence in military courtrooms; tried cases on aircraft 
carriers and in airplane hangars; drafted wills on submarines; 
and pretended not to be scared as I donned body armor and 
carried an M4 through mule paths in Afghanistan. None of it was 
easy, but every second was worth it.
    Most of all, I am grateful to the men and women whom I 
served with and who embodied hard work and integrity. Whatever 
service I gave to our country pales in comparison to countless 
veterans, and their families, who made infinitely greater 
sacrifices.
    After leaving active duty, I spent my career as a lawyer in 
Federal trial and appellate courts, working for principled 
judges and litigating alongside talented lawyers spanning the 
political spectrum. I have been exposed to many of the most 
complex issues of civil, criminal, and administrative law, and 
have wrestled with difficult questions of statutory 
interpretation. Most significantly, I approached every case 
with the same intensity whether it involved a major 
corporation, elite law firm, or an indigent prisoner writing a 
petition by hand. Every party deserves to have their case heard 
fairly and decided by the operative law.
    I am aware of the awesome responsibility that comes along 
with serving as a judge and will work zealously to interpret 
the law fairly and in the manner consistent with the will of 
the Congress. I thank this Committee for its consideration of 
my nomination.
    I would be pleased to answer any questions that the 
Chairman or Members of this Committee might have.
    [The prepared statement of Mr. Toth follows:]
         Prepared Statement of Joseph Toth, Nominee for Judge, 
               U.S. Court of Appeals for Veterans Claims
    Chairman Isakson, Ranking Member Tester, distinguished Members of 
this Committee: Thank you for the opportunity to appear before you 
today. I am honored to have been nominated by the President to serve as 
a judge on the United States Court of Appeals for Veterans Claims.
    I would not be here today without the support of so many people and 
I would be remiss not to mention them briefly. I think of my 
grandparents, each of whom set off as a teenager from a different 
country in search of a better life in the United States. They worked in 
sheet metal factories and restaurants, as house-cleaners and 
secretaries so that their children might have a better life. I am here 
today because of them.
    My late-father urged me through the better part of my formative 
years to become a lawyer. As always, I waited far too long to heed his 
wisdom--I took my oath of office as a naval officer a week after his 
passing and I know he was there with me in spirit. I am only now 
beginning to appreciate the sacrifices that he and my mom made raising 
me and my siblings. Likewise, I extend my gratitude to my older 
sisters, who taught me at any early age the value of zealously 
advocacy; and to my brothers, two of whom served as officers in the 
Marines, and who have been models of self-sacrifice and service to 
others. Most importantly, I thank my fiance for her love and constant 
good cheer. Again, I am here today because of them.
    Finally, I've had the good fortune to learn my craft from some of 
the finest judges and lawyers in the United States. In Daniel Manion 
and Robert Conrad, I came to know two judges whose wisdom, humility, 
and respect for the law made a lasting impression on me. They are 
outstanding judges because they are outstanding human beings. Likewise, 
I will never forget the courage demonstrated by General Mark Martins, 
my boss in Afghanistan, who modeled the ideal of servant leadership in 
the most challenging of environments. Finally, Tom Campion, the first 
partner I worked for out of law school, showed me that one can get to 
the top of the legal profession while always treating people the right 
way. These are but a few of the many people to whom I am indebted.
    Like most veterans, my experience serving our country was among the 
most formative of my life. I learned the rules of evidence in military 
courtrooms; tried cases on aircraft carries and in airplane hangars; 
drafted wills on submarines; and pretended not to be scared as I donned 
body armor and carried an M4 through mule paths in Afghanistan. None of 
it was easy but every second was worth it.
    Most of all, I am grateful to the men and women whom I served with 
and who embodied hard work and integrity. Whatever service I gave to 
our country pales in comparison to countless veterans--and their 
families--who made infinitely greater sacrifices.
    After leaving active duty, I spent my career as a lawyer in Federal 
trial and appellate courts, working for principled judges and 
litigating alongside talented lawyers spanning the political spectrum. 
I have been exposed to many of the most complex issues of civil, 
criminal, and administrative law, and have wrestled with difficult 
questions of statutory interpretation. Most significantly, I approached 
every case with the same intensity whether it involved a major 
corporation, elite law firm, or an indigent prisoner writing a petition 
by hand. Every party deserves to have their case heard fairly and 
decided by the operative law.
    I am aware of the awesome responsibility that comes along with 
serving as a judge and will work zealously to interpret the law fairly 
and in the manner consistent with the will of the Congress. I thank the 
Committee for its consideration of my nomination.
    I would be pleased to answer any questions that the Chairman or 
Members of this Committee might have.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Committee non-confidential supplemental questionnaire 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [A letter from the Judicial Conference of the United States 
Committee on Financial Disclosure follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
 Joseph L. Toth, Nominee for Judge, U.S. Court of Appeals for Veterans 
                                 Claims
    Question 1. The United States Court of Appeals for Veterans Claims 
generally hears appeals from claimants seeking benefits from VA. How 
has your background equipped you to serve as an appellate judge?
    Response. Two aspects of my experience as a lawyer have prepared me 
to serve as a judge. First, I had the good fortune to clerk for two 
outstanding Federal judges (Robert J. Conrad of the Western District of 
North Carolina and Daniel A. Manion of the US Court of Appeals for the 
Seventh Circuit) whose work ethic, humility, and respect for the law 
made a profound impact on me. My work in Federal courts at the trial 
and appellate level exposed me to the spectrum of Federal 
constitutional, civil, criminal, and administrative law. This 
experience has been invaluable.
    Second, as a Navy Judge Advocate, I was able to work with veterans 
and servicemembers from each of the branches of our armed services. As 
a result, I have a good understanding of veterans' issues generally--
and specifically issues related to petitions for benefits.

    Question 2. Can you describe what you believe is the appropriate 
temperament and traits of a judge?
    Response. As noted in the last question, I had the good fortune to 
clerk for two Federal judges who exemplified the best traits of a 
judge. Having reflected on this over the years, two things strike me. 
First, a judge must be absolutely impartial and follow the law whether 
the judge agrees with it or not. The oath of office requires this and 
the parties to the case deserve that their case be determined by the 
operative law and not the personal preference of a judge.
    Second, a judge must have a consistent work ethic to ensure that 
each case receives full and prompt consideration. A judge must read the 
briefs and record of every case and address each issue presented. This 
is the standard to which Federal courts are held.

    Question 3. What examples from your personal experiences can you 
provide demonstrate that you have both the temperament and traits of a 
judge?
    Response. At the risk of redundancy, I had the good fortune to work 
closely with two judges who modeled the ideal traits of a judge: 
impartiality, humility, hard work, and respect for the law. No matter 
the area of law, cases present difficult questions and decisions. A 
judge must be absolutely fair to both parties, give full and fair 
treatment to every issue raised, and issue a decision that accords with 
the law. My years clerking and litigating in Federal courts have 
impressed upon me these qualities.

    Question 4. According to the questionnaire you submitted to the 
Committee, you provided legal advice to veterans during your assignment 
to the Naval Legal Service Office in Pearl Harbor, Hawaii.
    A. During that time, did you ever provide legal advice regarding 
claims for benefits at the Department of Veterans Affairs?
    Response. Yes. On numerous occasions, I advised (but did not 
formally represent) veterans on their claim as they were preparing it 
for the regional VA offices. Often, I advised veterans following an 
adverse ruling from a VA office. For the most part, this advice 
involved interpreting the administrative language (i.e. legalese) so 
that the servicemember understood the substantive factors that the VA 
would use to evaluate the claim and the procedures involved. In short, 
I tried to simplify the process for veterans so that they understood 
the legal showing that they had to make as well as the various 
procedures and timeframes going forward. My object was less to achieve 
a specific result than to enable the veteran to understand the process 
and the governing law. This allowed the veterans to understand and take 
a more active role in their own case.

    B. Would you please describe any training you have completed in the 
area of veterans' law?
    Response. At Naval Justice School, I received training to provide 
legal assistance to servicemembers, their spouses, and veterans. This 
training involved issues related to veterans benefits. For the most 
part, however, I learned this area of law on the job: assisting 
veterans, reading the applicable laws, and learning the overall 
statutory and regulatory framework. Reading opinions from the US Court 
of Appeals for Veterans Claims (as well as the Federal Circuit and 
Supreme Court) formed a significant part of this.
                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Joseph 
 L. Toth, Nominee for Judge, U.S. Court of Appeals for Veterans Claims
    Question 1. During your time as an Associate Federal Defender and 
your two periods as a law clerk, did you have the opportunity to 
observe judges with both good and bad judicial temperament? In 
particular, what qualities would you take with you to the bench?
    Response. The essential qualities of a judge are impartiality, 
humility, respect for the law, and a consistent work ethic. I've had 
the good fortune to clerk for two judges who exemplified these traits. 
Likewise, my experience with Federal judges, both as a litigator and 
law clerk, has been overwhelmingly positive. I've appeared before (or 
come to know) a wide range of judges and am consistently impressed with 
their professionalism and respect for the law.
    As a judge I would treat all parties with respect, evaluate each 
case (and issue presented) fairly, and resolve it according to the law. 
Second, I would ensure that cases are resolved swiftly and that each 
issue is addressed in full. Stated more simply, I would work hard.

    Question 2. How would you evaluate statute? How would you evaluate 
Congressional intent?
    Response. Statutory interpretation always begins with the actual 
language of the statue, as the Supreme Court has directed (Caminetti v. 
United States, 240 U.S. 470 (1917)). Congressional intent, therefore, 
is first evaluated as inherent in the language of the statute it 
drafted. Where it is clear, then the language must be applied to the 
facts of the case.
    Things get tricky where the language is less than clear as it 
relates to a particular issue in a case. In such cases, there are 
various canons of construction available depending on the 
circumstances. Further, judge must consult with superior courts to 
evaluate how the actual or similar language has been interpreted in 
cases. In certain instances, legislative history may be helpful where 
such history evinces a clear intent on the part of Congress and coheres 
with the language of the provision and guiding precedent.
    Finally, it should be noted that closer cases involving novel 
substantive or procedural issues may benefit from being heard by a 
panel rather than adjudicated by a single judge. Consideration by 
additional judges mitigates the risk of an erroneous reading of a 
statute.

    Question 3. Would you reverse a VA position that is consistent with 
long-standing VA practice but you believe is an incorrect 
interpretation of statute?
    Response. Yes. Where, a judge believes, after sufficient 
consideration and research, that the position of a party does not 
cohere with the governing law, the judge must apply the law 
accordingly--longstanding practice or otherwise. That said, this 
situation would appear to be somewhat rare insofar as it need involve a 
long-standing practice that had never been addressed by the Supreme 
Court, Federal Circuit, or in a precedential fashion by the US Court of 
Appeals for Veterans Claims in such a way as covered the facts of the 
case at hand.
    As noted earlier, cases of first impression that call into question 
long-standing practices may benefit from resolution through a panel of 
judges rather than through a single judge.

    Question 4. Would the potential cost of overturning an established 
rule factor into your decision on how to adjudicate a case?
    Response. I'm not aware of any provision in law that dictates a 
certain result based on the amount of money that may hinge on a ruling. 
Unless such provision exists, it should not be a consideration of the 
judge.

    Question 5. What do you believe is a reasonable timeframe for the 
court to make a decision?
    Response. When I clerked on the United States Court of Appeals for 
the Seventh Circuit, the policy was for judges to issue an opinion 
within four (4) months of oral arguments and six (6) months if 
extenuating circumstances presented. The Seventh Circuit is a famously 
efficient court, but my experience was that this allowed sufficient 
time for the judges to read and consider all relevant sources while 
allowing for a swift adjudication of the case.
    Insofar as is possible, I would hold to the practice of resolving 
cases in the shortest period of time that allowed for full 
consideration of all issues. The parties deserve as much.

    Question 6. Pro bono attorneys and non-attorney advocates play a 
significant role in providing representation to appellants who may 
otherwise have to represent themselves before the court. However, in 
2016, 28 percent of the appeals filed with the Court were pro se at the 
time of filing while 33 percent of petitions were pro se at the time of 
filing. What are your views of attorney or advocate representation 
versus pro se representation?
    Response. It is clearly preferable to have each party represented 
by counsel capable of addressing the relevant facts and applicable law 
in the clearest fashion. The Supreme Court has offered clear guidelines 
for courts dealing with pro se cases. A court has a duty to make sure 
that every petitioner--pro se or otherwise--gets a fair hearing. For 
pro se petitioners, this may involve a more lenient reading of formal, 
procedural rules but does not affect a judge's reading of the 
substantive law. In my experience, courts do a good job of taking 
seriously pro se petitions, giving appropriate leeway for formal 
shortcomings while addressing the substantive merits of the petition in 
a manner consistent with the law.

    Question 7. How has your membership in The Federalist Society 
informed your view of the role of government? The role of the courts?
    Response. I've enjoyed attending Federalist Society events over the 
years and have benefited from the exposure to disparate ideas covering 
various areas of the law. For me, the biggest benefit of groups like 
the Federalist Society is to provide lawyers exposure to areas of law 
beyond those that one might specialize in. The most memorable 
presentations I attended involved areas of law in which I had little 
familiarity such as antitrust or intellectual property. That said, I'm 
not sure that it has had an enormous impact on my view of the 
government and the role of courts as I arrived at most of my views as a 
result of years of experience and study.
    More than anything, my experience as a rule of law attorney in 
Afghanistan informed my views about the role of the government and 
courts. That experience impressed upon me the reality that our 
government is one of laws to which all--even the government itself--are 
subject. Like most Americans, I took for granted what it means to live 
in a society governed by law and where various powers (i.e. writing, 
executing, and interpreting laws) are divided among different branches 
of government. The role of the courts is to interpret the law 
faithfully and to provide a clear and public account of the reasoning.

    Chairman Isakson. Well, thank you very much. I will start 
out and I will probably show my ignorance in the first 
question, but I would like to ask each of you to answer it. 
Tell me what you see in your role as a judge of the Court of 
Veterans Appeals that you could do to be a catalyst to expedite 
the appeals process in its entirety throughout the Veterans 
Administration. Anything you, as a judge, can do to--we have a 
huge problem with a stodgy, slow system right now--what you 
could do in your influence to make that faster.
    Mr. Allen. Well, Senator, first of all, I think the most 
important thing is to have that in mind as a conscious, up-
front goal as part of your judicial responsibility. The court 
really has two different things that it is trying to do. The 
one hand is to resolve an individual case of an individual 
veteran in their appeal, and the other is to do exactly what 
Mr. Chairman's question suggests, which is make rules that 
broadly can affect the system as a whole. And I think the court 
can do a lot better at starting to think about those cases and 
means of handling appeals that will provide broader guidance to 
the Department.
    For example, I think the court should issue more 
precedential decisions, and I think the court can use devices 
such as aggregate issue resolution, which was just recently 
approved by the Federal Circuit for use at the Court of Appeals 
for Veterans Claims, to essentially have your cake and eat it 
too, to resolve the individual veteran's appeal, but at the 
same time consciously think about whether that case can make 
rules that would speed the process at the agency, at least in 
the confines of the law as provided by Congress.
    Chairman Isakson. Well, I was so impressed with your 
responses when we were at the Old Executive Office Building 
when we met the first time, and you are a professor, I think, 
at Stetson. Is that correct?
    Mr. Allen. I am.
    Chairman Isakson. I think that background gives you a 
tremendous opportunity to take your instructional talents that 
you have used in your lifetime to this point to help the VA be 
instructive in being more responsive to the appeals process for 
the veterans.
    Mr. Allen. Thank you.
    Chairman Isakson. I think you will be an excellent 
appointee.
    Amanda, do you have anything to add to that?
    Ms. Meredith. I think this goes back to the conversation we 
have been having about the use of single-judge decisions at the 
court versus having precedential decisions, and what Mike is 
suggesting is that the court has maybe overused their authority 
to issue single-judge decisions that are not precedential. 
There has been a lot of commentary out there, law review 
articles, other scholarly studies suggesting that in cases 
where it may be beneficial for the court to resolve a factual 
or legal question that they are instead using single-judge 
authority, probably because it is more expeditious to get the 
case out.
    We had long discussions with Senator Tester yesterday about 
whether there is a need to re-examine the circumstances under 
which the court will voluntarily send a case to panel to make 
precedential decisions. I agree with Mike, too, that the Monk 
case has provided the court with an opportunity, making 
explicit that the court does have authority for class action or 
aggregate action authority, and there may be an opportunity to 
help aggregate some of these claims and have them decided more 
quickly.
    Chairman Isakson. Mr. Toth?
    Mr. Toth. Yeah. Just a few quick things, Mr. Chairman. I 
agree with Mike and Amanda that the use of panel opinions, 
going from five to eight judges, will allow the court to do 
that more frequently, and that will provide more precedent, 
which I think will make things quicker down below.
    Also, I think there are ways that you can structure 
chambers and be more efficient in terms of how quickly cases 
can come out. Finally, just good old-fashioned hard work, I 
mean, really taking the oath seriously as a claims court for 
the case of the veterans. I mean, justice delayed, in a sense, 
is justice denied. So, just to every day sort of put the 
shoulder to the plow and get on with it.
    Chairman Isakson. Well, as one who has been in a courtroom 
on a few occasions--as few as possible, I might add--I am not a 
lawyer, so if I was there it was because I had done something 
wrong or somebody thought I had done something wrong. But, I 
think everybody has always thought that judges--always wanted 
to know what judges did under those robes, because they all 
come in with robes and you never know whether they are goofing 
off or whether they are actually doing something important, 
whether they have got a book under there and they are going to 
read while you are speaking, making your case.
    I think your answer is right in that you can be a real 
catalyst, seeing to it that the court is responsive, and is 
responsive on a quick basis, because that is what the veterans 
are looking for and that is what we certainly are looking for 
as well. I think you all will do a great job, all three of you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and I want to 
thank all three of you for your willingness to serve in this 
very, very important job. I very much appreciate your 
commitment to our vets.
    I am going to start with Ms. Meredith and Mr. Allen, and I 
will have another question for Mr. Toth, when I get done with 
those two.
    We spoke yesterday about your long history with the court 
and veterans' law. How would your experience influence your 
decisions as a judge on the court?
    Mr. Allen. Well, I will give you my answer now, Senator, 
but in the old saying, you know, where you stand depends a lot 
upon where you sit, which right now I am not yet a judge.
    Senator Tester. Yeah.
    Mr. Allen. But, what I would I would like to think is two 
things. One, I have spent, you know, the last 12 years being 
the sort of pointy-headed academic. You get to think about how 
things should be when you do not have to do what Joe says, 
which is sort of put your shoulder to the wheel. I would like 
to think that my experience can be translated from things that 
I have said ``this is what you should try''----
    Senator Tester. Yeah.
    Mr. Allen [continuing]. To bringing that to the court to 
try.
    Senator Tester. Yeah.
    Mr. Allen. Because, you know, one of the greatest catalysts 
of success in the world is failure, because you try something 
and if it does not work you try something else. So, I would 
like to think that having thought deeply about this for 12 
years I might have maybe skipped over some of those failures to 
try to get to the success a little sooner.
    Senator Tester. Right. Ms. Meredith?
    Ms. Meredith. Thank you, Senator Tester. I would say part 
of my background, as you know, is I spent 7 years working at 
the Court of Appeals for Veterans Claims, so I have some 
experience with doing the research, writing, and editing 
judicial decisions already. I had an opportunity when I was 
there to manage a chamber's caseload and supervise the law 
clerks and interns.
    So, I hope it would be a background that would allow me to 
quickly become productive and effective at the court. I think 
in terms of how I would approach decisionmaking, I do not think 
my experience changes that. It would still just be based on the 
facts and the law in the particular case. I hope it would let 
me, from the outset, be a productive member of the court.
    Senator Tester. Yeah, for both of you--and I will get to 
you in a minute, Joseph--what would you say to those that would 
say that it is more difficult for you to be impartial?
    Ms. Meredith. I can take that one. I have spent 7 years at 
the court, more than 7 years, making recommendations to a 
variety of different judges based on the facts and the law in a 
particular case, so I think I have had a very long track record 
of doing just that, of being impartial, and my work here will 
not impact that.
    Senator Tester. All right.
    Mr. Allen. I think that, if anything in my time in 
veterans' law, the one sort of bad rep I have gotten is that I 
am too close to the court. So, often times I have discussions 
with people who represent veterans who claim that I think like 
the VA, and then people who represent the VA that claim that I 
think too much like the veterans' lawyers. So, I sort of figure 
I have done that about right, if I am getting criticism from 
everybody. And I think, in a way, the transition to being a 
judge as opposed to an advocate is going to be easy because I 
have not really been an advocate, other than for different 
positions, if you will.
    Senator Tester. Gotcha. All right. Mr. Toth, a different 
question for you. You bring with you experience with the 
Federal public defender's office, your clerkships with the 
appeals court and district court judges, your time as a Judge 
Advocate General in helping to establish the rule of law in 
Afghanistan. Talk to me about the perspective that you would 
bring to the court.
    Mr. Toth. Senator, you are right. My career has been spent, 
in a sense, half as a military lawyer dealing with 
servicemembers and veterans and the other half working and 
litigating in Federal courts. The combination, for me, sort of 
provides an insight into how I would approach it at the court, 
which is, first and foremost, the oath of office requires that 
the Constitution--that I faithfully uphold the Constitution, 
and in order to do that is to hear every case fairly, and that 
is a due process right of every person, and to apply the law. I 
mean, I have worked for outstanding judges, litigating in 
courts, and have seen--you know, have always followed the law 
to where it leads.
    I think my experience as a veteran, and working with the 
servicemembers and veterans, I think provides insight into the 
life and to the types of people who are applying to the court. 
If anything, it sort of goes back to the previous question, 
which is the overall animating principle is to work hard to 
adjudicate these cases on behalf of these people. It does not 
mean rule for them or against them or anything. It is to hear 
every case fairly and to, day in and day out, work hard to do 
that.
    Senator Tester. You have a little bit different background, 
very exemplary but a little different. Do you anticipate 
needing to get up to speed on veterans' law?
    Mr. Toth. A bit.
    Senator Tester. How would you do that?
    Mr. Toth. The same way I have done it every single time. 
You know, when I was in the military, you know, I showed up and 
they basically handed me the Rules of Evidence and tossed me in 
a courtroom. When I left the military and showed up in a 
Federal Court, they handed me the Federal Rules of Civil 
Procedure and briefs from elite law firms, and I put the 
shoulder to the plow and got on with it. So, there will be a 
learning curve that is daunting but I plan to do what I always 
did, Senator.
    Senator Tester. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Senator Blumenthal.

                   HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thanks for 
your kind words earlier today about working together on the 
Denver facility and on the bipartisanship that characterizes 
everything we do on this Committee.
    I would like to ask a question about the expansion from 
seven to nine judges on the U.S. Court of Appeals for Veterans 
Claims. That was done as a result of the so-called Miller-
Blumenthal Veterans Health and Benefits Act. It is a temporary 
increase in the number of judges. Would you favor permanent 
expansion of the court?
    Mr. Toth. I will take this one first, out of fairness. I 
would. Yes. It allows the court to hear more cases, to hear 
more quickly, and issue more panel decisions, which really sets 
better precedent, clear precedent for the regional offices.
    Ms. Meredith. Senator, I think expanding from seven to nine 
is very well-timed because I think there is probably going to 
be a huge influx of cases coming to the court as VA tries to 
work down its backlog of 470,000 appeals, and the Board tries 
to increase productivity maybe by 30,000 or 40,000 cases a 
year.
    I think if you look back at the caseload of the court over 
the years it has varied greatly, from a few thousand cases a 
year to now more than 4,000. I think the size of the court is 
something that the court and this Committee should follow 
closely, especially if they see a sustained increase, as to 
whether or not nine is the appropriate number. Maybe more or 
less. If you look back at the history of the court at one point 
it actually asked to downsize. So, I think it is something that 
we have to constantly look at, as to what is the appropriate 
size of the court to deal with its caseload but also be 
responsible to the taxpayers.
    Senator Blumenthal. Is that a yes or a no?
    Ms. Meredith. I think it depends on what the future of the 
caseload holds for the court.
    Senator Blumenthal. Well, you predicted it is going to 
expand. If it does, yes or no?
    Ms. Meredith. If the caseload continues to go up, 
absolutely they should stay at nine judges.
    Mr. Allen. I definitely think it should be at nine judges. 
I think that the first reason that Joe gives is correct. I 
think that gives more flexibility to make more law by doing 
panels. Yet, I think the biggest reason is, you know, this 
Committee and this Congress has provided tremendous resources 
to the Board to increase its size, not just with VLJs, the 
administrative law judges who decide the cases, but the staff 
behind them.
    The appeal rate to the court has remained relatively the 
same, 10, 12 percent, but if the Board does what it says it is 
going to do, which is instead of issuing about 55,000 to 60,000 
decisions a year, issue 115,000 to 120,000 a year, that is 
going to dramatically increase the workload at the court.
    If I were giving advice to the Committee, which I do not 
suggest that I would do, I would make this a permanent fix so 
that every 4 years we do not have that same issue about do we 
have to have a contingency plan to go to seven versus nine. So, 
that is a definite yes.
    Senator Blumenthal. I am not going to ask you the next 
question, which is do you think it should be increased even 
more. Everything that you have said, all of you, indicate that 
likely is a yes answer. I am not going to put you on the spot 
because you are not yet there. But, I would like you to commit 
to come back and give us your views, once you are there.
    By the way, I am going to support you. I appreciate your 
service. I should have said that at the beginning. Thank you 
for your willingness to serve in this very, very important job. 
But, I think it is also your responsibility to give us your 
best opinion, because as much as we would like to think we are 
well informed, and we are probably better informed than a lot 
of our colleagues on these issues, we have nothing like the 
experience, the real-world experience that you will have in 
these jobs.
    If you have met--and I hope you have--veterans who have 
waited for years for their claims to be resolved, and you hear 
and feel their justifiable anger, I would like you to feel that 
anger yourselves. Each of you have real-world life experience 
with this process, and I know where your sympathies are. So, I 
would like your commitment that you are going to give us your 
best view, and say whether you think we need to increase that 
number of judges.
    Mr. Allen. Absolutely.
    Ms. Meredith. Definitely.
    Mr. Toth. Absolutely.
    Senator Blumenthal. Thank you. Thanks, Mr. Chairman.
    Chairman Isakson. Any further questions?
    Senator Tester. No.
    Chairman Isakson. Richard, do you have any further 
questions?
    Senator Blumenthal. No.
    Chairman Isakson. Let me just make a statement, not really 
a question. Probably one of the greatest innovations over the 
last 10 years, in terms of services for our veterans, because 
of the nature of service today and the type of warfare that 
they are more often engaged in, have been the development of 
veterans courts. We have six in Georgia now, where we have 
courts in six of our largest counties that provide services, 
legal services or legal courtrooms for veterans who have 
brushes with the law or difficulties making the transition from 
active service to regular civilian life.
    As judges on the Court of Appeals, anything you can do to 
promote that type of thing around the country would be of 
tremendous help to our veterans and would help a lot of people 
who otherwise are going to fall through the cracks. Keep them 
from doing so. I just wanted to put that bug in your ear.
    We thank you for accepting the nomination and to be 
considered. Tomorrow, if Jon and I can get a quorum on the 
floor, sometime around 11, we are going to have the vote, the 
markup tomorrow, which I am sure will be successful. We wish 
you the very best and we stand here to help you any time you 
need us, any place, any time, anywhere.
    If there is no further comment, this meeting stands 
adjourned.
    [Whereupon, at 2:52 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


                Prepared Statement of Hon. Thom Tillis, 
                    U.S. Senator from North Carolina
    Good afternoon. I'm here today to introduce two public servants 
with true North Carolina ties to the Committee: Mr. James Byrne, the 
nominee to be General Counsel of the VA and Mr. Brooks Tucker to be 
Assistant Secretary for Congressional and Legislative Affairs. Both of 
these men are eminently qualified and have a proven track record of 
service to this Nation, in both a uniformed and civilian capacity.
                            mr. james byrne
    Mr. Byrne most recently served as Associate General Counsel and 
Chief Privacy Officer at Lockheed Martin Corporation. Prior to joining 
Lockheed Martin, Mr. Byrne served as the career Senior Executive 
Service Deputy Special Counsel with the Office of the United States 
Special Counsel, and both General Counsel and Assistant Inspector 
General for Investigations with the Office of the Special Inspector 
General for Iraq Reconstruction.
    Mr. Byrne has over 20 years of experience in the public sector, 
including serving as a deployed Marine Infantry Officer overseas and at 
Camp Lejeune and a U.S. Department of Justice (DOJ) international 
narcotics prosecutor. He volunteered for the past ten years on the 
Executive Board of Give an Hour, a non-profit organization that has 
developed national networks of volunteer professionals capable of 
providing complimentary and confidential mental health services in 
response to both acute and chronic conditions that arise within our 
society, beginning with the mental health needs of post-9/11 veterans, 
servicemembers, and their families.
    Mr. Byrne is a Distinguished Graduate of the U.S. Naval Academy, 
where he received an engineering degree and ultimately held the top 
leadership position of Brigade Commander. After earning his law degree 
in 1995 from Stetson University, he served simultaneously as an Adjunct 
Professor at East Carolina University and as a Law Clerk to the 
Honorable Malcolm J. Howard of the U.S. District Court, Eastern 
District of North Carolina.
    Mr. Byrne brings a wealth of relevant knowledge and experience to 
the table and I look forward to supporting his confirmation.
                           mr. brooks tucker
    Mr. Tucker currently serves as a Senior Adviser to the Secretary of 
Veterans Affairs after previously serving as a policy adviser on the 
Presidential Transition Team.
    Prior to his work with the current administration, Mr. Tucker 
served as a Senior Policy Adviser for National Security and Veterans' 
Affairs for Senator Richard Burr. My staff and I worked very closely 
with Brooks in this capacity and he proved to be a great advocate for 
veterans in North Carolina and throughout the country. Before turning 
to government service, Mr. Tucker was an investment adviser with 
Deutsche Bank and Merrill Lynch.
    He is a retired Lieutenant Colonel and infantry officer in the 
United States Marine Corps and was stationed at Camp Lejeune while on 
active duty from 1988-1992, including deployments to Western Pacific 
and Southwest Asia.
    Brooks Tucker is a dedicated public servant who has given me his 
commitment to bring a new focus to VA OCLA to engage with member 
offices on a proactive basis, serve as an educational resource, and 
work closely with this Committee and members to bring about meaningful 
and lasting reforms to VA that will better serve our veterans for 
generations to come. I look forward to supporting his confirmation.
                                 ______
                                 
               Prepared Statement of Hon. Richard Burr, 
                    U.S. Senator from North Carolina
    Chairman Isakson, Ranking Member Tester, and Members of the 
Committee, Thank you for the opportunity to present my views on pending 
nominations under consideration by the Committee.
    Today you will be considering a slate of nominees to serve on 
behalf of veterans. I support that entire slate of nominees and I 
wanted to specifically comment on four of the nominees who I have had 
the pleasure of working with across the years as either my staffers or 
as persons involved in service to veterans in my state.
    Thomas Bowman has been nominated to be the Deputy Secretary of 
Veterans Affairs. When I was Ranking Member of the Veterans' Affairs 
Committee, Tom ably served on my staff and I found him to be a highly 
competent and able manager of policy and staff. His background as a 
veteran was a tremendous asset. I know he will continue to serve our 
country and veterans well in this new position.
    Brooks Tucker has been nominated to be Assistant Secretary of 
Veterans Affairs. Brooks served in my personal office and on my 
Veterans' Affairs Committee staff. Brooks was on the frontline of many 
challenging constituent cases and difficulties with the Federal 
Government impacting my home state. His background as a retired Marine 
and as a Congressional staffer will give him keen insights into the 
needs of both Members of Congress and their constituents in order to 
navigate the labyrinth of the Federal Government and care for our 
veterans.
    Amanda Meredith has been nominated to serve as a Judge of the 
United States Court of Appeals for Veterans Claims. Amanda worked for 
me when I was the Ranking Member of the Veterans' Affairs Committee. 
Her knowledge of veterans issues was encyclopedic and I confess I still 
have not released her from service. My office continues to call on her 
for her expert analysis of a broad range of veterans issues. She will 
be an outstanding judge. She knows the law, she knows the agency, and 
she knows the importance of making sure veterans receive the benefits 
they qualify for under the law.
    Finally, James Byrne has been nominated to be General Counsel for 
the Department of Veterans Affairs. James is listed as a Virginian in 
his paperwork--but I'm pleased to claim him as a home-grown North 
Carolinian. He comes highly recommended from those who know him well 
and he has worked on charitable endeavors important to North Carolina. 
In addition to his military and legal background, he volunteered for 
the past ten years on the Executive Board of Give an Hour, a non-profit 
organization providing complimentary and confidential mental health 
services to veterans, servicemembers and their families.
    I look forward to the confirmation of these fine nominees. Our 
veterans need them in place and the sooner we have them in place the 
better we can fulfill our promises to our Nation's veterans.

    I thank the Committee for taking up these nominations and for their 
commitment to filling important positions. Finally, I thank our 
nominees for their willingness to serve. Veterans have honored us with 
their service and we honor them with the nomination of these dedicated 
public servants.
                                 ______
                                 
      Letter from Law Professors, Instructors, and Clinicians for 
                            Michael P. Allen

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
                     HEARING ON PENDING NOMINATIONS

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Cassidy, Rounds, Sullivan, 
Tester, Brown, and Hirono.

                HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. Welcome to our nominees today. I am going 
to waive my opening statement. Senator Tester is at an Indian 
Affairs hearing. He will be joining us in a few minutes. But, 
in the interest of time, as well as the fact that we have a 
vote at 3:15, it would be wonderful for you and for us, if we 
were finished by then. So, I am not going to do anything that 
drags the time out. Congratulations and welcome.
    We have three people on our witness list today to testify, 
all nominees for positions in the Veterans Administration, 
Melissa Sue Glynn, nominee to be Assistant Secretary for 
Enterprise Integration; Randy Reeves, nominee to be Under 
Secretary for Memorial Affairs; and Cheryl Mason, nominee to be 
Chairman of the Board of Veterans' Appeals.
    As is required by law, if each of you will rise and raise 
your right hand, I will swear you before your testimony.
    Do you solemnly swear or affirm that the testimony you give 
and are about to give before the Senate Veterans' Affairs 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Glynn. I do.
    Mr. Reeves. I do.
    Ms. Mason. I do.
    Chairman Isakson. Thank you. Please be seated.
    As I said, we are going to waive the opening statements and 
go to your testimony and then questions, and we will start with 
Ms. Glynn. You are recognized for up to 5 minutes. There is a 
penalty box. If you go longer than 5 minutes; we will put you 
in it.

    STATEMENT OF MELISSA SUE GLYNN, NOMINEE TO BE ASSISTANT 
  SECRETARY FOR ENTERPRISE INTEGRATION, OFFICE OF PUBLIC AND 
 INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Glynn. I will do my best to stay under 5 minutes then.
    Good afternoon, everyone. Chairman Isakson and 
distinguished Committee Members, I am truly humbled by the 
opportunity to serve our veterans, their families, and work on 
behalf of the employees of the Department of Veterans Affairs. 
Meeting personally with some of the Committee Members and their 
staffs, I have been able to gain appreciation of the commitment 
all of you have to serving our veterans, and I am deeply 
honored to be nominated by President Trump for the role of 
Assistant Secretary for Enterprise Integration.
    Today my mother, Jo-Ann Serrani, is here to provide support 
for me, as she has always done. She taught me to balance 
strength with empathy.
    Chairman Isakson. Have your Mom stand. Where is your mom?
    Ms. Glynn. My mom is right there.
    Chairman Isakson. We are glad to have you [off microphone].
    Ms. Glynn. I am also appreciative that many of my friends, 
my chosen family, are also here in support.
    Although my father has passed away, his care in his final 
days were spent at the Carl Hayden VA Hospital in Phoenix, 
Arizona. His military career was very brief, due to an injury 
which shattered his knee, yet the care he received from the VA 
lasted all of his days.
    Before his passing, my grandfather finally opened up and 
shared stories of World War II that he had kept private for 
over 50 years, painful memories of concentration camps and the 
suffering inflicted across Europe, even more painful for him, 
from a Jewish background, whose family had fled the pogroms of 
Eastern Europe. He held on to his memories tightly because he 
could not reconcile those memories with his day-to-day life.
    Those experiences, as well as my prior service as a board 
member for the USO, influenced my desire to commit myself, 
professionally and personally, to serve, if confirmed, as 
Assistant Secretary for Enterprise Integration.
    The Department is undertaking multiple, significant 
initiatives simultaneously, and now more than ever requires 
broad perspective, critical analyses, and independent 
assessment to evaluate the efficacy of these efforts. 
Modernization efforts are planned or already underway in VBA, 
VHA, NCA, and BVA, as well as across VA's management functions. 
Therefore, the Office of Enterprise Integration's (OEI) 
greatest opportunity is to lead the Department's strategic 
planning and performance model, serve as the driver for 
modernization activities with a responsibility to track and 
verify initiative progress, and provide analytical support. 
These efforts all must align with the Secretary's priorities 
and focus our resources on VA's mission--serving our veterans.
    OEI also provides critical cross-departmental support 
through its Center for Innovation (VACI) and the leadership of 
the VA/DOD Joint Executive Committee. The VACI conducts ground-
breaking research and applied work on identifying barriers--
such as identifying barriers veterans experience to accessing 
available mental health care. This critical work informs how we 
prevent suicides.
    Earlier in my career, I had responsibility for over 60 
consulting projects at the VA as a partner with 
PricewaterhouseCoopers (PwC). These ranged from defueling and 
decommissioning VA's only nuclear reactor at the Omaha VA 
medical center, the rollout of National Provider Identifiers 
for VHA, to standing up the National Acquisition Academy in 
Frederick, Maryland. I was afforded an opportunity to travel to 
over 60 medical centers, benefit regional offices, and 
cemeteries while I worked with PwC. I also had the opportunity 
to lead a large implementation effort for the VA's business 
partner, the Defense Finance and Accounting Service, to 
significantly reduce fraud, waste, and abuse.
    The last 9 years of my career have been devoted to 
effecting change as a partner in the world's largest turnaround 
consulting firm. As the managing director of Alvarez & Marsal's 
public sector practice, I drew from my experience in the 
private and public sector to address long-standing failings of 
government programs. The majority of my work focused on fixing 
broken Medicaid systems at the State level, where many States 
were not agile enough to implement new delivery models, meet 
changing needs of their clients, nor harness new advances in 
health care and technology.
    For the VA, Secretary Shulkin has identified five 
priorities, and my prior experience directly aligns with two of 
these--modernizing systems and focusing resources. Modernizing 
and improving resource management enables the realization of 
the remaining three priorities--greater choice, improving 
timeliness, and suicide prevention. It is critical at this 
juncture that progress is made to change how the Department 
operates, to foster agility, and ensure appropriated resources 
deliver value to veterans.
    The Department has incredible opportunities to improve 
today and for the future in leveraging leading practices, as 
well as improving business operations will help us get there. 
If confirmed, I will assertively drive the organization to 
realize potential to improve and uplift its service to today's 
and tomorrow's veterans and their families.
    With appreciation to the Committee for the opportunity to 
appear today, I look forward to answering your questions. Thank 
you.
    [The prepared statement of Ms. Glynn follows:]
   Prepared Statement of Melissa Sue Glynn, Nominee to be Assistant 
      Secretary for Enterprise Integration, Office of Public and 
     Intergovernmental Affairs, U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Tester and Distinguished Committee 
Members, I am truly humbled by the opportunity to serve our Veterans, 
their families and work on behalf of the employees of the Department of 
Veterans Affairs. Meeting personally with many of you, I have been able 
to gain an appreciation of your commitment to serving our Veterans. I 
am deeply honored to be nominated by President Trump for the role of 
Assistant Secretary for Enterprise Integration.
    Today my mother, Jo-Ann Serrani, is here to provide support for me 
as she has always has done. She taught me to balance strength with 
empathy. I am also appreciative of my friends, my chosen family, who 
are also here in support.
    Although my father has passed, his care and his final days were 
spent at the Carl Hayden VA Hospital in Phoenix, Arizona. His military 
career was brief due to an injury which shattered his knee. Yet, the 
care he received from the VA lasted all of his days. Before his 
passing, my grandfather finally opened up and shared stories of WWII 
that he kept private for over fifty years. Painful memories of 
liberating Concentration Camps and the suffering inflicted across 
Europe--even more painful for a Jew whose family fled the pogroms of 
Eastern Europe. He held them tight because he could not reconcile those 
memories with his day-to-day life. Those experiences, as well as my 
prior service as a Board member for the USO Capital Region, influence 
my desire to commit myself professionally and personally to serve, if 
confirmed, as Assistant Secretary for Enterprise Integration.
    The Department is undertaking multiple, significant initiatives 
simultaneously, and now more than ever requires broad perspective, 
critical analysis and independent assessment to evaluate the efficacy 
of these efforts. Modernization efforts are planned or already underway 
in VBA, VHA, NCA, and BVA and across the Department's management 
functions. Therefore, the Office of Enterprise Integration's greatest 
opportunity is to lead the Department's strategic planning and 
performance model, serve as the driver for modernization with 
responsibility to track and verify initiative progress and provide 
analytical support. These efforts all must align with Secretary's 
priorities and focus our resources on VA's mission--serving our 
Veterans. OEI also provides critical cross Departmental support through 
its Center for Innovation and leadership of the VA/DOD Joint Executive 
Committee. The VACI conducts ground breaking work including identifying 
barriers Veterans experience to accessing available mental healthcare. 
This work informs preventing suicides.
    Earlier in my career, I had responsibility for over 60 consulting 
projects at the VA as a partner with PricewaterhouseCoopers. These 
ranged from defueling and decommissioning VA's only nuclear reactor at 
the Omaha VAMC to the rollout of National Provider Identifers for VHA, 
to standing up the National Acquisition Academy in Frederick, Maryland. 
I was afforded an opportunity to travel to over 60 medical centers, 
benefits regional offices and cemeteries during my role as Engagement 
Partner with the VA. I additionally led a large implementations effort 
for the VA's business partner, the Defense Finance and Accounting 
Service to significantly reduce fraud, waste and abuse.
    The last nine years of my career have been devoted to affecting 
change as a partner in the world's largest turnaround consulting firm. 
As the managing partner of Alvarez & Marsal's public sector practice, I 
drew from expertise in the private sector to address long standing 
failings of government programs. The majority of my work focused on 
fixing broken Medicaid systems at the State level. Many States were not 
agile enough to implement new delivery models, meet changing needs of 
their clients nor harness new advances in healthcare and technology. My 
consulting teams focused on identifying the root causes of performance 
and communication failure as well as significant cost overruns. Working 
as interim management, we sought to build capacity of the State 
employees while implementing changes aligning financial management with 
programs, righting technology implementations, improving stakeholder 
engagement, and increasing the value of service to their clients--often 
the most vulnerable populations.
    For the VA, Secretary Shulkin has identified five priorities and my 
prior experience directly aligns with two of these priorities--
modernizing systems and focusing resources. And achieving success with 
systems and resource management enables the realization of the 
remaining three priorities: greater choice, improve timeliness and 
suicide prevention. It is critical at this juncture that progress is 
made to change how the Department operates to foster agility and ensure 
appropriated resources deliver value to Veterans.
    The Department has incredible opportunities to improve today and 
for the future through leveraging leading practices in healthcare, 
benefits delivery, customer service, as well as improving business 
operations including integration of technology, human capital 
management, facilities management and organizational governance.
    If confirmed, I will assertively drive the organization to realize 
potential to improve and uplift its service to today's and tomorrow's 
Veterans.
    With appreciation to the Committee for the opportunity to appear 
today, I look forward to answering your questions.

                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
  Melissa Sue Glynn, Nominee to be Assistant Secretary for Enterprise 
   Integration, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs
    Question 1. Given your experience in information management, what 
would you say is the largest problem facing the Office of Enterprise 
Integration (OEI)? How do you plan to address it?
    Response. OEI's mission is to work across the Department to align 
all functions across a single strategic management operating model. 
This model extends from strategic planning through performance 
monitoring and is supported by risk management, data governance, 
analytics and innovative strategies in support of modernization. In 
order to effectively execution this mission, it is incumbent upon OEI 
to interact across all of VA's offices and Administrations.
    Through providing value added support to all of VA's offices and 
Administrations, the required level of engagement will be achieved. In 
my experience, providing quality service supported by a practice 
governance framework fosters collaboration and coordination. Postively, 
OEI has a talented staff and is delivering value across many of its 
activities in risk management, data, policy, modernization support and 
through the VA Center for Innovations which can be built upon.

    Question 2. What priorities would you like to accomplish should you 
be confirmed as Assistant Secretary for OEI?
    Response. The Department is undertaking multiple, significant 
initiatives simultaneously and more than ever requires broader 
perspective, critical analysis and independent assessment to evaluate 
the efficacy of these efforts. These efforts are underway in VBA, VHA, 
NCA, and BVA and across the Department's management functions. 
Therefore, the Office of Enterprise Integration's greatest opportunity 
is to drive the Department's strategic planning and performance model, 
serve as the driver for modernization with responsibility to track and 
verify initiative progress and provide analytical support.

    Question 3. What role do you see for OEI regarding the upcoming VA/
DOD electronic health records synchronization? How will your experience 
help with the VA/DOD EHR synchronization?
    OEI and its Assistant Secretary manage the Joint Executive 
Committee (JEC) for VA/DOD coordination onbehalf of VA. The EHR 
implementation and synchronization is a significant effort for the JEC 
currently and will be through the implementation period.
    OEI's role in data governance for the VA also is relevant to the 
implementation activity as new data standards and ontologies are 
established and maintained by the Department.
    Additionally, OEI's current remit is to provide support to the 
Deputy Secretary and Secretary for oversight of all modernization 
iniaitives. The EHR implementation is categorized as a modernization 
initiative. Therefore OEI will monitor project objectives, risk 
management and progress.
    My experience in implementing large scale systems including 
Medicaid systems, dealing with privacy and protected health information 
and data management will all be relevant to this critical effort.

    Question 4. While at Alvarez & Marsal, you worked with state 
governments facing administrative challenges. How will your experience 
be applicable to the the work at VA OEI?
    Response. My prior experience working with state governments 
focused on developing fact based assessments from which we could 
quickly devise execution strategies inclusive of dedicated change 
management efforts. Examples of this prior work included work with 
state legislatures to identify how to address budget gaps while 
maintaining or improving citizen services, identifying low performing 
school districts and how to create improvement plans, providing interim 
management support to Medicaid offices to reorganize, address budget 
gaps, address fraud, waste and abuse and improve financial forecasting. 
Much of the work I was involved with included working with stakeholders 
and clients.
    There are multiple similarities with these experiences and the pace 
of reform VA is undertaking currently in modernizing its processes, 
organizational structures and systems. Critical is to undertake these 
efforts while simultaneously improving services to Veterans and their 
families.
                                 ______
                                 
   Response to Prehearing Questions Submitted by Hon. Jon Tester to 
  Melissa Sue Glynn, Nominee to be Assistant Secretary for Enterprise 
   Integration, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs
    Question 5. Please describe your understanding of VA's mission. In 
your response, please describe how you would use the position for which 
you have been nominated to further that mission.
    Response. I have been nominated to serve as Assistant Secretary for 
Enterprise Integration (OEI, formerly the Office of Policy and 
Planning). OEI supports the VA's mission through driving cross 
departmental initiatives, external coordination, continuous 
improvement, and strategic planning. Within OEI are multiple functions: 
Office of Planning and Performance Management, the Office of Data 
Governance and Analytics, the Office of Policy and Interagency 
Collaborations, the VA Center for Innovations, and the Modernization 
Office.
    My background as an academic researcher, management consultant and 
interim manager of state Medicaid agencies will benefit OEI and VA by 
improving internal management operations, streamline decisionmaking, 
and improve stewardship of resources to focusing on direct impacts to 
Veterans and their families.

    Question 6. Have you discussed with Secretary Shulkin the duties 
and the role you would assume as Assistant Secretary of Enterprise 
Integration if confirmed?
    Response. I have discussed the role and associated duties with 
Secretary Shulkin. The Secretary highlighted that the role will have 
primary responsibility for modernization of the VA to improve internal 
management and enable modernization of healthcare and benefits 
programs. The Office of Enterprise Integration leads cross-department 
modernization leveraging its capabilities in planning and performance 
management, risk management, data and analysis, and innovation.

    Question 7. Have you formulated thoughts on what your new job 
responsibilities would be and how you would approach those 
responsibilities if confirmed?
    Response. If confirmed as the Assistant Secretary for Enterprise 
Integration, I see my role as the lead executive and senior advisor to 
the Secretary, Deputy Secretary, and VA principal leaders in strategic 
planning; policy management and analysis; business integration; 
transformation and innovation; performance management; data analytics, 
and data governance. I would ensure the work carried out under these 
areas will be aligned and integrated across the Department to help 
achieve the Secretary's priorities of providing Veterans with Greater 
Choice; Improving Timeliness of services and benefits delivery; 
Modernize VA Systems; Focus VA Resources on the care and services that 
Veterans need the most, and Suicide Prevention.

    Question 8. Please describe your management style and 
decisionmaking process.
    Response. I believe in a servant leader management model that 
emphasizes developing individual team members. I enjoy working in 
collaborative environments. Yet, I am comfortable with individual work 
and rolling up my sleeves. I value thoroughness and reliability of my 
team and seek the same of myself.
    In order to feel confident with a decision, my preference is to 
have facts and feedback available either through analysis, 
investigation of regulations, trends, and through pointed discussion.

    Question 9. How would your prior subordinates describe your 
management style?
    Response. Based on feedback from former employees, I am an 
approachable manager who enjoys hands-on work as well as mentoring 
staff. In my prior role, 360 degree performance reviews provided 
invaluable feedback on my leadership style, ethical behavior, 
management interactions, etc. The reviews have consistently been 
positive.

    Question 10. Please describe your previous role with 
PricewaterhouseCoopers as it relates to VA.
    Response. I served as the global relationship partner for the 
firm's work with the Department from 2005--2008 and served as a project 
leader on consulting projects with the VA beginning in 2001. As the 
relationship partner, I was ultimately responsible for the quality of 
the firm's services and management of engagement personnel. Projects 
were sponsored by VHA, VBA, Acquisitions, Office of Information and 
Technology and the Office of Management. I had the opportunity to visit 
over 50 facilities including medical centers, regional benefits 
offices, and cemeteries and work with numerous programs and staff. 
Thus, I have grounding in VA's operations, systems, data, and financial 
management.

    Question 11. What was your impression of the Agency during the time 
you worked for PWC and experienced ongoing engagement with VA?
    Response. During my tenure at PwC, I was fortunate to be involved 
in many consulting project which were on the cutting edge of healthcare 
management and those which delivered direct value to the organization. 
Yet, there were many efforts which stalled due to internal bureaucracy 
and a risk adverse culture. In order to deliver valuable consulting 
projects, it was often critical to work across internal stakeholders 
and VA offices.
    I have not had ongoing engagement with the VA since 2009.

    Question 12. You have been with VA for several months now. What do 
you see as the biggest challenges facing VA at this time--as to the 
Department as a whole, and specifically in VBA, VHA, and NCA? On which 
of these challenges will you focus and how would you intend to address 
them through your role as Assistant Secretary of Enterprise 
Integration? How would you measure your success?
    Response. The Department is undertaking multiple, significant 
initiatives simultaneously and more than ever requires broad 
perspective, critical analysis and independent assessment to evaluate 
the efficacy of these efforts. These efforts are underway in VBA, VHA, 
NCA, and BVA and across the Department's management functions. 
Therefore, the Office of Enterprise Integration's greatest opportunity 
is to drive the VA's strategic planning and performance model, serve as 
the driver for modernization with responsibility to track and verify 
initiative progress and provide analytical support.
    Success will directly align with the achievement of modernization 
initiatives.

    Question 13. If confirmed, how would you oversee certain management 
activities and processes that require coordination across the 
Department?
    Response. The Office of Enterprise Integration serves to align the 
functional organizations--VHA, VBA, NCA and BVA through driving 
strategic planning, performance management, organizational governance, 
and data analysis. Additionally, OEI has responsibility for leading the 
Department's modernization activities. Through these activities, OEI 
and the Assistant Secretary specifically have a unique vantage point to 
proactively assess, coordinate and support functional and cross agency 
processes.

    Question 14. What do think your role will be in VA budget 
formulation?
    Response. I anticipate that OEI will play a role in budget 
formulation through connecting the Department's strategic plan, 
performance management and modernization efforts with resource 
requirements impacting financial requirements.

    Question 15. There has been significant effort to improve the level 
of collaboration and cooperation between VA and DOD. What do you 
believe would be your role in dealing with areas of concern involving 
the two Departments? What recommendations do you have for improving the 
level of collaboration and cooperation between the Agencies? Do you 
have specific examples of improvements that could be made to the 
Integrated Disability Evaluations System specifically?
    Response:

    (a) OEI's scope includes the Office of Interagency Collaboration 
and Integration facilitates the development of joint policies and 
programs between VA and DOD and other agencies as required, working 
with DOD and other agencies to produce better outcomes in health care 
and benefit delivery for Veterans, servicemembers, and eligible 
dependents through enhanced collaboration and coordination. The office 
is specifically responsible for preparing senior VA leadership for 
joint VA/DOD Secretarial, Joint Executive Council (JEC) meetings. The 
office drafts the
    JEC Joint Strategic Plan and Annual Report to Congress. It also 
provides policy oversight for the Transition Assistance Program with 
the Department of Defense and Department of Labor.
    Beyond planning functions, the two Departments are working on 
execution planning toward an interoperable EHR which is very 
significant and will support new opportunities for collaboration and 
coordination. Additionally through the Veterans Experience Office, 
there is greater specificity around the handoffs between Departmental 
functions across the Veterans life journey. Focusing on specific points 
of coordination to improve these handoffs and developing improved 
navigation is a great opportunity to elevate serving our customers--
Veterans and their families.

    (b) The Integrated Disability Evaluation System (IDES) is inter 
agency work at the highest level, requiring constant collaboration at 
the senior Departmental level and exceptional teamwork between Army, 
Navy, Marine Corps, Air Force, and VA personnel. VA is responsible for 
four of the eight core IDES process steps--Claim Development, Medical 
Examination, Proposed Rating and Benefits Notification--with a total 
time goal of 100 days for four steps. The IDES Program continues to 
meet its program goals with an overall average time of 264 days (295 
days is the goal) and the VA core process time is 85 days (100 days is 
the goal).
    During the six-month period from October 2016 through March 2017, 
93% of IDES participant survey respondents expressed overall 
satisfaction with the IDES process; Active and Reserve component 
Servicemembers overall satisfaction rates were 94% and 87%, 
respectively.
    As with any program there is room for improvement and the joint 
DOD/VA team constantly monitors the processes, customer satisfaction 
surveys, and performance metrics to look for ways to improve the 
process. Some specific improvements are:

          <bullet> Ensuring the Physical Evaluation Board for the 
        Department of the Navy and Department of the Air Force have 
        access to the Veterans Benefits Management System (VBMS) to 
        enhance communication and processing speed between VA and the 
        Services. The Army PEB has this access and has shown it to be 
        an improvement in the IDES process.
          <bullet> DOD and VA are developing a joint IT solution to 
        electronically transfer IDES case file and transactional data 
        to provide comprehensive end-to-end case management and 
        eliminate the need for manual updates to the current IT case 
        management system.
          <bullet> Secretary Shulkin's recent decision to adopt the DOD 
        electronic health record may also provide opportunities to 
        further streamline the IDES process.

    Question 16. How involved do you anticipate being with the 
decisions being made within the VA administrations on policy matters? 
For example, how do you understand the role of your office, if 
confirmed, as it relates to the process involved in the granting of 
presumptive service connection for veteran claims?
    Response:

    (a) I anticipate that the Office and the role of the Assistant 
Secretary advises the Secretary, the Deputy Secretary and other key 
agency officials on matters relating to agency policy, regulations 
development, legislative issues (in coordination with the Office of 
Congressional and Legislative Affairs), risk communication, and 
planning and evaluation activities. In support of policy development, I 
anticipate OEI supports significant and cross-cutting policy through 
conducting risk and economic analysis and program evaluations. 
Additionally, OEI serves as a focal point for the development, 
coordination, oversight, and management of policy documents.

    (b) OEI and the Assistant Secretary specifically oversees the 
efforts of the Health and Medicine Division of the National Academy of 
Sciences, Engineering and Medicine to review the long term health 
effects of Agent Orange exposure. This analysis directly relates to 
determination regarding presumptive claims.

    Question 17. VA has been working to develop itself into a high-
performing 21st century organization. What do you see as the greatest 
challenges in this transformation and how can the Office of Enterprise 
Integration and Center for Innovations assist VA in completing this 
transformation?
    Response. VA's transformation requires working beyond siloes, 
encouraging personnel to seize opportunities to improve outcomes and be 
empowered to make decisions. OEI and VACI strive to improve the 
performance capabilities of the Department through promoting leading 
practices, coordination of resources, developing fact based analysis to 
inform changing practices and promote continuous improvement. The 
challenge is harnessing all of the good information, the assessment 
work and analysis and put it into practice.

    Question 18. How can the Center for Innovations better increase 
veterans' access to VA services? For example, Montana has the highest 
rate of veteran suicide in the Nation. Please describe how as could 
help address access to care issues in Montana given provider shortages 
and geographical challenges.
    Response. The VACI has engaged in multiple applied research 
programs to identify barriers that inhibit Veterans from seeking 
treatment for post-traumatic stress. Specifically, the 2016 study on 
Veteran Access to Mental Health Services interviewed 42 Veterans, 24 
Veteran supporters and 8 healthcare experts across 9 states and the 
District of Columbia. 8 of the Veterans were interviewed in their home 
state of Montana. Identifying the needs of Veterans in rural areas has 
been the focus of numerous research efforts. Understanding their 
perspectives, access requirements and needs is critical to delivering 
customer service that underlies a commitment to Veteran-centric system.

    Question 19. VA has made progress in addressing the stove pipe-like 
organization of its Administrations and business lines. How do you 
foresee the Center for Innovations working collaboratively with other 
components of the Agency to address pressing challenges?
    Response. VACI is engaged in applied research and improvement 
programs across VA's Administrations and offices. Collaborative 
engagement is key to advancing VACI's efforts, partnerships and 
implementation activities.

    Question 20. If confirmed, how do you envision working with the 
policy and planning staff employed in the Agency's administrations and 
staff offices? During your current employment with VA, have you had any 
discussions with VA staff or Trump Administration staff regarding any 
reorganization of Department employees or roles?
    Response. OEI interacts with the Administration's policy and 
planning offices (in VHA and VBA) through the driving the strategic 
operating model. In concert with these offices, OEI develops the 
Department's strategic plan reflecting annual performance goals and 
objectives. VBA's and VHA's policy and planning offices develop 
operating plans which align with the strategic plan and develop how 
they will execute their missions and achieve their performance 
objectives. OEI provides independent assessment of risk and achievement 
of goals.

    Question 21. What role do you see VHA playing in veterans' health 
care in 5, 10, and 20 years?
    Response. Aligned with Dr. Shulkin's views, I envision a system 
that evolves to be market based and relies on community and 
governmental partners in the future. A twenty year planning horizon is 
far out, yet I anticipate the common EHR between the VA and DOD will 
have very significant impacts on the ability to support 
interoperability. In the near term, if legislation is enacted, a multi-
tiered network of providers will become available to our Veterans 
receiving healthcare services. As Dr. Shulkin outlined partnerships 
with the private sector is key to realizing this model which will also 
focus on the whole health of our Veterans. This approach strives to 
attain both mental and physical wellness through a multidisciplinary, 
coordinated patient-centric care delivery model.
    The network would consist of three groupings of providers. The core 
network would include all VA-run hospitals, clinics, and centers, as 
well as appropriate facilities run by other Federal agencies, tribal 
health partners, and academic teaching institutions that have already 
established relationships with the VA. Many of these facilities have 
expertise in military service--related conditions, and all have the 
core competencies required for providing comprehensive, coordinated 
care. These facilities would increase access to highly specialized care 
and address the needs of some veterans living in remote areas.
    The second network would include organized private-sector delivery 
systems that meet performance criteria for clinical outcomes, 
appropriateness criteria, access standards, and service levels. The 
process for acceptance into this second network would be highly 
competitive and based on documented results. Integrated systems of care 
would be ideally suited for inclusion, since their providers have been 
investing in coordinated care for some time.
    A third network would allow veterans to obtain care from additional 
participating private-sector providers, ensuring access for veterans 
who don't live within a reasonable distance of providers in the other 
networks.

    Question 22. A recent example of a flaw in VA's funding forecasting 
is when the Agency requested that it be given more time to exhaust 
Choice Fund dollars just a few months before it requested transfer 
authority to plug a funding hole in the Choice Program. In this 
instance VA's inability to forecast demand and spending nearly led to 
veterans going without access to timely care. How do you foresee using 
the Office of Data Governance and Analytics to inform decisionmaking at 
the Department?
    Response. The Office of Data Governance and Analytics (DGA) will 
continue to coordinate and collaborate with the three VA 
administrations (VHA, VBA, NCA) and other VA staff offices to ensure 
appropriate demographic and operational data are collected for analysis 
and modeling to support VA budget formulation, strategic planning, 
financial reporting, and policymaking.

    Question 23. In your view what steps can a large department take in 
order to be prepared to respond to unforeseen developments during a 
large-scale transformation?
    Response:

    There are many facets to leading complex transformation efforts. 
Some of the most critical elements I believe achieve success are 
highlighted below:

    (a) The department should institute a governance structure 
inclusive of a risk management capability. Thorough risk management 
will not alleviate challenges associated with transformation. Yet, it 
does mitigate surprises and can increase coordination across various 
offices and individuals.
    (b) In my experience, other critical components to successful 
transformations include leadership and transparency. Leadership must 
balance a focus on driving outcomes while being open to the 
perspectives of stakeholders and partners. A successful leader seeks 
transparency and is unafraid to share their objectives. A free flow of 
ideas and perspectives enriches the effort, strengthens the 
organization's resolve, and builds community and support from 
stakeholders.
    (c) Finally, change management is necessary to support 
transformation through engaging employees and guiding them to 
transition to new ways of working. Leveraging strategies and techniques 
to manage the people aspect of change is key to achieving business 
outcomes.

    Question 24. Please provide copies of testimony you delivered as 
referenced in Question 7A of the Committee's questionnaire.
    Response. Unfortunately, the testimony was not submitted in 
advance. However, the study which was sponsored by the Kansas State 
Legislature and was the basis of hearings is available online. It may 
be found through the following link: http://www.kslegresearch.org/KLRD-
web/Publications/AppropriationsRevenue/ 
KansasStatewideEfficiencyInterimRpt2016Jan12.pdf

    Question 25. In response to question 11(B) of the Committee's 
questionnaire, you noted that you would provide the Committee 
information subject to any applicable legal restrictions. Please 
describe which legal restrictions you foresee keeping you from 
providing information to Congress. While drafting your response to that 
question, did you discuss it with any individual, and if so, whom?
    Response. I worked with the Office of Congressional and Legislative 
Affairs (OCLA) in accordance with normal procedure for completing the 
Committee's questionnaire. My response was intended to account for any 
instance in which PII or other sensitive information was requested by 
the Committee to which may require oversight letters as described in 
the Congressional Oversight Manual.

    Question 26. Do you agree that VA employees have an absolute right 
to petition or communicate with Members of Congress and congressional 
staff about matters related to VA matters and that right may not be 
interfered with or denied?
    Response. Yes, I agree. Congress has a vital role in the checks and 
balances of our government, and as such, government employees have the 
right to petition or communicate with Members of Congress and their 
staff.

    Question 27. Please provide the citation on the VHA Award cited in 
question 4 of the Committee's questionnaire.
    Response. The award was issued for meritorious service in 
association with my efforts to defuel VA's only nuclear reactor in 
2002.

    Question 28. There are reports that the Administration, through 
their Office of General Counsel, has ordered agencies to not provide 
responses to Democrats' information requests. If you were to receive 
such an order, what would you do? Have you participated in or been 
aware of any communications where this topic was discussed? Please 
provide details on the participants in this discussion, the substance 
of the discussion, and any outcomes.
    Response. I am not aware of any discussions or communications 
directing agency personnel not to address information requests. I do 
not anticipate receiving such an order, yet if were to, I would respond 
to the request issued regardless of the party affiliation of the 
requesting office.
                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
  Melissa Sue Glynn, Nominee to be Assistant Secretary for Enterprise 
   Integration, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs

    Question 1. If confirmed, would you commit to reviewing the data 
and modeling associated with the Choice Fund for accuracy and provide 
the Committee with the findings of your review within one month of 
taking office?
    Response. If confirmed and as directed by the Secretary, I will 
undertake a review of the data and modeling associated with the Choice 
Fund and would provide Committee with the review's findings.

    Question 2. When we met in my office we talked a bit about VA 
health care and concerns about privatization. If confirmed you would be 
providing data and advice to the Secretary and Under Secretary for 
Health so they could make informed decisions about veterans' care. So 
I'd like to better understand your views on this topic. In our meeting 
you mentioned that good care-coordination would be a necessary pre-
cursor to privatization.
    <bullet> Can you further explain what you meant by that?
    <bullet> Do you believe veterans' health care should be privatized 
or will you commit, as the Secretary did, to not move the Agency toward 
privatization?
    Response. If confirmed as Assistant Secretary for Enterprise 
Integration, I will provide strategic planning, governance, risk 
management, independent analysis, oversight of DOD/VA interaction and 
will have responsibility for tracking enterprise level Modernization 
activities. In the capacity of Assistant Secretary, it is not in 
purview of this role to advise Department leadership on strategy 
associated with delivering veterans' healthcare. Yet, I fully support 
Secretary Shulkin's commitment that VA will not be privatized.

    Chairman Isakson. Thank you, Ms. Glynn.
    Mr. Reeves.

 STATEMENT OF RANDY REEVES, NOMINEE TO BE UNDER SECRETARY FOR 
   MEMORIAL AFFAIRS, OFFICE OF PUBLIC AND INTERGOVERNMENTAL 
          AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Reeves. Chairman Isakson, Ranking Member Tester, and 
distinguished Members of the Committee on Veterans' Affairs, 
thank you for this opportunity and privilege to come before you 
and to seek your endorsement to serve as Under Secretary of 
Memorial Affairs in the U.S. Department of Veterans Affairs. I 
have had the privilege to meet individually with many of you 
after I was nominated by President Trump, and I am also very 
thankful and deeply fortunate to have had the opportunity to 
interact and work with your staffs over the last few years on 
important issues to our veterans while serving in various 
capacities with the National Association of State Directors of 
Veterans Affairs (NASDVA). I sincerely appreciate and continue 
to be deeply impressed by your Committee's profound commitment 
to the men and women who have served in uniform.
    I am extremely honored to have been nominated by President 
Trump and will, if confirmed, work tirelessly to ensure our 
veterans and their families receive the honor, service, and 
compassion they deserve and that they have earned. Secretary 
Shulkin's trust, confidence, and support is deeply humbling to 
me, and I believe the great working relationship he and I have 
developed over many years will continue to benefit America's 
veterans in whatever capacity I am privileged to serve in. I am 
acutely aware that, if confirmed, I will ultimately be 
responsible for the care and service provided to veterans and 
families during what is, arguably, the most difficult time in 
their lives, a responsibility I take very seriously.
    For over 35 years, I have been committed to serving and 
taking care of military members and veterans, most recently as 
the Executive Director of the Mississippi Veterans Affairs 
Board and as President of NASDVA. My life's mission is 
straightforward, serving those who have served our Nation and 
serving their families.
    Most importantly, I must take time to thank my wife of 33 
years, Aida, who has always stood by me and has supported me 
through countless deployments and assignments and who has 
served alongside me every step of the way.
    Most amazing is that she did so while serving in the 
military herself. She is a retired Air Force veteran with 20 
years of service and she is my hero for all she has done for 
our Nation. Because I was at sea for most of the years our 
youngest child, Christen's, growing up, I have Aida to thank 
for the successful woman and mother that Christen has become.
    We are a military family. Our three sons have served during 
war time, just like Aida and I. Jim is an Army veteran, having 
served in Panama, Iraq, Afghanistan, and in many other places 
around the world. Jarod is Navy veteran. He was a submariner 
and he served all over the world also. Jon is currently in the 
Air Force and is a captain stationed in Korea. I never fully 
realized what my family, and families like them, actually go 
through until I was the one at home while they were deployed.
    As a retired military veteran, a former State Cemetery 
Director, and as a State Director of Veterans Affairs 
responsible for the full spectrum of care provided to our 
veterans ``on the ground,'' I believe, if confirmed, I have the 
unique insight and the acumen to effectively lead the men and 
women at the National Cemetery Administration who so capably 
serve our veterans and their families every day. I also 
strongly believe my years of experience give me the knowledge 
and the insight to understand the needs of our veterans and 
their families and they enable me to translate those needs into 
action on their behalf. I serve and work diligently every day 
for our veterans and their families. That will always remain at 
the center of my decisionmaking and the focus of my work, 
regardless of where I am serving. If confirmed, that will never 
change.
    Again, I am deeply humbled and honored to be considered to 
serve as Under Secretary for Memorial Affairs, for our veterans 
and for their families. Thank you for this opportunity to 
appear before you and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Reeves follows:]
 Prepared Statement of Randy C. Reeves, Nominee to be Under Secretary 
 for Memorial Affairs, Office of Public and Intergovernmental Affairs, 
                  U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Tester, and Distinguished Members 
of the Committee on Veterans Affairs, Thank you for this opportunity 
and privilege to come before you and seek your endorsement to serve as 
the Under Secretary of Memorial Affairs in the Department of Veterans 
Affairs. I have had the privilege to meet individually with many of you 
after I was nominated by President Trump. I am also very thankful and 
feel deeply fortunate to have had the opportunity to interact and work 
with your staffs over the last few years on issues important to our 
Nation's Veterans while serving in various capacities with the National 
Association of State Directors of Veterans Affairs (NASDVA). I 
sincerely appreciate and continue to be deeply impressed by your 
Committee's profound commitment to the men and women who have served 
our Nation in uniform.
    I am extremely honored to have been nominated by President Trump 
and will, if confirmed, work tirelessly to ensure our Veterans and 
their families receive the honor, service and compassion they deserve 
and have earned. Secretary Shulkin's trust, confidence and support is 
deeply humbling to me and the great working relationship we have 
developed, I believe, will continue to benefit America's Veterans in 
whatever capacity I am privileged to serve in. I am acutely aware that, 
if confirmed, I will be ultimately responsible for the care and service 
provided to Veterans and families during what is, arguably, the most 
difficult time in their lives; a responsibility I take very seriously.
    For over 35 years, I have been committed to serving and taking care 
of military members and Veterans, most recently as Executive Director 
of the Mississippi Veterans Affairs Board and as President of NASDVA. 
My life's mission is straightforward; serving those who have served our 
Nation and their families.
    Most importantly, I must thank my wife of 33 years, Aida, who has 
always stood by me and supported me through countless deployments and 
assignments and who has served alongside me every step of the way. Most 
amazing is that she did so while serving herself. She is a retired Air 
Force Veteran with 20 years of service and she is my hero for all she 
has done for our Nation. Because I was at sea during most of the years 
our youngest child, Christen, was growing up, I have Aida to thank for 
the successful woman and mother she has become. We are a military 
family. Our three sons have served during war time, just as Aida and I 
have. Jim is an Army Veteran, having served in Panama, Iraq, 
Afghanistan and many other places around the world. Jarod is Navy 
Veteran, having served as a submariner all over the world. And, Jon is 
currently serving as a Captain in the Air Force, stationed in Korea. I 
never fully realized what my family, and families like them, went 
through until I retired from the Navy and I was the one at home while 
they were deployed.
    As a retired military Veteran, a former State Cemetery Director and 
as a State Director of Veterans Affairs responsible for the full 
spectrum of care provided to our Veterans ``on the ground,'' I believe, 
if confirmed, I have the unique insight and acumen to effectively lead 
the men and women at the National Cemetery Administration who so 
capably serve our Veterans and their families every day. I also 
strongly believe my years of experience give me the knowledge and 
insight to understand the needs of our Veterans and their families and 
enable me to translate those needs into action on their behalf. I serve 
and work diligently every day for our Veterans and their families. That 
will always remain at the center of my decisionmaking and the focus of 
my work, regardless of where I am serving. If confirmed, that will not 
change.
    Again, I am deeply humbled and honored to be considered to serve as 
Under Secretary for Memorial Affairs; for our Veterans and their 
families. Thank you for this opportunity to appear before you and I 
look forward to answering any questions you may have.

                                 ______
                                 
[The Committee questionnaire for Presidential nominees follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

[A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
 Randy C. Reeves, Nominee to be Under Secretary for Memorial Affairs, 
  Office of Public and Intergovernmental Affairs, U.S. Department of 
                            Veterans Affairs
    Question 1. Given your experience serving veterans at the State 
level, what are some of the most important insights or perspectives 
that you will bring to the position for which you are nominated?
    Response. As a State Director, I have been ``on the ground'' with 
Veterans and their families and have the unique perspective of having 
assisted them in times of need, whether it be at the time of death of a 
loved one, gaining access to health care, navigating the system(s) of 
claims and appeals or any of the myriad of needs they may have. Each 
``case'' has a face and a name and the individual situation each of 
them faces is real for me, every day. Specifically, in the area of 
Memorial Affairs, I first started my service in State government as the 
Director of Mississippi's first Veterans cemetery and oversaw the 
design and construction of that facility. I recently oversaw the 
design, construction and opening of Mississippi's second Veterans 
Cemetery. I received much of the same training and experience cemetery 
staff who work in National Cemeteries do (Cemetery Foreman, Cemetery 
Representative, Equipment Operator, etc). This experience and knowledge 
will greatly aid me in understanding and translating into action the 
ideas (and efficiencies) that can only come from employees who work in 
the field every day. In addition to my technical knowledge of cemetery 
and memorial operations, my past military experience required me to 
perform duties such as a Casualty Assistance Officer, not to mention 
experience in Command and in other instances dealing with and assisting 
families whose loved one(s) died in service to our Nation. Looking into 
the eyes of a wife, mother, child or other family member and explaining 
that their loved one is dead, has left me with a mission, seared 
forever into my soul, that I will do everything I can to help them by 
serving on their behalf and by honoring the service and sacrifice of 
both our Veterans and their families.

    Question 2. Have you discussed with Secretary Shulkin the long-term 
strategy for improving the Department of Veterans Affairs? How do you 
see the National Cemetery Administration (NCA) fitting into that 
strategy?
    Response. I have been very fortunate to be able to, in my 
capacity(s) as a State Director and with the National Association of 
State Directors of Veterans Affairs (NASDVA), work with and advise 
Secretary Shulkin on the needs of our Veterans. He has articulated, 
both publicly and privately, his vision and priorities for VA but most 
important have been his actions toward the future: transparency, 
accountability, real modernization and priority of action. By focusing 
on future needs of Veterans, VA will be better able to find and 
institute efficiency and to balance how service and care are delivered 
in the future.
    NCA has consistently achieved the highest customer satisfaction 
rating of any organization, public or private, in the country. VA must 
continue to invest in NCA's infrastructure, as a foundational service 
to our Veterans, to meet future (increased) need and demand. By 
nurturing the success and reputation of NCA and the service it 
provides, VA will be helping restore and foster confidence in the full 
spectrum of Veterans' care and service into the future.

    Question 3. The NCA has an excellent reputation for high levels of 
customer satisfaction. What do you believe is the most significant 
factor contributing to this excellent reputation and what areas could 
be improved to further strengthen the Administration's overall success?
    Response. NCA has developed a culture of honor that embraces the 
fact that you only get one chance to get it right when a Veteran or 
family member is laid to rest.
    NCA must remain focused on ensuring, through internal 
infrastructure and partnerships with others, the highest number of 
Veterans have a Veteran burial option within a reasonable distance of 
where they live. NCA must also continue to upgrade and enhance 
information systems (scheduling, registry, geographical information 
systems, etc) that can help increase efficiency of operation and 
accountability.

    Question 4. How are the demands for burials and funerals changing 
from past demand and what will that mean for NCA operations and 
planning going forward?
    Response. The demand for Veterans' burial options are expected to 
continue to increase in the future. To meet that demand, NCA must 
continue to build capacity (based on need) and look for and develop 
more efficient and innovative ways to meet that increased demand. NCA 
must also continue to monitor and adjust to the shifts in demand/
preference for different types of burials. For instance, over the past 
few years, there has been a general increase in preference for 
cremations over casketed burials and NCA has, as I have observed, taken 
steps to adjust to that shift.

    Question 5. In your opinion, what role do funeral directors play in 
helping NCA accomplish its mission and how should their input be 
factored into policy and planning for NCA?
    Response. Funeral Directors are very important in helping create 
and manage appropriate expectations of the Veterans and families NCA 
serves. They are the first persons (in the interment/burial process) 
families interact with during the loss of their loved one. The 
relationships Cemetery Directors and staff have with them, locally, is 
important to ensuring a seamless process for families. Providing 
current information (from NCA/local staff) to Funeral Directors (and 
doing so often) is crucial.
    Funeral Directors are important partners in serving Veterns/
families during the time of need. They work with and know the needs of 
the people in their locale and their input can be very useful in 
planning for future needs.

                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Randy 
 C. Reeves, Nominee to be Under Secretary for Memorial Affairs, Office 
 of Public and Intergovernmental Affairs, U.S. Department of Veterans 
                                Affairs
    Question 6. Please describe your understanding of VA's mission. In 
your response, please describe how you would use the position for which 
you have been nominated to further that mission.
    Response. VA's mission statement, ``To fulfill President Lincoln's 
promise `To care for him who shall have borne the battle, and for his 
widow, and his orphan' by serving and honoring the men and women who 
are America's Veterans,'' accurately captures (in my opinion) the 
sacred obligation each of us who serves Veterans and their families 
has. It means, simply, to me that we shall put the needs of our 
Veterans first and we will take every effort to care for them and honor 
their service, (1) because they have earned it and (2) to tangibly 
demonstrate to the Nation that service sacrifice is valued and always 
will be. If confirmed as Under Secretary of Memorial Affairs, my 
mission will be to foster and nurture the culture of honor for our 
Veterans and their families that exists at NCA and to continue to 
extend greater access to dignified burial options for our Veterans and 
their families.

    Question 7. Have you and Secretary Shulkin discussed the duties and 
the role you would assume as Under Secretary of Memorial Affairs if 
confirmed? If so, what specific areas of the job were discussed?
    Response. I have been very fortunate to be able to, in my 
capacity(s) as a State Director and with the National Association of 
State Directors of Veterans Affairs (NASDVA) and given the close 
working relationship he and I have developed, work with and advise 
Secretary Shulkin on the needs of our Veterans. He has articulated, 
both publicly and privately, his vision and priorities for VA, in 
general, but most important have been his actions toward the future: 
transparency, accountability, real modernization and priority of 
action. By focusing on future needs of Veterans, VA will be better able 
to find and institute efficiency and to balance how service and care 
are delivered in the future.
    NCA has consistently achieved the highest customer satisfaction 
rating of any organization, public or private, in the Country. VA must 
continue to invest in NCA's infrastructure, as a foundational service 
to our Veterans, to meet future (increased) need and demand. If 
confirmed, my role will be to nurture and further develop the future 
success and reputation of NCA and the service it provides. To that end 
I will, in concert with VA's leadership, be a part of helping restore 
and foster confidence in the full spectrum of Veterans' care and 
service provided by VA.

    Question 8. Have you formulated thoughts on what your new job 
responsibilities would be and how you would approach those 
responsibilities if confirmed?
    Response. If confirmed, my responsibilities in overseeing our 
Nation's National Cemeteries and Memorial Programs and helping create 
opportunities for establishment of State and Tribal cemeteries and 
other burial options, where appropriate, will always focus on the needs 
of the Veteran. To fulfill this mission and related functions, I will 
work with Congress, the Administration and VA's leadership team to 
ensure resources are in place to carry out that mission and ensure 
those resources are employed in the most efficient and cost effective 
way possible.

    Question 9. How would you describe your management style and how is 
it suited to this particular position in the executive branch?
    Response. I am a leader and have been throughout my career, both 
during my military service and in public service to our Nation's 
Veterans. My leadership style depends on the needs of each situation. 
My ``tool bag'' is big and I have the ability, through many years of 
experience, to recognize the dynamics in large organizations or units 
and adjust style and action to fit what may be needed to get the best 
result and performance from that organization and its members. My past 
experience, particularly in Cemetery Operations and ``on the ground'' 
experience, will greatly aid me in understanding and translating into 
action the ideas (and efficiencies) that can only come from employees 
who work in the field every day.

    Question 10. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this position?
    Response. If confirmed, my greatest challenge will be to 
capitalize, for our Veterans, on the success of NCA and to find ways to 
take an already well functioning organization ``to the next level.'' 
Ultimately, if confirmed, my mission will be to find more ways to 
extend and enhance the options available to our Veterans and their 
families.

    Question 11. Oftentimes, the only contact that a veteran and his/
her family will have with VA is through the National Cemetery 
Administration. What will you do to make certain that this contact 
remains positive?
    Response. If confirmed, I will focus on NCA's culture of honor that 
embraces the fact that you only get one chance to get it right when a 
Veteran or family member is laid to rest. That mindset must be first 
and foremost and the employees who care for our Veterans must see that 
from me as the leader of the organization. I will be ``on the ground'' 
often, both to see our employees and to see the Veterans and the 
families they serve.

    Question 12. How can NCA better support tribal veteran cemeteries?
    Response. If confirmed, I will ensure an NCA focus on communication 
with and understanding of tribal governments. Appropriately taking into 
account Native American culture(s) and belief(s) can go a long way 
toward honoring these Veterans. As a State Director, I have observed an 
increased emphasis by NCA in educating tribal governments about the 
Veterans Cemetery Grant Program and promoting the program to them. That 
must continue, taking into account the above considerations.
    It is my understanding that NCA has two legislative proposals for 
the FY 2018 budget that would benefit tribal cemeteries: (1) Expand 
VA's Authority to Provide an Allowance to Transport Certain Deceased 
Veterans to a State or Tribal Veterans Cemetery; and (2) Expand 
Authority to Provide Headstones and Markers to Eligible Spouses and 
Dependents at Tribal Veterans Cemeteries. Both of these should be given 
serious consideration. Another item that could be considered (that I 
have heard in the field) would be the use of grant funding to pay for 
travel for State and Tribal Cemetery staff to attend NCA training in 
St. Louis, dependent upon availability of funding. With constrained 
local budgets, any small offsets can be very helpful.

    Question 13. How will you address increasing demand for 
ecologically-friendly burial options by veterans?
    Response. If confirmed, I will look at and ask for ways to further 
pursue alternative (natural and environmentally sensitive) burial 
options for our Veterans and their families that, as may be 
appropriate, reflect ``Green Burial Council'' recommendations.

    Question 14. Do you plan to continue using the NCA's FY 2016-2021 
Long Range Plan as a guiding strategy for the coming years? Are there 
successes or shortfalls that can be gleaned from this strategy?
    Response. NCA's Long Range Plan is a sound document that is an 
effective roadmap for future delivery of NCA's services to Veterans and 
their families. If confirmed, it will be incumbent upon me to 
critically review the plan to determine what, if any, course 
adjustments may be needed to further (positively) affect enhanced 
efficiency and increased access to burial options, particularly in 
rural areas.

    Question 15. One of the goals of NCA's Long Range Plan is to 
increase the use of burial and memorialization benefits. Two items 
mentioned are to explore the possibility of establishing weekend 
burials and to provide alternative burial options. What are your 
thoughts on these items?
    Response. I believe we need to explore these options, taking into 
account available resources and with consideration of equity of service 
(with our State and Tribal partners RE: weekend burials). Exploring 
ways to provide alternative burial options should focus on the needs/
preferences of the population being served. If confirmed, these are 
areas I will want to gain more information and insight on.

    Question 16. Do you believe some post-service actions render a 
person unfit to be buried alongside America's honored dead?
    Response. Current policy and law, appropriately, excludes those 
convicted of capital crimes, certain sex crimes and subversive 
activity.

    Question 17. The Rural Veterans Burial Initiative is intended to 
provide increased burial access in rural areas where the veteran 
population is less than 25,000. However, there are cities in largely 
rural states have no veteran burial access for 100s of miles. What are 
your plans to increase burial access for all veterans living in rural 
states?
    Response. If confirmed, it will be one of my first priorities to 
explore, within law and available resources, how NCA may best address 
the ``gaps'' in access described in this question.

    Question 18. Do you believe there should be any limitations on 
families being present at the graveside during the burial of their 
loved ones in national and state veteran cemeteries?
    Response. Graveside services are not normally conducted due to 
safety concerns. Committal services are conducted at the cemetery's 
committal shelter. Understandably, there are sometimes unique 
situations for religious and other circumstances. As a former Cemetery 
Director, I am cognizant of the desire for graveside services. I am 
also cognizant of the safety issues and additional cemetery personnel 
required should graveside services be allowed. If confirmed, I will 
review current policy and feel exceptions should be determined locally 
on a case-by-case basis, taking into account all mentioned (and any 
other) factors.

    Question 19. Do you support expanding NCA burial eligibility for 
Hmong veterans who served in support of U.S. Forces during the Vietnam 
War, or any other foreign nationals that supported and fought alongside 
our American veterans?
    Response. I believe, statutorily, the Department of Defense is 
responsible for determining whether service in support of the U.S. 
Armed Forces during a period of armed conflict is equivalent to active 
military service. If confirmed, I will work with all diligence to 
ensure burial and memorial benefits are provided for individuals deemed 
eligible by the Secretary of Defense.

    Question 20. What do you believe will be your most daunting 
challenge and how will you confront it?
    Response. Given the current (and growing) number of State and 
Tribal cemeteries and burial options, working with States and Tribal 
governments to ensure ``equity of service'' regardless of where a 
Veteran or family member is interred, given the constrained budgets of 
governments across the Nation. If confirmed, I will seek to be fully 
inclusive of all our partners' challenges to ensure the ``equity of 
service'' our Veterans and their families deserve.

    Question 21. There are reports that the Administration, through 
their Office of General Counsel, has ordered agencies to not provide 
responses to Democrats' information requests. If you were to receive 
such an order, what would you do? Have you participated in or been 
aware of any communications where this topic was discussed? Please 
provide details on the participants in this discussion, the substance 
of the discussion, and any outcomes.
    Response. My observation is that VA's longstanding practice has 
been to respond to information requests from Congress. I am not aware 
of any such orders not to respond to minority party members and it is 
my intent to respond to all requests from Congress independent of the 
party of the requester. In my previous capacity(s) I have, over the 
past few years, worked with many Members of Congress and staffs on 
numerous issues facing our Nation's Veterans. I have always focused on 
the needs of the Veteran and have worked with and responded to all 
persons equally. If confirmed, I will not change in that regard.

                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Jon Tester to Randy 
 C. Reeves, Nominee to be Under Secretary for Memorial Affairs, Office 
 of Public and Intergovernmental Affairs, U.S. Department of Veterans 
                                Affairs
    Question 1. If confirmed, how would you improve VA's current 
programs to address the needs of rural veterans?
    Response. To improve existing programs, we must first review and 
assess what possible statutory, financial and policy limitations exist 
with current programs. This is particularly important because I am 
committed to looking for solutions to address remote areas/``pockets'' 
where Veterans/families are required to drive long distances for burial 
options.
    If confirmed, I will also assess the status of plans in progress in 
current programs (example: status of completion of the Rural Veterans 
Burial Initiative planned sites).
    Three areas I will focus on first, if confirmed:

    1. Pursue completion of currently planned Rural Veterans Burial 
Initiative sites (if projects still outstanding) and determine 
feasibility of expanding the program to additional sites.
    2. Determine funding requirements to increase number of state/
tribal cemetery grants.
    3. Review current process for state/tribal governments submitting 
cemetery grant applications and develop and publish a simple/
transparent and easy to follow ``road map'' toward grant award.

    Question 2. If confirmed, how would you address the religious and 
cultural burial needs of tribal veterans?
    Response. If confirmed, I will focus on:

    1. Increasing outreach and inclusion. It is my understanding the 
Cemetery Grants Service is conducting outreach with tribal governments. 
However, I believe it is important to increase coordination with Office 
of Tribal Government Relations (within VA, in states and with other 
Departments, if appropriate) to better understand individual areas and 
tribes and their needs.
    2. Increasing inclusion of tribal leaders/members with significant 
knowledge of traditions, customs, burial rites, etc of individual 
nations/tribes early in the design process for proposed tribal cemetery 
projects.
    3. Most importantly, I will make it a priority to visit as many 
tribal areas as possible that have unserved Veterans to see and learn, 
first-hand, about their needs. Just as important, it will be a priority 
for me to visit states and visit with state leaders.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
to Randy C. Reeves, Nominee to be Under Secretary for Memorial Affairs, 
  Office of Public and Intergovernmental Affairs, U.S. Department of 
                            Veterans Affairs
    Question 3. Arlington Cemetery and State Veterans Cemeteries
    According to the Association of the United States Army, Arlington 
National Cemetery will reach its burial capacity in approximately 30 
years, and unless changes are made, will be unable to accommodate 
veterans who are currently fighting in Iraq and Afghanistan. Although 
the Army is responsible for Arlington National Cemetery, the VA's 
National Cemetery Administration can assist in efforts to help 
alleviate the pressure on Arlington National Cemetery by ensuring 
honorable and desirable burial options at VA national cemeteries.
    a. Mr. Reeves: As Under Secretary for Memorial Affairs, you will be 
responsible for maintaining 135 national cemeteries and providing 
burial services for veterans and eligible family members. If you are 
confirmed, what changes to VA national cemeteries will you make to 
ensure they are a desirable option for veteran's seeking an honorable 
burial?
    Response. The National Cemetery Administration (NCA) has a 
tradition of honoring our Veterans and a record of providing the 
highest level of service to our Nations Veterans and their families. 
Many National Cemeteries, too, are seeing increased burial rates and 
the need for additional burial space. If confirmed, I will focus on 
increased burial options and access and pursue additional burial 
methods to allow more efficient land use in existing cemeteries. As we 
look to the future, we will critically review NCA's strategic plan and 
work with Congress, the Administration, other Departments and 
stakeholders to adjust, as needed, to serve our Veterans in future 
years. There will be increasing demand for the service NCA provides 
that will require increased resources and, if confirmed, I believe it 
will be a key part of my job to transparently and accurately inform 
Congress, the Administration and the Secretary well ahead the need.

    b. Mr. Reeves: Will you commit to working with the Army and 
Congress to enhance the level of service at VA funerals in order to 
pursue burial alternatives outside of Arlington National Cemetery?
    Response. If confirmed, I commit to working with Congress and DOD. 
Additionally, I will seek out and work with any and all stakeholders 
who can help us ensure our Veterans are honored appropriately.

    Question 4. Equity of Service for Veteran Funeral Honors
    Mr. Reeves, in your response to the Committee's pre-hearing 
questions, you identified working with State and Tribal governments to 
ensure ``equity of service'' as one of your anticipated challenges. I 
agree with your assessment that the variation among states and tribal 
areas--which is largely attributed to budget constraints--is a major 
barrier to ensuring veterans receive equitable services. Recently, 
Connecticut was forced to limit military funeral honors due to budget 
cuts. I firmly believe that even during times of economic adversity, 
veterans and their families must receive the benefits and honor they 
deserve.
    a. Mr. Reeves: What resources are necessary to standardize the 
level of services afforded to all veterans?
    Response. This is not a ``one size fits all'' answer. The level of 
resources needed depends on a number of factors that include (but are 
not limited to), the size and complexity of a cemetery property, the 
types of burials conducted and the number of burials conducted at the 
cemetery. If confirmed, my focus will be on maintaining National Shrine 
Standards for all burials and then working with all parties to find 
ways to ensure proper resourcing based on the individual cemetery/
location whether the cemetery is National, State, Tribal or other. I am 
always cognizant of the fact that when a Veteran or family seeks the 
service provided in Veterans cemeteries, they generally see it as a VA 
cemetery, regardless of National, State, Tribal, etc. When we consider 
policies or services provided, we must take into account the resources 
our partners have available, include them in the discussion and help 
create expectations for our Veterans and their families that provides 
the honor and service they deserve while, at the same time, considering 
the burden (fiscally and otherwise) that may be created for our 
partners (state, tribal, etc.).

    b. If confirmed, how will you work with State and Tribal 
governments to ensure ``equity of service'' for all veterans 
nationwide?
    Response. If confirmed, I will focus on (1) ensuring state and 
tribal governments fully understand the requirements to maintain the 
level of service our Veterans and families deserve (2) ensuring we 
provide (within budget requirements) the resources needed for 
``granted' cemeteries to go into proper operation and (3) work with 
state and tribal governments to help them accurately articulate (to 
state and tribal governments) resource needs for operation and 
maintenance of their cemeteries. **Having done this at the state level 
gives me unique insight and ability in this regard.

    c. Do you believe that there should be a national standard of honor 
guard that would include a gun salute?
    Response. I strongly believe we should provide the highest level of 
honor possible to our Veterans when they are laid to rest. I must also, 
in deference to DOD, recognize that if they (DOD) are to provide gun 
salutes at every funeral, it will require additional personnel and 
budgetary resources.

    Chairman Isakson. Thank you, Mr. Reeves.
    Ms. Mason.

  STATEMENT OF CHERYL L. MASON, NOMINEE TO BE CHAIRMAN OF THE 
       BOARD OF VETERANS' APPEALS, OFFICE OF PUBLIC AND 
 INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Mason. Chairman Isakson, Ranking Member Tester, and 
distinguished Members of this Committee, thank you for the 
opportunity and privilege to appear before you to seek your 
endorsement to serve as the Chairman of the Board of Veterans' 
Appeals. It was a privilege to have had the opportunity to meet 
with many of you following my nomination by the President.
    I am extremely honored to have been nominated by President 
Trump to be Chairman of the Board of Veterans' Appeals and, if 
confirmed, I will work relentlessly to ensure that the Board 
provides the fair and timely adjudication of appeals that our 
Nation's veterans and their families deserve. I am equally 
honored by Secretary Shulkin's support of my nomination and 
belief in my ability to lead the Board. Additionally, I am 
deeply grateful to have had the opportunity to serve veterans 
as a veterans law judge for 14 years, having had countless 
hours of direct interactions with veterans, their families, and 
caregivers. I am humbled by our veterans and I am honored to 
have assisted thousands of our veterans' families and our 
veterans.
    I am joined today by my husband of 31 years, Lieutenant 
Colonel Brett Mason, U.S. Air Force Retired, who is also my 
college sweetheart. We share small-town Ohio values and 
commitment to service as he is the son of a Navy Korean War 
veteran. We have two wonderful sons. Bryan is a senior 
mechanical engineering student at Ohio Northern University. 
Trevor, who is here with me today, is a high school senior, 
preparing to attend college next year.
    My commitment to those who served this country is deep and 
personal. My father served in the Navy as a Petty Officer 
during World War II, and my mother is a retired high school 
government teacher. As a young woman, like many of her 
generation, she worked to support the war effort, installing 
oxygen lines in B-17s at Wright Field.
    After losing my father to suicide in 1969, my mother raised 
me by herself in Portsmouth, Ohio. I also lost my brother, an 
Army reservist who served during the Vietnam era, to suicide. I 
commend Secretary Shulkin for elevating suicide prevention as 
one of VA's priorities.
    As a result of my father's World War II service and sudden 
death, I was the recipient of VA benefits. Those benefits 
provided crucial support to me, and as a result I understand 
the importance and need for timely resolution of appeals.
    My experiences as a military spouse enhanced my recognition 
of the tremendous sacrifice made by the men and women who have 
committed themselves to the defense of this Nation. 
Additionally, my perspective as a VA leader is impacted by my 
view as a veteran's spouse, daughter, and daughter-in-law.
    I view service to this Nation as an obligation and an 
honor. My experiences as a Department of the Air Force 
civilian, Federal Labor Relations Authority attorney, and in VA 
leadership positions, as well as my life as a military spouse 
and veteran's spouse, have positioned me well to continue 
serving veterans. If confirmed, I will ensure that in the 
execution of my responsibilities as Chairman of Board of 
Veterans' Appeals, I will always assess my actions and 
decisions through the lenses as a veteran's dependent.
    Since 1636, when the Pilgrims of the Plymouth Colony 
decided to provide care for disabled soldiers, our country has 
made care for our veterans a tenet. It is woven into our 
Nation's very foundation and it is the core mission of the VA. 
To meet this mission, VA must transform and modernize to adjust 
to the changing needs of our veterans and their families. The 
American people expect it and the veterans deserve it.
    If confirmed, I will work daily to support VA 
transformation and achieving the vision of President Trump and 
Secretary Shulkin in providing the best care and service to our 
nations veterans and their families.
    Thank you for your hard work and insight in passing the 
Veteran Appeals Improvement and Modernization Act of 2017. In 
implementing this historic act, if confirmed, I will build the 
veterans' trust by working with the dedicated Board staff to 
ensure that the Board is focused on effective, efficient, and 
expedient service to our Nation's veterans.
    If confirmed as Chairman, I will bring my experience and 
commitment to work diligently to promote a culture of service 
to veterans. I will expand my existing cooperative 
relationships with all those involved in the adjudication 
process within the department, as well as the Veterans Service 
Organizations and representatives, the Court of Appeals for 
Veterans Claims, this Committee, and Members of Congress.
    This is a great responsibility, and I can assure you that 
if confirmed I will uphold this trust on behalf of our men and 
women in uniform and on behalf of all those who have served. 
Again, I want to thank the Committee for the opportunity to 
appear before you and I look forward to answering your 
questions. Thank you.
    [The prepared statement of Ms. Mason follows:]
 Prepared Statement of Cheryl L. Mason, Nominee to be Chairman of the 
  Board of Veterans' Appeals, Office of Public and Intergovernmental 
              Affairs, U.S. Department of Veterans Affairs
    Chairman Isakson, Ranking Member Tester, and Distinguished Members 
of the Committee on Veterans Affairs, I want to thank you for the 
opportunity and privilege to come before you and seek your endorsement 
to serve as the Chairman of the Board of Veterans' Appeals. I am 
thankful for the opportunity and privilege to meet individually with 
many of you following my nomination by the President. Your support of 
and commitment to the wellbeing of our Nation's veterans and their 
families is praiseworthy and encouraging.
    I am extremely honored to have been nominated by President Trump to 
be the Chairman of the Board of Veterans' Appeals and, if confirmed, I 
will work tirelessly to ensure that the Board provides the fair and 
timely adjudication of appeals that our Nation's veterans and their 
families deserve. I am equally honored by Secretary Shulkin's support 
of my nomination and ability to lead the Board. Additionally, I am 
deeply grateful to have served Veterans as a Veterans Law Judge for the 
last 14 years, having had countless hours of direct interaction with 
Veterans, their dependents and caregivers. I am humbled every time I 
meet with a Veteran and am grateful to have assisted thousands of 
Veterans and families.
    I am joined today by my husband of 31 years, Lieutenant Colonel 
Brett S. Mason, USAF (ret), my college sweetheart and my rock. We share 
small town Ohio perspectives and commitment to service as he is the son 
of Navy Veteran who served in the Korean War. We have 2 wonderful sons. 
Bryan is a senior Mechanical Engineering student at Ohio Northern 
University in Ada, Ohio. Trevor is a high school senior, preparing to 
attend college next year.
    My commitment to those who served this country is deep and 
personal. My father served in the Navy as a Petty Officer, 2nd class 
during World War II. My mother is a retired high school government 
teacher, who through much of the 2000's served as a United States 
Capitol Guide. As a young woman, like many of her generation, she 
worked to support the war effort. She installed oxygen lines in B-17s 
at Wright Field, Ohio while my father served. After losing my father to 
suicide in 1969, my mother raised me by herself in Portsmouth, Ohio. I 
also lost my brother, an Army reservist during the Vietnam era, to 
suicide in 1982. I commend Secretary Shulkin for elevating suicide 
prevention as one of VA's priorities.
    As a result of my father's WWII service and sudden death, I was the 
recipient of VA benefits. Those benefits were critical and provided 
support for me through college. My husband currently receives VA 
service-connected disability compensation and has been repeatedly 
impacted by the backlog of claims and delays. As a result, I understand 
the importance and need for timely resolved appeals of benefits.
    My experiences as a military spouse enhanced my recognition of the 
tremendous sacrifice made by the superb men and women who have 
committed themselves to the defense of this Nation. Additionally, my 
perspective as a VA leader is impacted by my view as a veteran's 
spouse, a veteran's daughter, and a veteran's daughter-in-law. We must 
do better.
    I view service to this Nation, in whatever form, as an obligation 
and honor to be shared by all Americans. Serving in positions as a USAF 
civilian in Europe, Federal Labor Relations Authority attorney, and in 
VA leadership positions from Veterans Law Judge to Deputy Vice 
Chairman, I developed an excellent background including personnel/HR 
oversight, accountability, mission focus, labor issues, budget and 
policy development. I believe my combined work experience and life as a 
veteran's spouse has positioned me well to continue serving Veterans, 
to whom we as a nation owe a great debt. If confirmed, I will ensure 
that in the execution of my responsibilities as Chairman, I will always 
assess my actions and decisions through the lenses of a Veteran's 
dependent.
    Since 1636, when the Pilgrims of the Plymouth Colony decided to 
provide care for disabled soldiers, our country has made care for our 
Veterans a tenent. It is woven into our Nation's very foundation and it 
is the core mission of the VA. To meet this mission, VA must transform 
and modernize to continuously adjust to the needs of Veterans and their 
families. The American people expect it and the Veterans deserve it.
    If confirmed, I will work daily to support VA transformation and 
achieving the vision of President Trump and Secretary Shulkin in 
providing the best service to our nations Veterans and their families. 
I commit that I will work with the dedicated Board staff of Veterans 
Law Judges, attorneys, and administrative professionals, to ensure that 
the Board meets its responsibility to provide correct decisions in a 
timely manner.
    Thank you for your hard work and insight in passing the Veteran 
Appeals and Modernization Act of 2017. Modernizing the VA as discussed 
by Secretary Shulkin in recent testimony, working with Congress, VSO's 
and other stake holders to boldly and aggressively address needs 
highlighted by each of them, will buildupon what President Trump, 
Secretary Shulkin and the Congress have already started to hopefully 
regain the Veteran's trust. In implementing the Veteran Appeals and 
Modernization Act of 2017, I will act to build the Veteran's trust by 
ensuring that the Board meets its obligations to deliver accurate and 
timely decisions in all matters before the Board and to continuously 
find ways to improve and speed the appeals process within the 
Department.
    If confirmed as Chairman, I will bring my experience and commitment 
to work diligently to promote a culture of service to Veterans. 
Integrity and accountability will be core principles of the Board. I 
will expand my existing cooperative relationships with all those 
involved in the adjudication process--the Veterans Service 
Organizations, Veterans Benefits Administration, Veterans Health 
Administration, National Cemetery Administration, State Veterans 
Organizations, Office of the General Counsel, the Court of Appeals for 
Veterans Claims, this Committee and Members of Congress--so the Board 
is focused on effective, efficient, and expedient service to America's 
Veterans.
    This is indeed a great responsibility. I can assure you, Mr. 
Chairman, that if confirmed, I will uphold this trust on behalf of all 
our men and women in uniform and on behalf of all those who have 
served. I, again, want to thank the Committee for the opportunity to 
appear before you. I look forward to answering your questions.

                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [A letter from the Office of Government Ethics follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

 Response to Prehearing Questions Submitted by Hon. Johnny Isakson to 
   Cheryl L. Mason, Nominee to be Chairman of the Board of Veterans' 
     Appeals, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs
    Question 1. How do you assess the tenure of your predecessor as 
Executive in Charge of the Board? If confirmed, how would your tenure 
differ and what will your priorities be?
    Response. The last Chairman retired in February 2011. Since then, 
four Executives in Charge have led the Board. Each of these individuals 
applied his or her own leadership style and ideas to advancing our 
mission of serving Veterans, dependents, and survivors by timely 
adjudicating their appeals. If confirmed, my tenure would differ from 
my predecessors' in both style and substance. I have always led by 
listening. Communication is very important to me. People are important 
to me. I always make time to walk around and speak with staff about 
issues facing the Board. Substantively, my tenure would be defined by 
the recently enacted Veterans Appeals Improvement and Modernization Act 
of 2017. My primary focus will be to implement this law for maximum 
effect. I am committed to the Secretary's priorities and will also 
focus resources on our core mission, modernize systems so we can 
efficiently provide accurate appeals decisions to Veterans, and improve 
timeliness of appeals decisions. A Chairman sets the direction for the 
Board, and during my tenure, the Board's priorities would be to deliver 
accurate decisions to Veterans as rapidly as possible, and prepare our 
Judges, attorneys, and administrative professionals to deliver those 
results.

    Question 2. If confirmed, do you plan to make any changes to the 
makeup and organization of BVA?
    Response. On October 1, 2017, the Board restructured its 
organization to focus on our core mission--to hold hearings and issue 
decisions to Veterans. We realigned our focus using our direct, 
Veteran-facing mission as the guiding principle. The realignment was 
also in line with Presidential Executive Order 13781, and Office of 
Management and Budget (OMB) Memorandum M-17-22. The Board realigned 
from five divisions to three--Appellate Operations, Policy, and 
Resources. If confirmed, I would continue to assess our organizational 
structure and manpower levels, to include in the attorney and Judge 
ranks. I would make adjustments wherever possible to improve our 
ability to deliver results to Veterans, whether they have legacy or new 
process appeals.

    Question 3. If confirmed, what measures would you take to ensure 
that the culture at BVA fosters pro-veteran policies?
    Response. Putting Veterans first is my mission. If confirmed, I 
will assess the Board's work from a Veteran's perspective--working 
backward to ensure the Board delivers results that the Veterans expect 
and deserve. I will work with our Veterans Service Organizations and 
external stakeholders to establish quarterly Veteran panels so that the 
Board hears directly from Veterans and dependents about the issues they 
face. I will be visible at local Veterans events to personally engage 
with Veterans and encourage my staff to do the same as VA Ambassadors. 
The Veterans Appeals Improvement and Modernization Act of 2017 affords 
Veterans more choice in deciding what path to take if they disagree 
with a VA decision. If confirmed as Chairman, I will ensure that Board 
policies are pro-Veteran, to include policies associated with 
implementing this historic legislation.

    Question 4. The Committee has heard from a number of BVA employees 
regarding a toxic work environment at BVA. What do you attribute this 
dissatisfaction to? What steps would you take to resolve these problems 
and restore confidence?
    Response. The last six years at the Board have been marked by 
frequent changes in executive leadership, lack of transparency or clear 
direction, and an unprecedented period of growth and organizational 
realignment. As a result, our employees have experienced a great deal 
of stress and uncertainty. If confirmed, I will bring strength, vision, 
and consistency to the Board. Throughout my career, I have listened to 
and supported those who work with me and for me. I believe that 
effective communication through personal interaction is key.

    Question 5. In order to address the growing number of appeals 
received by BVA, Congress provided increased funding in Fiscal Year 
2017 for BVA to hire additional full-time employees. As noted in the 
VA's budget request for FY 2018, BVA fell short of its original hiring 
goals.
    a. If confirmed, what is your goal for hiring new employees?
    Response. If confirmed, I would continue the Board's plan to 
increase its FTE to 1,050.
    b. What is your plan for ensuring new employees are hired?
    Response. The Department is modernizing its Human Resources (HR) 
function, in part, by moving to a shared services model. As part of 
this initiative, the Veterans Health Administration will begin 
providing H.R. services to the Board on October 1, 2017. Although this 
transition may initially result in some hiring delays, we still expect 
to meet our hiring goal during the second quarter of FY 2018. If 
confirmed, I would continue to work with the Veterans Health 
Administration, while closely monitoring our progress toward our goal.
    c. What is your plan for ensuring adequate office space for new 
employees and current employees?
    Response. If confirmed, I would continue to work closely with VA's 
Office of Acquisition, Logistics, and Construction (OALC) and other 
organizations with office space in our building to identify potential 
additional space at 425 I Street NW. I would continue the Board's 
robust programs for telework and remote work, and would expand these 
programs where possible.
    d. What is your plan for training new employees?
    Response. The best way to improve the accuracy of appeals decisions 
is to enhance the skills and knowledge base of those who produce the 
decisions. The Board's training program for new attorneys combines 
classroom training with assignment of a team of designated mentors to 
work with the new attorney staff. At the three-month point, our Judges 
take over with practical, hands-on training. Our judges are committed 
to mentoring their attorneys, and on the job training continues to be 
an essential part of a new attorney's education. New attorneys are also 
expected to attend refresher training sessions as they near the end of 
their first year. If confirmed, I would continue the Board's existing 
training program for new attorneys, and would continue to assess and 
adjust our training programs based on feedback received from our new 
employees and their Judges, as well as from our Veterans Benefits 
Administration, VA Office of General Counsel, and U.S. Court of Appeals 
for Veterans Claims stakeholders.
    e. Do you believe the employees hired during FY 2017 have been 
trained properly?
    Response. Yes.

    Question 6. In BVA's FY 2016 Annual Report, it estimated that BVA 
would issue 63,200 decisions in FY 2017.
    a. How many decisions have been issued in FY 2017?
    Response. As of September 24, 2017, the Board had issued 50, 064 
decisions in FY 2017.
    b. If confirmed, what productivity goals and standards would you 
establish? Do you have confidence that the goals would place realistic 
expectations on employees while ensuring quality and timely decisions 
for veterans?
    Response. If confirmed, I would assess the productivity standards 
in place at the time to determine whether the Board's productivity 
goals to produce timely accurate decisions for Veterans and their 
families allow for a realistic work-life balance for our employees. I 
would work with our labor partners to find the right balance to 
preserve work life balance for our people while serving as many 
Veterans as possible. Finding this balance requires continual 
assessment and adjustment, and I am committed to doing so.

    Question 7. The Appeals Improvement and Modernization Act of 2017 
(Public Law 115-55) requires a major overhaul of the current appeals 
system in an effort to ensure Veterans receive quality and timely 
decisions on their appeals.
    a. Do you agree to supply the Committee with all information, 
materials and documents as may be requested by the Committee regarding 
the implementation and operation of the new appeals system?
    Response. Yes.
    b. Under the new system BVA is required to maintain at least two 
dockets, what is your plan for the current appeals that are pending a 
hearing at BVA and the implementation of the new dockets required under 
the new law?
    Response. Current appeals would maintain their place on the Board's 
legacy docket. The Board would continue to maximize the use of video 
teleconferencing (VTC) to conduct Board hearings. The Board is still in 
the process of designing its dockets for the new system; however, the 
current proposal under consideration is to establish three dockets to 
handle appeals adjudicated under the new framework. Additional details 
on the Board's dockets in the new system will be provided to Congress 
in the implementation plan required within 90 days of enactment of the 
legislation.

    Question 8. If confirmed, how do you envision collaborating with 
the Office of General Counsel?
    Response. If confirmed, I will continue the Board's established 
relationship with the Office of General Counsel (OGC) wherein the Board 
and OGC collaborate and conduct joint training on topics to include 
ethics, financial disclosure, and appeals modernization.

    Question 9. There have been situations in which a significant issue 
has been under review by the Court of Appeals for Veterans Claims or, 
after appeal from that court, by the Court of Appeals for the Federal 
Circuit. Meanwhile, claims involving the same issue continue to come to 
VA. Do you have any recommendations on how to manage claims that are 
pending a court decision?
    Response. I defer to Veterans Benefits Administration for any 
recommendations as to how to manage claims that are pending a court 
decision. If confirmed, I would maintain the practice in which the 
Board's Litigation Support team is responsible for ensuring all appeals 
returning to the Board from the Court of Appeals for Veterans Claims 
are tracked and handled expeditiously and in compliance with the 
Court's orders.

                                 ______
                                 
Response to Prehearing Questions Submitted by Hon. Jon Tester to Cheryl 
  L. Mason, Nominee to be Chairman of the Board of Veterans' Appeals, 
  Office of Public and Intergovernmental Affairs, U.S. Department of 
                            Veterans Affairs
    Question 10. Please describe your understanding of VA's mission. In 
your response, please describe how you would use the position for which 
you have been nominated to further that mission.
    Response. Our mission, as the Department of Veterans Affairs, is to 
care for those ``who shall have borne the battle'' and for their 
families and survivors. Since 1636, when the Pilgrims of the Plymouth 
Colony decided to provide care for disabled soldiers, our country has 
made care for our Veterans a fundamental tenant of who we are. It is 
woven into the very foundation of our Nation and it is the core mission 
of the VA. To meet this mission, VA must transform and modernize to 
continuously adjust to the needs of Veterans and their families. The 
American people expect it and the Veterans deserve it. If confirmed, I 
would work to support VA transformation and achieving the vision shared 
by the President and Secretary of Veterans Affairs to provide the best 
care and serve to our Nation's Veterans and their families. I commit 
that I would work with our dedicated staff of Veterans Law Judges, 
attorneys, and administrative professionals, to ensure that the Board 
meets its responsibility to provide decisions in a timely manner.

    Question 11. Have you discussed with Secretary Shulkin duties and 
the role you would assume as Chairman of the Board of Veterans' Appeals 
if confirmed? If so, what specific areas of the job were discussed?
    Response. The Secretary and I have discussed his expectations of 
me, were I to be confirmed. We discussed the Chairman's duties and 
roles, and the need for strong leadership, accountability, compassion, 
and consistency at the Board. We also discussed the need for 
modernization and innovation in managing our legacy appeals, as well as 
the implementation of the Veterans Appeals Improvement and 
Modernization Act of 2017.

    Question 12. Why do you seek this position?
    Response. I seek this position to further my commitment of service 
to our Nation and its Veterans by ensuring an effective appeals process 
that provides expedient and correct decisions on Veterans' appeals from 
all three VA Administrations and the VA Office of General Counsel. My 
commitment comes from three different perspectives: First, as a 
recipient of VA benefits due to my father's WWII service and early 
death by suicide and my mother's determination to teach me to honor his 
memory; second, as a military spouse supporting my husband's 20 years 
of military service; and third, from my experience serving as an 
attorney, a judge and a leader at the Board of Veterans' Appeals. 
Living through the impact of suicide on a family taught me to look 
behind what a Veteran presents to the real impact of their service. 
Living on an Air Force base and hearing the roar of the planes taking 
off, watching friends deploy and sometimes not return, and experiencing 
the relocations far from family taught me to quickly assess situations, 
understand the passion of service to this country, and impact when and 
wherever you can. Hearing our Veterans tell of their service, their 
courage, their pain and their needs renews my compassion and commitment 
to making an impact through service. These experiences drive me to lean 
forward into the challenge of meeting those needs and honoring that 
service. I bring deep technical understanding of the issues and 
seasoned leadership skills to this position. My experience with the 
dedicated staff at the Board and the complex systems at work in the 
Veterans appeals context will allow me to effectively lead the Board to 
deliver the results that our Veterans deserve and expect.

    Question 13. Please describe your management style and 
decisionmaking process.
    Response. I seek to build a strong and effective team committed to 
serving Veterans by delivering results through quality and output. I 
believe in leading by example, being approachable, compassionate, and 
advocating for my staff. Open communication, visibility, staff 
engagement, and setting clear expectations are hallmarks of my 
leadership. I value innovation and unique perspectives. I believe in 
professional growth and development of each employee.
    Sometimes a decision requires quick resolution and if so, I will 
act and be accountable for my decision. When there is time before 
reaching a decision, I solicit input both internally and, to the extent 
practicable, from external stakeholders and encourage the voicing of 
dissenting views. I continually assess operations, request feedback and 
will change my approach based on new information, data, and 
discussions. I seek new approaches and opportunities that deliver 
results. I believe in admitting to mistakes and resetting the bar.

    Question 14. If we were to ask current and prior subordinates about 
your management style, what would they say?
    Response. Those who have worked with me describe me as caring, 
fair, communicative, decisive, and open to creative solutions to 
longstanding problems. They would say that I listen, advocate for them, 
and look for opportunities to assist them to develop and grown in their 
profession. They would say I believe in accountability, for myself and 
those around me, and treat everyone with respect.

    Question 15. What do you believe are the most significant 
challenges facing the Board of Veterans' Appeals? Which of these 
challenges will you focus on and how do you intend to address them?
    Response. The most significant challenge for the Board is to 
improve timeliness of appeals. Due to the large inventory of appeals, 
Veterans wait too long for decisions. Thanks to Congress' insight and 
understanding, the Veterans Appeals Improvement and Modernization Act 
of 2017 became law in August 2017. If I am confirmed, implementing this 
law to maximum benefit for the Veteran will be my primary focus. To 
deliver results, the Board must also modernize systems to enable staff 
to provide legally correct decisions to Veterans in an expedient 
manner. The Board is working closely with Digital Service VA to 
implement improvements in technology.

    Question 16. Last year, VA convened an ``Appeals Summit'' with 
Veterans Service Organizations (VSOs) to discuss reforming VA's appeals 
process. The Veterans Appeals Improvement and Modernization Act of 2017 
(P.L. 115--55), which was signed into law recently, is the product of 
collaboration among VSOs, experts in the appeals process, VA, and 
Congress. Given the significant role that VSOs played in crafting the 
framework that's embodied in Public Law 115--55, how do you plan to 
work with VSOs in implementing this law?
    Response. If confirmed, I would continue to work closely and 
collaboratively with the Veterans Service Organizations and other 
Veteran representatives. VA should continue to collaborate with the 
stakeholders who participated in the March 2016 Appeals Summit, 
specifically, the American Legion, American Veterans, Disabled American 
Veterans, the Military Officers Association of America, the National 
Association of County Veterans Service Officers, the National 
Association of State Directors of Veterans Affairs, Paralyzed Veterans 
of America, Veterans of Foreign Wars, Vietnam Veterans of America, the 
National Organization of Veterans' Advocates, and the National Veterans 
Legal Services Program. If confirmed, I would continue to work with 
Veterans' advocates and stakeholders throughout the implementation 
phase of appeals reform, and am committed to ongoing engagement during 
the implementation phase of appeals reform, to the extent allowed by 
law. I look forward to continuing the strong relationships with the 
Veterans Service Organizations to serve Veterans, their families and 
survivors.

    Question 17. VA recently proposed a pilot, the Rapid Appeals 
Modernization Program (RAMP), to implement Public Law 115--55. Under 
the proposed RAMP initiative, a veteran with an appeal before the Board 
would be allowed to have their claim decided at a VA Regional Office 
(RO), either under the supplemental claim lane or the higher-level 
review lane. To what extent were you involved in the creation of the 
RAMP initiative?
    Response. I was not involved in the creation of the RAMP 
initiative.

    Question 18. A portion of the Board of Veterans' Appeals workforce 
is part of a bargaining unit. What experience do you have working with 
labor partners and how would you approach this relationship with the 
Board of Veterans' Appeals labor partners should you be confirmed?
    Response. As a Board leader, I have extensive experience working 
with the Board's labor partners. In fact, I supervised both the past 
bargaining unit president and the national second vice president. My 
interactions with VA labor partners have always been professional and 
respectful. As a former attorney at the Federal Labor Relations 
Authority, I have seen the impact of poor relationships between 
management and labor on an organization and ultimately on their 
mission. These experiences have taught me the importance of listening 
and understanding all perspectives. If confirmed, I would work to 
rebuild trust and an open, communicative relationship with our labor 
partners to ensure the Board delivers outstanding service to Veterans 
while preserving a good work-life balance for our employees.

    Question 19. On September 18, 2017, the President of the Board's 
bargaining unit sent a letter (attached) to Secretary Shulkin and the 
Senate Veterans' Affairs Committee expressing a loss of confidence in 
the Board's current leadership and alleging gross mismanagement and 
waste of government resources at the Board. About a hundred of the 
Board attorneys signed the letter. Please discuss the three major 
allegations raised in the letter.
    Response. The Board's 963 employees include 95 Veterans Law Judges, 
approximately 700 attorneys, and approximately 120 administrative 
professional staff. AFGE Local 17 represents the attorneys and 
administrative professionals. It is my understanding that around 100 
employees signed this letter.
    The September 18, 2017, letter alleges that Board management: plans 
to eliminate de novo review; failed to adequately train hundreds of new 
attorneys; and refused to provide necessary systems and equipment. I 
will address each allegation in turn.
    On the first allegation regarding de novo review, the Board 
conducts a de novo review of each case, meaning it considers all of the 
evidence independently, without deference to the rationale of the 
decision being challenged. This is not going to change. The letter 
states that higher productivity standards will result in an inability 
to perform de novo review. This is not the case.
    By way of context, approximately 155,000 Veterans are already 
waiting for a Board decision, and the Board receives around 90,000 new 
appeals every year. If the Board continues on its current path, the 
Board will not be able to keep up with demand. The Board will finish FY 
2017 with approximately 52,800 decisions for Veterans, which is 10,200 
fewer than our organizational goal and less than the Board produced in 
FY 2014 and FY 2015, when the Board attorney staff was smaller.
    For more than a decade, each attorney at the Board was required to 
produce 156 credits per year. Credits did not equal decisions. A credit 
is not a decision, but rather a set amount of points that an attorney 
must accrue to be fully successful. The points are based, in part, on 
raft decisions prepared by Board attorneys. Each draft decision equals 
a number of points, which are based on the complexity of the decision 
and the evidence file.
    In the fall of 2016, the Board worked with our union partners and 
implemented a system with no productivity requirement for our 
attorneys. In the first quarter of FY 2017, we lost 4,000 decisions 
compared to the year before--and that was not acceptable. Board 
attorneys and management both asked to bring back productivity, and the 
Board went back to the bargaining table with the union. In 
January 2017, the Board implemented different productivity standards, 
which among other things, adjusted for time off. Under this standard, 
after holidays and leave were deducted, each attorney was asked for an 
average of two cases per week. We saw improvement in the number of 
Veterans served, but we are still not where we need to be.
    The Board began working with the union in August 2017 to again 
adjust the standard. In FY 2018, the Board will ask attorneys to 
prepare one additional case per week: a total of three cases, instead 
of two per week. This standard is attainable, as evidenced by the fact 
that 98-99% of Board attorneys met or exceeded a similar standard from 
FY 2012-2015 and because the average case takes 8 to 10 hours to 
perform de novo review and prepare a draft decision.
    If confirmed, I commit to working with our union partners to make 
adjustments to preserve work-life balance for our people while serving 
as many Veterans as we can. . People are very important to me, and I 
care about the almost 1,000 people who work with me at the Board. But I 
also care about the almost 155,000 Veterans and their families who are 
waiting for a decision, many of whom will wait for years.
    On the second allegation regarding new attorney training, the Board 
has always had a robust training program. Veterans' benefits law is 
extremely complex, and we expect that our attorneys will not be fully 
up to speed and productive for 12 to 18 months. Over the past 20 years, 
the Board has re-engineered our training programs based on the need and 
size of our hiring. During the periods when the Board hired to fill 
direct vacancies, the Board used a single mentor per new attorney. In 
the early 1990's when the Board hired a large number of attorneys, the 
Board had classroom training program with mentors assigned at the end 
of the training. Thereafter, the Board returned to variations of the 
single mentor program until 2016 and the onboarding of more than 300 
attorneys.
    The Board's training program for new attorneys combines classroom 
training with assignment of a team of designated mentors to work with 
the new attorney staff. At the three-month point, our judges take over 
with practical, hands-on training. Our judges are committed to 
mentoring their attorneys, and on the job training continues to be an 
essential part of a new attorney's education. New attorneys are also 
expected to attend refresher training sessions as they near the end of 
their first year. If confirmed, I would continue the Board's existing 
training program for new attorneys, and would continue to assess and 
adjust our training programs based on feedback received from our new 
employees and their judges, as well as from our Veterans Benefits 
Administration (VBA), VA Office of General Counsel, and U.S. Court of 
Appeals for Veterans Claims stakeholders.
    The third allegation was on providing attorneys the space and 
equipment they need. The Board cannot accomplish its mission without 
its employees, and has and continues to provide them the things they 
need to do their jobs.
    The Board is grateful for the additional resources Congress 
provided in FY 2017, which allowed the Board to increase its attorney 
staff. To accommodate the resulting increase in personnel, the Board 
immediately began converting areas previously used for case storage for 
use as hoteling spaces for teleworkers. To keep up with the rapid pace 
of onboarding in the fall of 2016, the Board temporarily utilized all 
available conference space as a short term remedy, and worked with our 
VA partners to identify short-term space in the building. To further 
address space challenges, the Board expanded its highly successful 
telework program and offered remote work to all the eligible attorney 
staff. The Board also worked with our VBA partners to temporarily open 
a satellite office space at 1722 I Street to be used as a touchdown 
space for a small number of experienced attorneys who already 
teleworked. The Board continually communicated with the union during 
this process. The facility at 1722 I Street is a secure office building 
which houses many components of VBA, and the Board personnel were 
directed to follow VBA policy for handling personally identifiable 
information (PII) and protected health information (PHI) at that 
location. As 95% percent of the Board's casework is now digital, few 
documents containing PII or PHI should be generated. At 1722 I Street, 
VBA has a specific location where all PII and PHI is destroyed.
    If confirmed, I would continue to work closely with VA Office of 
Acquisition, Logistics, and Construction (OALC) and other organizations 
to identify potential additional space for the Board and its employees. 
I would continue the Board's robust programs for telework and remote 
work, and would expand these programs where possible.

    Question 20. What role do you envision for the Board of Veterans' 
Appeals in using technology to aid in the timeliness and accuracy of 
appeals?
    Response. If confirmed, I am committed to modernizing appeals 
processing technology to optimize efficiency to best serve Veterans and 
their families. I would continue to leverage industry best practices 
and Human Centered Design principles to aid Board staff to meet the 
mission of provide timely accurate decisions to Veterans and their 
families. I anticipate continuing to collaborate with Digital Service 
at VA leading the technical approach to modernize appeals systems. 
Current applications, applications under development, and applications 
being designed have great potential to improve the Board's ability to 
deliver timely and accurate decisions to Veteran to include improving 
the Board's interface with VBMS, provide automated processes to include 
hearing scheduling. If confirmed, I pledge to continue to enhance the 
technology at the Board to assist the Board employees to deliver 
accurate decisions in an expedient manner.

    Question 21. How long do you think a veteran should have to wait 
for an accurate decision on an appeal? What ideas do you have to 
improve the timeliness of appeals decisions?
    Response. I believe that every Veteran should receive an accurate 
decision on appeal as quickly as possible. It currently takes too long 
for Veterans to receive a decision on appeal. The current system of 
laws and regulations contain requirements that impact that timeframe. 
With the enactment and implementation of the Veterans Appeals 
Improvement and Modernization Act of 2017, I am confident that the time 
a Veteran waits for an accurate decision on appeal will be 
significantly reduced.
    If confirmed, I plan to focus all resources to decide as many of 
the legacy appeals as possible while maintaining good work-life balance 
for the employees. I intend to assess the Board's current decades old 
workflow processes from a Veteran's perspective and look for re-
engineering opportunities for delivering decisions on appeal on a real-
time basis. If confirmed, I also plan to implement a revised decision 
format to update the 2 decades old current decision format to provide a 
Veteran focused decision.

    Question 22. Provide an estimate on how long it will take the Board 
to resolve the legacy appeals pending before the Board. Please include 
all the data and assumptions you use to answer this question.
    Response. If confirmed, I pledge to address the legacy appeals 
inventory as quickly and efficiently as possible. Currently, there are 
approximately 470,000 appeals in the VA system and due to the nature of 
the complex, inefficient and outdated legacy process, VA projects that 
there could be an inventory of legacy appeals for several years. If 
confirmed, I intend to assess decision output and devote resources 
required to maintain timely processing of the legacy appeals. The goal 
is to eliminate the inventory of legacy appeals in a timely manner 
following enactment of the appeals modernization legislation, while 
also maintaining timely processing in the new process.

    Question 23. In your opinion, is the Department's Fiscal Year 2018 
budget request, which anticipates supporting 1050 FTE, sufficient to 
support workload requirements at the Board of Veterans' Appeals?
    Response. Congress has been generous in providing the Board with 
funding to support the Board's mission, and Board is grateful for the 
support. If confirmed, I am committed to utilizing the current 
resources to impact and deliver timely decisions to Veterans and their 
families. As the Board moves to implement Veterans Appeals Improvement 
and Modernization Act of 2017, we will continue to assess our funding 
for workload requirements. Whether the Board will need additional 
resources for appeals after implementation of the Veterans Appeals 
Improvement and Modernization Act of 2017 is contingent upon resource 
allocation decisions made by the Department and the Administration 
during the annual budget process.

    Question 24. What is your vision for employee training at the Board 
of Veterans' Appeals? What ideas do you have to improve the accuracy of 
appeals decisions?
    Response. If confirmed, I would ensure that the robust Board 
training program continues to offer training activities appropriate to 
employees' diverse needs at every level. I would continue to develop a 
trainee corps with the advice and participation of the judges and 
senior attorneys to quickly and effectively develop a consistent level 
of subject matter expertise and excellent case management skills. Next, 
I would develop systematic in-service training programs for existing 
attorneys to upgrade skills, encourage career development, and develop 
our next generation of leaders and judges. To enhance judicial 
management and cultivate outstanding decisionmaking, I would partner 
with the National Judicial College to bring the judges all the tools 
they need. Finally, those who perform administrative and technical 
functions who need opportunities to develop skills and learn about the 
fast-changing technological environment and master new ways of doing 
business.
    If confirmed, I will continue to evaluate ways to improve the 
accuracy of appeals decisions utilizing available data. In FY 2017, the 
Board's Quality Assurance team developed a data-centric approach to 
improving quality of appellate decisions which allows the Judges to 
obtain data related to their decisions. If confirmed, I anticipate 
monthly briefings from QA to the Board Judges regarding this data. 
Additionally, to assess and improve accuracy of Board appeals 
decisions, Quality Assurance team will also be implementing a 
modernized QA Case Review Process at the start of FY 2018, which will 
begin reviewing a statistically significant percentage of Board 
decisions for specific types of errors.

    Question 25. There are reports that the Administration, through 
their Office of General Counsel, has ordered agencies to not provide 
responses to Democrats' information requests. If you were to receive 
such an order, what would you do? Have you participated in or been 
aware of any communications where this topic was discussed? Please 
provide details on the participants in this discussion, the substance 
of the discussion, and any outcomes.
    Response. VA's longstanding practice has been to respond to 
information requests from Congress. I am not aware of any such orders 
not to respond to minority party members and it is my intent to respond 
to all requests from Congress independent of the party of the 
requester.

                                 ______
                                 
   Response to Posthearing Questions Submitted by Hon. Jon Tester to 
   Cheryl L. Mason, Nominee to be Chairman of the Board of Veterans' 
     Appeals, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs
    Question 1. If confirmed, will you commit to providing this 
Committee with a detailed plan on how the Board intends to keep up with 
demand and resolve the pending inventory within 60 days of 
confirmation?
    Response. Yes.

    Question 2. I believe you have a very real morale problem at the 
Board.
    a. In your view, what are some of the factors driving poor morale?
    Response. Without a Chairman, the last 6.5 years at the Board have 
been marked by frequent changes in executive leadership, lack of 
transparency and communication, and an unprecedented period of growth 
and organizational realignment. As a result, Board employees have 
experienced a great deal of stress, uncertainty, and lack of clear 
direction resulting in poor morale.
    If confirmed, I would bring leadership, vision, and consistency to 
the Board. The Board staff and I share a strong commitment to the 
mission of serving Veterans and, if confirmed, I would place even 
greater emphasis on the importance of our shared commitment to meeting 
that mission. I would work to improve morale by creating an environment 
that fosters having pride in one's work and understanding the positive 
impact our work has on those we serve.
    b. What specific actions will you take, if confirmed, that will 
address concerns of employees?
    Response. If confirmed, I would work to rebuild trust and an open, 
communicative relationship with Board staff and our Union partners to 
address these issues. I am committed to listening and understanding all 
perspectives. Open communication, visibility, and staff engagement are 
hallmarks of my leadership style. I believe that, through open channels 
of communication and personal interaction, I am best able to understand 
and address the concerns of employees through regular small focus group 
meetings to encourage participation by all.
    If confirmed, I would continue to evaluate the attorneys' 
performance standard and would work with our Union partners to preserve 
work life balance for our staff while serving as many Veterans as we 
can. I would continue to work closely with VA Offices responsible for 
such space designs to identify potential additional space at 425 I 
Street NW. I would continue the Board's robust programs for telework 
and remote work, and would expand these programs where possible.
    To ensure our employees are equipped to serve Veterans, I would 
continue the Board's existing training program for both current staff 
and new attorneys. I would continue to assess and adjust our attorney 
training programs based on feedback received from our new employees and 
the Judges, as well as from our Veterans Benefits Administration, VA 
Office of General Counsel, and U.S. Court of Appeals for Veterans 
Claims stakeholders.
    c. Will you commit to providing this Committee a timeline, within 
60 days of confirmation, for when you will undertake those specific 
actions and then let the Committee know when they've been completed?
    Response. Yes.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
 to Cheryl L. Mason, Nominee to be Chairman of the Board of Veterans' 
     Appeals, Office of Public and Intergovernmental Affairs, U.S. 
                     Department of Veterans Affairs
    Question 3. On September 18th, the President of the Board's 
bargaining unit sent a letter (letter included behind questions) to 
Secretary Shulkin and the Senate Veterans' Affairs Committee expressing 
a loss of confidence in the Board's current leadership and alleging 
gross mismanagement and waste of government resources at the Board. 
About a hundred of the Board's attorneys signed the letter. The letter 
lists three major complaints against the leadership--one of which is 
failure to properly train 300 new attorneys hired by the Department.
    a. The attorneys who work on these cases must be equipped to handle 
complex and complicated cases and veterans rely on the counsel they 
receive. Do you agree that hiring 300 new attorneys is an incomplete 
solution if these new hires receive inadequate training?
    Response. Our Veterans Law Judges play a key part in training our 
new attorneys, and their decisional output is a key indicator that our 
training is effective. A judge's decisional output decreases as he or 
she spends time ensuring our newest attorneys learn to prepare legally 
correct draft decisions for signature. If our attorneys are better 
prepared during formal training, they require less mentorship from our 
judges, who are then able to sign more decisions.
    The Board's decisional output increased significantly in July, 
August, and September as our new attorneys began producing draft 
decisions for review and signature by the Veterans Law Judges. This 
strongly indicates that our attorneys are being trained effectively.
    Attorney retention is also a key indicator as to whether our 
training is effective. As of October 3, 2017, only 16 of the more than 
320 new attorneys hired in FY 2017 had left the Board, which, at around 
5 percent, is well below the Department's average attrition rate of 
around 9 percent.
    If confirmed, I will continue to assess and adjust our training 
program to ensure our attorneys receive correct and adequate training 
to ensure they can prepare legally correct draft decisions for Veterans 
Law Judges to ensure that the Board will meet its mission of issuing 
timely, quality decisions to Veterans.
    b. As you are aware, 100 attorneys signed a letter expressing 
concern that new attorneys are unable to draft legally sufficient 
decisions and are receiving virtually no training. Do you believe the 
new training program for the recently hired attorneys is effective in 
comparison to the single mentor program that it replaced? How do you 
plan to address the concerns raised in this letter given that so many 
of those involved with the Board signed it?
    Response. The fact that 10 percent of the Board's employees signed 
this letter shows that the Board faces serious issues which must be 
resolved. If confirmed, I would work to rebuild trust and an open, 
communicative relationship with Board staff and our Union partners to 
address these issues.
    Specifically, if confirmed, I would continue to evaluate the 
attorneys' performance standard and would work with our Union partners 
to preserve work life balance for our staff while serving as many 
Veterans as we can. I would continue to work closely with VA Office of 
Acquisition, Logistics, and Construction and other VA offices with 
office space in our building to identify potential additional space at 
425 I Street NW. I would continue the Board's robust programs for 
telework and remote work, and would expand these programs where 
possible.
    The current training program for new attorneys combines classroom 
training with assignment of a team of designated mentors assigned to 
work with the new attorney staff. At the three-month point, our judges 
take over with practical, hands-on training. Our judges are committed 
to mentoring their attorneys, and on the job training continues to be 
an essential part of a new attorney's education.
    The Board has re-designed its training programs several times in 
the last 20 years, and did so again in FY 2017. The Board was doubling 
its attorney corps by onboarding over 300 attorneys, and single 
mentoring would have had a significant impact on the Board's ability to 
issue decisions to Veterans.
    In early FY 2017, the Board tested several training approaches and 
determined that establishing a dedicated corps of experienced attorney 
mentors was more effective than assigning individual mentors. This was 
true because it maximized utilization of each mentor's time, e.g. by 
allowing group discussions where appropriate, as well as the Board's 
ability to standardize the substance and approach of mentor training to 
promote best practices across the organization. Shifting to a shared 
mentor approach also minimized the impact of time spent on mentorship 
activities on decisional output, by permitting hundreds of counsel who 
would have been mentoring new attorneys to continue their work as 
decision writers.
    If confirmed, I would continue the Board's existing training 
program for new attorneys, which has proven effective, as discussed 
above. I would continue to assess and adjust our training programs 
based on feedback received from our new employees and the Judges, as 
well as from our Veterans Benefits Administration, VA Office of General 
Counsel, and U.S. Court of Appeals for Veterans Claims stakeholders.
    c. Furthermore, this letter states that the Board has yet to 
release information on the number of new attorneys who have left the 
Board--either voluntarily or involuntarily. If you are confirmed, do 
you commit to providing this Committee with this information 
expeditiously along with a plan for how you intend to address retention 
issues?
    Response. Yes. As reported to Committee staff on October 3, 2017, 
of the 320 attorneys hired by the Board since September 2016, 16 
attorneys have voluntarily left the Board.

    Question 4. Veterans Appeals Improvement and Modernization Act of 
2017
    The appeals volume at the Board of Veterans' Appeals has increased 
with the recent increase in claims decisions. In my office alone, there 
are 52 veterans that have pending appeals cases. I am proud to have 
worked with Chairman Isakson and my democratic and republican 
colleagues on the Veterans Appeals Improvement and Modernization Act of 
2017, which as you know, was signed into law on August 23rd. This 
bipartisan reform will usher in a new era of transparency and 
communication for veterans and their families--ensuring veterans are no 
longer bogged down by a cumbersome process that denies fair and just 
consideration of their appeal.
    a. This legislation will take approximately 18 months to implement. 
What will you do to streamline the processing of appeals currently 
pending within the Board of Veterans Appeals to allow this new 
legislation to be implemented smoothly?
    Response. Thank you for working to pass this historic act. If 
confirmed, I am committed to implementing the recently enacted 
legislation for maximum effect. The Board has been preparing to 
implement this new legislation since before enactment. An important 
part of implementing the new law is addressing as many legacy appeals 
as possible during the 18-month implementation period, and the Board is 
committed to doing that.
    If confirmed, I would continue to work with the Veterans Benefits 
Administration (VBA) and our Veterans Service Organization (VSO) 
partners as we work to resolve legacy appeals, to include via opt-ins 
in the legislation and VBA's Rapid Appeals Modernization Program (RAMP) 
initiative, which I believe will directly impact legacy appeals and 
provide early resolution to Veterans.
    If confirmed, I would work closely with Digital Service VA to drive 
earlier implementation of improvements in technology to provide tools 
to the staff, such as Caseflow reader. I intend to issue a new decision 
template, which will provide streamlined and understandable decisions 
to Veterans and will allow for more efficient drafting of decisions. I 
would also explore opportunities to streamline decisions to Veterans 
through specialization of the attorney staff, triaging within the 
regulations guidelines, and case review process improvements. I would 
also continue the Board's ongoing work to focus more of the Board's 
resources on our direct Veteran-facing mission of issuing decisions to 
Veterans.
    b. What will you do, should you be made Chairman, to make board 
hearings more readily available?
    Response. The Board is committed to its mission of holding hearings 
and deciding appeals. If confirmed, I would continue to encourage more 
widespread use of video teleconference hearings, and pledge to explore 
technological enhancements that could add efficiency to our hearing 
processes. Additionally, in FY 2018, the Board plans to provide over 
25,000 hearing opportunities to Veterans waiting for a Board hearing 
and will continue to assess whether additional hearings can be added 
throughout the year. If confirmed, I plan to work with VBA and VHA 
leadership and Digital Service VA as well as our VSO and Veteran 
representative communities to explore expanding video hearing 
opportunities to Veterans.

    Chairman Isakson. Well, thank you very much, Ms. Mason, and 
thank you very much on your openness on the suicide experience 
with your father and your brother. As you know, part of what we 
focused on in our last meeting here was the Secretary's desire 
for us to all become more open about that subject and do 
everything we can to prevent suicide. It seems the only way we 
can do that is when all of us are willing to be forthcoming 
with our experiences. Thank you very much for doing that.
    Veterans' appeals. You acknowledged the legislation that we 
just passed. Do you believe you have the tools with that 
legislation to expedite and clean up the legacy appeals that 
exist before them today?
    Ms. Mason. Yes. Thank you for that question, Mr. Chairman. 
Yes, I do. The Board is preparing--has been preparing, since 
before your passage of the Act, to implement the new framework, 
and in that, part of that preparation is working with our 
partners at Veterans Benefits Administration to implement the 
opt-ins that are created in the law. We believe that those will 
directly impact the legacy cases and provide early resolution 
for those veterans.
    Additionally, the Rapid Appeals Modernization Program 
(RAMP) initiative that Veterans Benefits Administration is 
planning to roll out in joint preparation with the Board later 
this month will also impact those. We believe that the 
resources at the Board are currently strong enough to support 
both frameworks, both working the legacy appeals and the new 
framework appeals.
    Chairman Isakson. I am glad to hear that answer and I think 
Senator Tester would agree with me. The most important thing we 
can hear in this Committee is that we improve our appeals 
process and get that problem straightened out, and I think you 
are the type of person that can do that.
    Ms. Glynn, you were at PricewaterhouseCoopers. Is that 
right?
    Ms. Glynn. Yes, I was.
    Chairman Isakson. Enterprise integration is a PwC term. You 
know, they come and evaluate your company and say you need more 
of this and you are trying to figure out what it means. What 
does it mean at the VA?
    Ms. Glynn. Well, that is a good question. Thank you very 
much for asking, because I think it is not transparent. I 
appreciate that.
    I have a standard answer and I will tell you what I think 
the answer is, effectively. It is the many years--it is a very 
large and complex agency, as you all know, and the Office of 
Enterprise Integration was really designed to provide a 
mechanism to bring together all of those management functions 
across the agency. In that function, there are many, many 
capabilities to deal with performance management, risk 
management, setting the agency strategic plan, measuring that 
strategic plan.
    Also included is the Joint Executive Committee for the VA/
DOD interaction policy office, data governance and analytics, 
as well as the modernization function that is charged with 
oversight for enterprise initiatives, including the initiative 
you just asked Ms. Mason about, to verify, validate, and make 
sure that those are delivered per their proposed 
specifications, the outcomes that are achieved, and they are 
delivered on time and on budget.
    Chairman Isakson. Well, I hope--I think the VA is the 
second-largest employer in the Federal Government, if I am not 
mistaken. You have got a huge, monolithic organization that 
needs all the integration and cooperation and implementation it 
can possibly get. I hope you are able to make that happen, 
because it would be an important function for them to do. We 
appreciate you taking on that responsibility.
    Senator Tester.

               HON. JON TESTER, RANKING MEMBER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I will kick it over to Senator Hirono. I 
may submit my statement for the record and wait until last for 
questions.
    Chairman Isakson. Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you very much, Senator Tester.
    This is for Ms. Mason. How many attorneys are there at the 
Veterans' Appeals Board?
    Ms. Mason. Currently we have approximately 700 attorneys.
    Senator Hirono. And you have a backlog of about 150,000 
cases. I know that you are aware that there is a move to 
increase the number of cases that each attorney is supposed to 
complete, from 125 cases annually to 169 cases. If my math is 
correct you have 700 lawyers. That gets you to 118,000 cases 
that would be completed once this new standard is implemented. 
Is that how you all came up with a number of cases that each 
lawyer should complete?
    Ms. Mason. The evaluation for determining the attorney 
productivity has been in progress for the past--for all of 
fiscal year 2017, and we started off fiscal year 2018, you are 
correct, with a response--a request to our attorneys to do an 
extra case per week.
    The productivity standard we currently have in place that 
asks our attorneys for 169 a year also allows for deduction of 
leave and holiday time factored in. Based on the data that we 
have from previous years, we expect that, actually, the 
attorneys will be producing approximately 144 decisions per 
person this year.
    Senator Hirono. Do you use paralegals?
    Ms. Mason. We do not at this time.
    Senator Hirono. Since not all the appeals are as complex, 
they are not all equal, would you consider using paralegals to 
address some of the backlog and get rid of some of the so-
called easier cases?
    Ms. Mason. Thank you for that question. That is actually 
one of the areas that I am looking at as re-engineering the 
Board's processes, and figuring out where we can get some 
impact to those less-complex cases. So, yes, that is something 
that I, if confirmed, would look at.
    Senator Hirono. I think it makes a lot of sense, with a 
150,000-case backlog, to basically triage the kind of cases 
that you have and move things along. It is the workload for 
your lawyers, because they are unionized, is that a subject of 
negotiations with the union?
    Ms. Mason. It is. This past year we have sat down at the 
table with our union partners several times. At the beginning 
of fiscal year 2017, we sat down and agreed to a non-
productivity standard, at their request. We tried that for one 
quarter and we lost approximately 4,000 cases, so we 
implemented a lesser standard than we had before. We routinely 
sit down and speak with them and assess how that is doing, get 
feedback from our union partners on how that is going.
    If confirmed, I would continue to do that going forward. I 
think it is very important to have a strong, open, 
communicative relationship with our labor partners.
    Senator Hirono. As far as the performance standard and the 
number of cases each attorney is supposed to handle every year, 
that would be something that you would work out with your union 
representatives.
    Ms. Mason. Absolutely. Thank you for the question. That is 
an area that we always must assess continually, to gain the 
appropriate work-life balance while we are ensuring that we are 
serving veterans to the best of our ability.
    Senator Hirono. The Congress passed a benefits package for 
the Filipino World War II veterans and we are losing them by 
the day. There were some 18,000 claims have been approved and 
24,000 were denied. Can you just briefly say why these claims 
from the Filipino World War II veterans were denied?
    Ms. Mason. Thank you for that question, ma'am. I would have 
to look very closely at those cases, and I am happy to do that 
and get a response to you. We do have an excellent Office of 
Quality Assurance who can assess that very quickly for us and I 
can get a response to you.
    Senator Hirono. Thank you. I am running out of time. For 
Ms. Glynn, Senators and I have been working with the VA and 
stakeholders on a bill called the VETS Act, which allows for 
basically telemedicine. Can you share your assessment of the 
VA's use of telemedicine, because we were told that you did not 
need the legislation; you have the authority to go ahead and do 
this, which is really great. Can you tell me how things are 
going? Or once you get confirmed.
    Ms. Glynn. If confirmed, I would be able to assess the 
progress on that, but at this point I would have to look into 
it more.
    Senator Hirono. Put that in your----
    Ms. Glynn. Thank you.
    Senator Hirono. Thank you very much, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman. I would like to 
follow up a little bit more with the direction that Senator 
Hirono was going with regard to the claims backlog. With 
150,000 claims in the backlog, 700 attorneys working on it, I 
am just curious, do you know right now what the average number 
of new claims coming through is that we are processing?
    Ms. Mason. I would have to--thank you for that question, 
sir. I would have to check with our--my partners at Veterans' 
Benefits Administration, but I believe that we receive 
approximately 1.4 million claims per year. Of that amount, 
approximately 13 percent are appealed to the Board of Veterans' 
Appeals.
    Senator Rounds. Right now, if that runs, it means that if 
you were looking at it on a chronologic--and I recognize that 
some of these are a lot older--but you have got basically a 
year's backlog of work, in terms of it would constantly be 1 
year behind, based on the current plan. Fair--am I--I know that 
some of these are considerably older than that and some of them 
are newer than that. Basically, that is one way to analyze it, 
is you have got a year's worth of work in the backlog.
    Ms. Mason. Yes, that is one way to analyze it, sir. That is 
correct.
    Senator Rounds. OK. You have worked in this for some time. 
I mean, your background is there. If there was one thing that 
this Committee could do to help you, in terms of the backlog, 
and in terms of a more appropriate and reasonable expectation 
of veterans to have their claims heard, and if there are 
misunderstandings, their claims to be expedited in terms of a 
response, what would it be? Is there something more that we 
should be looking at besides what we have already been able to 
do with our legislation that we passed this year?
    Ms. Mason. Thank you. Thank you for the opportunity to 
address that, Senator. You know, the Veterans Appeals Act, the 
historic legislation that you passed this year, I think will 
have a great impact. We are in the process of implementation 
for that, and so we do not yet have the numbers of how that is 
going to impact our legacy appeals.
    One area that the Board is working on preparing for the 
future that could possibly be of some assistance is our docket 
legislation for the current legacy appeals. The Board must work 
those cases in docket order, and that does restrain us somewhat 
to get to the triaging aspect that Senator Hirono was asking 
about previously.
    Senator Rounds. I would just like to follow up with that, 
because that is kind of where I was going. The issue of triage 
seems to me to be an important one and a factor that needs to 
be brought into this discussion. Do you feel that there may 
very well need to be more work done with regard to allowing the 
triage process to, more appropriately at an earlier stage, 
separate out those which are easier to assess versus those that 
are not? Is there something more that you are seeing that we 
might have to do?
    Ms. Mason. Thank you, sir. If confirmed, I am going to 
assess that very closely and will determine whether there is 
something there further. I have been in the system for a while, 
as you noted, and I do think that there is possibly more room 
there for action. At this point, until I assess it more 
closely, I really cannot directly respond, but I am happy to 
follow up with you, sir.
    Senator Rounds. Thank you. Mr. Reeves, you have a 
background which includes a lot of work at the State level. I 
appreciated the opportunity to visit with you and to learn 
about your interest in providing services, in particular.
    I just want to go back in and talk a little bit about, like 
in South Dakota right now, we have got a group that is very 
interested, in the eastern part of our State--we are 400 miles 
wide and 200 miles north to south. We have got the Black Hills 
National Cemetery, located near Sturgis, SD, in the very far 
western part of the State. But there are some local 
stakeholders in the eastern part of South Dakota who are 
interested in partnering with the VA in order to establish a 
cemetery in the eastern part of South Dakota.
    What are some of the VA's resources or programs that could 
be available for them? I know that you have got a background on 
it and so forth, so let me just give you an opportunity to 
share a little bit of that knowledge with the Committee, in a 
case like this.
    Mr. Reeves. In a case like what you described, Senator, the 
Veterans Cemetery Grants Program is a possible avenue to--you 
know, for local communities and States to be able to pursue. 
Also, I have a little bit of knowledge in terms of the rural 
health--I am sorry, Rural Burial Initiative, and I call it 
that. I think NCA calls it something a little bit different. It 
allows the establishment of burial grounds in remote locations 
or locations where we have what I would call pockets of 
veterans that have to travel long distances.
    One of the things, if confirmed, that I would like to 
really look at is our methodology as to how we determine where 
those veterans are and how we reach out to them.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Brown, we have someone from Ohio on the panel.

           HON. SHERROD BROWN, U.S. SENATOR FROM OHIO

    Senator Brown. I appreciate that. We have already met and 
had good conservation, so thank you. Senator Tester, thank you.
    Ms. Mason, thank you. I enjoyed the conversation with you 
in my office last week or so. Talk about the Board's decision 
to switch from credits to cases, what that means.
    Ms. Mason. The approximately--about a year and a half ago, 
the Board switched from tracking cases by credits, which was a 
formation of decisions and decision remands to decisions, 
because that is what our output is measured, on our oversight, 
and that is really what the veterans are waiting for is those 
decisions. The credits did not accurately reflect the amount of 
decisions that were presented by the attorneys.
    Senator Brown. OK. I want to explore a little bit more, 
from Senator Hirono and Senators Rounds question, too, on the 
backlog. In your pre-hearing questionnaire you said it takes 8 
to 10 hours to do a de novo review of a case and then draft a 
decision. Is that the average for simple appeals or complex 
appeals, or sort of all of them?
    Ms. Mason. That is an average. Thank you for the question, 
Senator Brown. That is an average based on the experience level 
of the attorney as well as the case. A more senior attorney 
might work a simple case quicker than that, but for the regular 
type of case that they would receive, at their grade level that 
is an approximate average.
    Senator Brown. Do you have lawyers in place that you sort 
all--would they always--are they always assigned complex cases 
to? Do some lawyers specialize in just complex cases or it is 
more random than that?
    Ms. Mason. Thank you for the opportunity to respond to that 
question, Senator Brown. Currently we assign the cases across 
our attorney core, depending on the grade of the attorney. The 
judges do direct assignments to their attorneys. If confirmed, 
one of the areas I do intend to look at is exploring the 
opportunity for specialization with our attorney core. I think 
that is something that we can work some efficiencies on.
    Senator Brown. Do you have enough--does the Board currently 
have a staff it needs to--basically to remove this backlog, to 
catch up?
    Ms. Mason. Thank you for the question, Senator Brown. 
Congress has been very gracious in providing funding for the 
Board. In fiscal year 2017 they allowed us to hire 
approximately a third more personnel, which was primarily 
attorneys for our direct facing, as well as some judges. At 
this time, I believe that we do have enough. Again, I am 
assessing--if confirmed, I will be assessing the implementation 
of the veterans--the historic legislation with the Improvement 
Modernization Act, compared to the legacy cases, and I will 
work with this Committee and assess our workload, and if I find 
that we need additional resources I will work with the 
Administration and the Department and this Committee in seeking 
those.
    Senator Brown. Thank you, and thank you, all three of you, 
for wanting to serve. Ms. Glynn, thank you. Mr. Reeves, I 
appreciated how you talked about how, when you were the one at 
home, you understood service better, and I think we all thank 
those who serve. We do not often enough thank those who are 
home while those who serve and the sacrifice they make, so 
thank you for pointing it out in such a personal way.
    Let me ask you one question, Mr. Reeves. Under the 
administration's long-range plan, veterans eligible for burial 
at Arlington National Cemetery, will they be able to be buried 
there? Talk, if you would, give us a couple of minutes on 
additional expansion necessary, with capacity, all that.
    Mr. Reeves. Now, Senator, of course, Arlington, you know, 
is under the management of the Army, not the National Cemetery 
Administration, and, if confirmed, I will do everything 
possible to work with the Army and any other individuals that I 
may need to, to assist in any matters they may need.
    Senator Brown. OK. Thank you. Thanks, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Brown.
    Senator Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you all for volunteering to serve. 
Ms. Glynn, I really enjoyed our conversation, and it was such a 
pleasant conversation I did not ask any of the questions that I 
should have asked.
    As I mentioned then, I am very interested in kind of a 
granular understanding of what happens at a particular VA. Not 
the VA in total, which has a spectrum of results, which average 
out to a mean, but this VA, for this program. I gather that 
under your office, analytics and statistics are part of your 
responsibility.
    What could be done for individual members, for him to know 
the VA in Atlanta--and I am sure there is one in Atlanta--what 
are the specific outcomes of their opioid addiction treatment 
program versus the one in Montana, the one in New Orleans, 
Freeport, or Alexandria? Can we get that granular data to know 
the performance of a particular VA facility in a particular 
program?
    Ms. Glynn. Thank you, Senator, for the question. I will 
answer that I am aware of the work that is being undertaken by 
the Veterans Health Administration currently, to be more 
transparent, per the Secretary's priorities related to 
performance. They are currently working through publishing 
ratings per hospital location that will allow a lens into 
performance at each hospital, by specific service area. There 
will be a comparative factor, which will be by hospital, and 
that will be against the market, so against other performing 
medical centers in that market area.
    Senator Cassidy. I have seen those analyses, and I have a 
guy who does systems for DOD looking at them with me, and, you 
know, I am kind of used to looking at hospital data, and I 
struggled to kind of figure it out. As opposed to a 
straightforward, if somebody goes into an opioid addiction 
treatment program in one of four States, what is the likelihood 
that they are truly not going to come back. You know, kind of 
plain English, if you will. This many go in, this many 
successfully complete, this many never again have to be seen 
for the addiction problem, these are followed chronically, and 
these are readmitted.
    Just--that would be helpful to us who do not have 
backgrounds in perhaps hospital administration, because it 
seems like you almost have to to understand that which is 
coming out. Your thoughts on that? Is that possible?
    Ms. Glynn. Senator, thank you. I think there is great 
opportunity to improve the outcome statements related to some 
of the delivery of services, and that is something that I know 
is a VHA-related program. Part of what, if confirmed, the role 
that I would have would be to assess their ability to deliver 
on those promises of how they have designed those programs and 
meet with the Secretary's priorities about publishing results.
    Based on specific requirements and based on guidance that 
you may provide, you know, we can work on validating that that 
information is available and that it can be published and it 
can be published in a way that is in layman's terms and easy to 
navigate.
    Senator Cassidy. Now there are a lot of qualifiers in what 
you just said, and obviously you have not yet been confirmed 
and you are going to have a boss who is going to give some 
certain instruction. I totally get that. Let me just put on 
record--and I know you agree with this so I am not trying to be 
unpleasant--let me put on record, we would like that. I think 
Tester--when I read about the VA in Montana, it seems like it 
works pretty well, but when you look at some VAs across the 
country, not so. And it seems like we should be able to look at 
the VA in our community without having to kind of ``what does 
that mean?'' sort of thing, particularly on those which are the 
most prominent right now, opioid addiction being so prominent. 
We could think of others but that immediately comes to mind.
    Well, again, thank you all for volunteering for your 
service--service to our country. Thank you, Ms. Glynn, and I 
yield back.
    Chairman Isakson. Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chair, and I want to 
congratulate all the nominees, and thank you for your 
willingness to serve. They are really, really important 
positions, really important agencies, so thank you.
    Mr. Reeves, you and I had the opportunity to have a good 
conversation last week, and I had the opportunity, in that 
discussion, to kind of get a broad overview of the mission and 
what you are going to be focused on, and then raised a couple 
of Alaska-specific issues that related to our two veterans' 
cemeteries and some of the other kind of cultural dynamics that 
deal with burial issues in rural and tribal communities.
    If confirmed, can I make sure you--that I get your 
commitment for you to come up to Alaska, like Secretary Shulkin 
has, and he is going to be back up there and work with me on 
some of these issues that are a little bit more distinct but 
also, I think, very important. As I mentioned, you know, the 
Alaska native community, veterans community, we have a very 
strong ethic of service and very, very proud veterans, and 
would love to get you up there to help us with some of these 
challenges.
    Mr. Reeves. Well, Senator, first of all, if confirmed, can 
I get your commitment to invite me to come to Alaska?
    Senator Sullivan. I think that is what I just did.
    Mr. Reeves. I think so, sir. Sir, if confirmed----
    Senator Sullivan. And I think you said yes, right?
    Mr. Reeves. If confirmed, sir----
    Senator Sullivan. Correct?
    Mr. Reeves [continuing]. I will want to go to as many of 
our cemeteries as I possibly can because I am a person who 
works on the ground, and that is where I come from. If I am 
able to, that would be a pleasure for me to do that, if 
confirmed.
    Senator Sullivan. Great. Well, we will just make sure that 
you are able to, when you are confirmed, and then you can do 
that.
    Let me ask Ms. Mason, you know, the issue of the veterans' 
appeals is something that we have been working on for quite 
some time, and I think, again, you are very qualified. You have 
been seeing these issues for, you know, a good part of your 
career. As you can imagine, just the length of time that some 
of these appeals takes is exhausting, for everybody, but in 
particular the veteran who is waiting.
    Give me your sense, given your experience and how you have 
worked on this for a while and for a long time, what do you see 
the key issues that need to be addressed in your new position, 
if you are confirmed, and are you in agreement with some of the 
legislation that we have been working on, very bipartisan, that 
helps with the backlog, which is a very big issue for the VA?
    Ms. Mason. Senator, thank you for the opportunity to 
address that issue. Yes, I am very much supportive and thankful 
of the legislation you have worked very hard on to pass this 
year to help us out. I agree with you, sir. Our veterans wait 
much too long for their decision.
    If confirmed, I intend to look very closely and look for 
opportunities to re-engineer our process as a board, from the 
veteran's perspective. One of the first things I intend to do 
is issue a new decision template. We have not upgraded our 
decision template in 20 years.
    Senator Sullivan. What does that mean, exactly, a decision 
template?
    Ms. Mason. Our current decision template, where we--that is 
what we use to decide the cases--is very long and involved, and 
it does not serve the veterans. It does not get the clear 
answer to the veteran right up front. That is one of the things 
I want to address with our staff, if confirmed.
    The other area where I intend to work, if confirmed, is 
with our VBA partners and our VSO partners. Our VSO partners 
have been extremely important in this appeals modernization 
initiative, and I think that we can continue to work with them 
in other areas as we move forward. Our VBA partners, with the 
opt-in initiatives in the legislation, as well as the new 
initiative RAMP, will be able to give the veteran the choice to 
opt out of the legacy into the new framework, to get earlier 
resolution, allowing the Board to take the next year and a half 
to really--or, actually, it is about 15 months now--to focus on 
those appeals that the veteran has been waiting the longest 
for, and if confirmed I am committed to doing that, sir.
    Senator Sullivan. Great. Good. Well, we look forward to 
working with you on that very important issue.
    Finally, Ms. Glynn, I am not sure this would be in your 
kind of area of responsibility, but one of the things that I 
think Dr. Shulkin has shown a lot of initiative on, and in some 
ways even courage on, is the idea of the focus on trying to 
integrate more appropriately DOD and VA electronic health 
records. That is a big, big undertaking. Can you give me a 
sense of that, and is that in your kind of purview with regard 
to the assistant secretary position, and how can we help on 
that, and what should we be, in our oversight capacity, looking 
for with regard to how that process--which is not going to be 
easy--how that process goes?
    Ms. Glynn. Thank you, Senator, for the question. Well, if 
confirmed, the role I would have would have two points of 
intersection with the electronic health record implementation 
and its interaction with Department of Defense, the first part 
being oversight for the Joint Executive Committee for the VA/
DOD working group, which is more on the policy side, to make 
sure there is appropriate policy interaction, and just the 
framework in place for sharing of resources and moving that 
part forward.
    The second piece is a little bit more on the execution of 
the program itself----
    Senator Sullivan. Good.
    Ms. Glynn [continuing]. Related to the responsibility for 
the modernization activities of the agency. The electronic 
health record is one of the key initiatives that would be under 
modernization, so that responsibility for an independent review 
and assessment for the Veterans Health Administration's 
implementation of the electronic health record system, so we 
would be able to provide kind of an independent validation.
    In terms of your question about what can the Committee do, 
you know, I think as that VHA team, that program office that 
they have now stood up, develops their project plan and their 
concept of operations for implementation, that is something 
that I would anticipate the Committee would want to see and to 
be briefed on that.
    Senator Sullivan. Good. Will you commit to making sure this 
Committee is aware when it is going well, and when it is not 
going well, and just make sure we hear the good news with the 
bad news on that? It is a big, big undertaking. I think it is 
incredibly important. I applaud Secretary Shulkin for doing it, 
but again, it is not going to be easy and he is going to need 
all of our support. Will you let us know the good news and the 
bad news on that?
    Ms. Glynn. Yes. If confirmed, I will, yes.
    Senator Sullivan. Good. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
all of you for being here. I appreciate your opening 
statements, although I did not hear yours, Ms. Glynn, but that 
is my fault, not yours. I appreciate your opening statements. 
They were very good.
    I am going to start with you, Mr. Reeves. The good news is 
by 2018, 92 percent of the veterans will have access to burial 
options within 75 miles of their home. That is good news. 
Unfortunately, ``most veterans'' does not necessarily include 
veterans in my State and other rural States.
    In 2014, we opened the Yellowstone National Cemetery, which 
was a good move to help us address burial needs for veterans in 
Montana. The real question is, though, is we cannot do that 
everywhere, especially in rural States--Alaska, South Dakota, 
Montana, and others. What can we do? If confirmed, what could 
you do to address the burial needs of veterans in rural States 
around this country, including Montana?
    Mr. Reeves. Well, currently, as I understand, in the 
strategic plan for NCA, there is a focus on--and you have 
accurately articulated a lot of that--initiatives to extend the 
burial options to rural areas. The Rural Cemetery Initiative, 
with rural burial grounds, is one of the items that is in that, 
along with the State Cemetery Grants Program.
    If confirmed, one of the areas that I think we need to do, 
that I will want to focus on, as I had mentioned to one of the 
other members earlier, is a methodology of how we determine 
where those veterans are. I think that is so important to being 
able to adjust our programs to be able to serve our rural 
veterans.
    Senator Tester. Once you find out where they are at, then 
what do you do for burial, if they are further than 75 miles 
away from a veteran cemetery?
    Mr. Reeves. If confirmed, I will have to take a look at 
exactly how they are reaching those veterans now, Veterans 
Cemetery Grants Program and/or the Rural Veterans Initiative 
and how that is being implemented, and look at ways to expand, 
first of all, those programs and any additional programs that 
may be able to support those local communities.
    Senator Tester. All right. I know you have got some 
experience working with tribal governments. We have got seven 
reservations in the State. Can you tell me how you would do 
outreach to those folks----
    Mr. Reeves. Well----
    Senator Tester [continuing]. And if it would be any 
different than anybody else?
    Mr. Reeves. Well, first of all, Senator, it would be 
different, based upon cultural needs and preferences, and, you 
know, religious considerations, and where those tribes and/or 
communities are. We have to be sensitive to what those 
communities both believe and what those communities need, based 
upon those beliefs.
    I know that you are concerned with tribal governments.
    Senator Tester. Yes.
    Mr. Reeves. I, too, am, you know, just because I am not out 
West does not mean that I do not have tribal issues, with 
Choctaw Nation and that.
    Senator Tester. Yeah. Well, we will certainly help you in 
that regard, if you need help.
    Dr. Glynn, you know, we talked a bit about the Choice 
program. We talked a bit about we are getting figures. One day 
it is going to last for 3 months, 1 day it is going to last for 
7 months, and the next day it is going to last for 6 weeks. It 
is really tough for the Chairman, myself, and Members on this 
Committee to be able to plan and predict when we do not get 
good, solid numbers.
    I think this is in your bailiwick, and I would like to know 
what you can do to increase projection integrity, if you are 
confirmed for this position.
    Ms. Glynn. Thank you, Senator Tester. As I mentioned 
before, part of--you know, I have mentioned a few times in some 
other responses I have given, we have this modernization 
program that is underway, and there are multiple initiatives. 
One of those key initiatives is Community Care. Therefore, it 
would fall under the role, if I am confirmed, to have oversight 
into how that program and that project is being delivered, what 
is the concept for that, from a project standpoint, including 
forecasting, and we can pay specific attention to the 
forecasting, the budgeting, and the design of those processes, 
as well as with the role that I would have over data governance 
and analysis, from an enterprise perspective, to validate the 
data that is being used by the program.
    Senator Tester. It is your belief that the modernization 
efforts that are in play right now will fix this problem of bad 
forecasting--and it is bad.
    Ms. Glynn. I think it is something for modernization, that 
there is a new program design underway. It does not exist as of 
yet so I would not commit that the plan has been delivered and 
fully vetted at this point. I think that is something that is 
under our purview, to be the vetting agent for.
    Senator Tester. Sounds good. Can you give me one more 
question, Mr. Chairman.
    Chairman Isakson. Sure.
    Senator Tester. All right. It goes to Ms. Mason. You talked 
about, you know, 155,000 veterans that are waiting for appeals. 
You talked about the fact that you have got 700 attorneys and 
you have not used paralegals yet but you might, if you are 
confirmed. It depends on how things work.
    It does not look to me like it is going to be possible to 
get those 155,000 down to zero. Tell me why I am wrong.
    Ms. Mason. Thank you for the opportunity to address that 
question, Senator Tester.
    I am a little bit of an optimist. Actually, I am a pretty 
big optimist when it comes to those things, and I think that 
with the historic Act that you all helped pass and we got 
signed, those opt-ins that are already in the Act, the early 
act says opt-ins that are a part of the Act, as well as the 
RAMP program that we are rolling out this month, will offer 
those choices to the veterans, to move their cases from the 
legacy into the new framework.
    We are working closely with our VSO partners on this, and I 
think through that dialog and through making veterans aware of 
that, we can move some of those cases into early resolution. 
Therefore, I think that the Board can reduce our legacy backlog 
to--I do not know to zero, but close. Thank you.
    Senator Tester. OK. Well I will tell you, I look forward to 
that day. We will do a backflip together. I think that we 
passed a good piece of legislation. I know you are familiar 
with it. You addressed it just now. I would just say that if we 
get this one done, in your position, you need to get big kudos 
for it, because we have been talking about it on this Committee 
for almost 11 years. Johnny has probably been on it longer than 
that; it has been an issue we have dealt with every Congress 
since we have been on here. Thank you for that.
    One last thing. I did not hear your opening statement, Ms. 
Glynn, but you talked about your families yet you did not 
introduce them. I would love to see their faces if I might. We 
can just go right down the line.
    Ms. Glynn. Certainly. Senator Isakson was kind enough to 
ask for my mother to stand earlier.
    Senator Tester. Sorry about that.
    Ms. Glynn. This is my mother, Jo-Ann Serrani.
    Senator Tester. That is what happens when I come late. Good 
to have you here.
    Mr. Reeves. I mentioned my wife and my family but my wife 
did not travel with me on this trip. I would otherwise like to 
introduce Les Beavers, the Executive Director of the State 
Directors of Veterans Affairs, a very close friend of mine, who 
is here to support me.
    Senator Tester. I think I have seen him a time or two.
    Mr. Reeves. I think you have, sir.
    Ms. Mason. Senator Tester, my husband, Lieutenant Colonel 
Brett Mason, U.S. Air Force Retired, and my youngest son, 
Trevor Mason, a high school senior.
    Senator Tester. Great. Thank you all very much for being 
here. I appreciate you putting yourself up for these positions. 
Thank you, and thank you, Mr. Chairman.
    Chairman Isakson. We appreciate all of you being here, and 
we congratulate you. Ms. Mason, when you get that backflip 
scheduled for Senator Tester will you please give us a lot of 
notice. [Laughter.]
    Ms. Mason. I will, sir. Thank you.
    Chairman Isakson. That is one backflip I want to be there 
to see.
    Ms. Mason. Thank you, Mr. Chairman. Clearly I am going to 
have to start working on some limber moves there.
    Chairman Isakson. We will be working closely to get to a 
markup as soon as we can. As soon as that is posted you will be 
notified of that. We appreciate very much your being here 
today, and thank you for your testimony.
    We stand adjourned.
    [Whereupon, at 3:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
      

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
